<html>
<title> - ENERGY AND WATER DEVELOPMENT APPROPRIATIONS FOR FISCAL YEAR 2015</title>
<body><pre>[Senate Hearing 113-]
[From the U.S. Government Publishing Office]



 
    ENERGY AND WATER DEVELOPMENT APPROPRIATIONS FOR FISCAL YEAR 2015

                              ----------                              


                        WEDNESDAY, APRIL 2, 2014

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 2:33 p.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Dianne Feinstein (chairman) 
presiding.
    Present: Senators Feinstein, Landrieu, Tester, Alexander, 
Cochran, and Graham.

                      DEPARTMENT OF DEFENSE--CIVIL

                         Department of the Army

                       Corps of Engineers--Civil

STATEMENT OF HON. JO-ELLEN DARCY, ASSISTANT SECRETARY 
            OF THE ARMY (CIVIL WORKS)
ACCOMPANIED BY HON. THOMAS P. BOSTICK, LIEUTENANT GENERAL, COMMANDING 
            GENERAL AND CHIEF OF ENGINEERS


             opening statement of senator dianne feinstein


    Senator Feinstein. Good afternoon, ladies and gentlemen, 
and welcome to the Energy and Water Subcommittee's Oversight 
Hearing of the fiscal year 2015 budget request from the Bureau 
of Reclamation and the United States Army Corps of Engineers.
    Our witnesses today include Assistant Secretary for Water 
and Science for the Department of Interior, Anne Castle; Lowell 
Pimley, the Acting Commissioner for the Bureau of Reclamation; 
Jo-Ellen Darcy, Assistant Secretary of the Army for Civil 
Works; and Lieutenant General Thomas Bostick, Chief of 
Engineers for the United States Army Corps of Engineers, I 
think a division of the military of which both the ranking 
member and I are very proud and very grateful for your service.
    Before we get started, I just want to take a moment to 
comment on the release of the Corps' detailed budget 
justifications. The budget was released on March 4. The 
completed detailed budget justifications for the Corps were not 
available until today.
    So it is very difficult for us to conduct an oversight 
hearing without those details. So I just want to say, as far as 
fiscal year 2016 is concerned, I would like to please receive 
the assurance that these budget details will be received 
concurrently with the release of the President's budget.
    Madam Secretary, I hope you will agree to that.
    Ms. Darcy. Yes, ma'am.
    Senator Feinstein. Thank you.
    I am a big fan of both of your agencies and the work you do 
across the Nation and, of course, particularly in California. 
Former Commissioner Mike Connor and I had a great working 
relationship. I believe he did with the ranking member as well. 
And I look forward to working with him in his new position as 
Deputy Secretary for the Interior Department.
    The Corps is our only nationwide provider of 
infrastructure, and we depend on them for emergency response 
and recovery from floods and other natural disasters. From an 
investment of just around $5 billion annually, the Corps 
provides tangible benefits of about $55 billion annually. Now, 
that is not according to us, who like them. It is according to 
OMB's (Office of Management and Budget) conservative metrics. 
So the return on the investment is substantial.
    Just as importantly, and particularly so in California, is 
the work undertaken by the Bureau of Reclamation. They are the 
largest water supplier and manager of water in the West. 
Reclamation delivers water to one in five western farmers, 
irrigating 10 million acres of some of the most productive 
agricultural land in the world. And Reclamation provides water 
to 31 million people for municipal, rural, and industrial uses.
    So, in my opinion, the budget requests for both of your 
agencies are really inadequate to meet our Nation's vital 
infrastructure needs. The Corps budget is $4.5 billion. It is 
the lowest budget request for the Corps of Engineers since 
fiscal year 2006. And it is shocking to me, candidly.
    The fiscal year 2015 request is down over $930 million, or 
17 percent, from the fiscal year 2014 enacted amount, which was 
signed into law by the President just 75 days ago. For fiscal 
year 2015, the budget proposes only $1.1 billion for the Corps' 
construction of water infrastructure projects. That is the 
lowest administration proposal for construction since fiscal 
year 1999.
    Now, I was just talking to somebody from Chico, California, 
and they had a tornado. Never had tornadoes before. Who knows 
what is happening with weather and hurricanes and damages that 
are done. So we have our job, members, ahead of us--you are not 
listening----
    Senator Alexander. Oh, I am.
    Senator Feinstein [continuing]. To try to see if we can 
plus some of this up in some way because I very much believe 
that the need is there.
    Reclamation's budget is not cut as severely as the Corps. 
It is down $70 million, or 6 percent, from 2014 levels.
    Federal investments in our water resource infrastructure I 
believe are key to providing better protection to our citizens 
and mitigating the damages from natural disasters. We know it 
is much cheaper to design and construct projects in a reasoned, 
thoughtful manner before a disaster occurs than to react after 
its aftermath. If we don't invest more in our water resources 
today, we are going to be forced to spend more in recovery 
efforts following massive natural disasters tomorrow.
    So I look forward to hearing more from our witnesses. But 
right now, I would like to turn to my very distinguished 
partner on this bill, our ranking member, Senator Lamar 
Alexander.


                  statement of senator lamar alexander


    Senator Alexander. Thank you, Madam Chairman. I look 
forward to working with you.
    And welcome, Secretary Darcy and General Bostick. Good to 
see you both again. Secretary Castle, Commissioner Pimley, good 
to have you here. Thank you for coming.
    I want to thank the chairman for holding the hearing, and I 
want to start by thanking Secretary Darcy and General Bostick 
of the Nashville District of the Corps for the outstanding job 
they did working with the U.S. Fish and Wildlife Service on the 
water levels at Lake Cumberland.
    We got the dam fixed, and then we found this fish and it 
threatened to slow things down in getting the water level back 
up. It is going to be back up, I understand, before the April 
14 Lake Cumberland bass fishing tournament. That is not 
important to some people, but it is to others.
    And I would like for you to know that the people of 
Kentucky and Tennessee appreciate very much the fact that you 
worked on an accelerated schedule to get the water level back 
up toward where it needs to be, and we thank you very much for 
that, as well as for the good job of repairing the dam. This is 
something we have looked forward to for quite a while.
    I agree, the chairman has already made the point, it is 
hard to have a hearing without the budget and to only get it on 
the day--get the details only the day before is not helpful. I 
look forward to what you have to say.
    Let me mention four priorities I have, briefly. Restarting 
Chickamauga Lock construction; two, increased funding for ports 
generally; three, fully dredging the Port of Memphis; and four, 
making sure that Corps regulations aren't unnecessarily 
burdensome to American business, including our farmers.
    First, on Chickamauga Lock. We have talked here about how 
important it is to Oak Ridge Lab, to power plants, TVA 
(Tennessee Valley Authority) power plants, to chemical 
businesses, to countless other businesses in East Tennessee 
about the number of big trucks it keeps off our highways. And 
we have been working with you to try to create an environment 
in which you will have two things.
    One is an agreed-upon list of projects so you don't get 
pulled and pushed quite as much by Members of Congress and, 
second, enough money to do the projects. And last year, we 
increased funding for inland navigation by $81 million by 
changing the funding formula for Olmsted Lock for 1 year.
    We have been working to increase funding for inland 
navigation by permanently changing the cost share for Olmsted, 
and of course, that new capital development plan should create 
a more orderly way to deal with the various projects. And I am 
pleased to see that under that plan, Chickamauga Lock ranks 
fourth for funding and is a part of the Water Resources 
Development Act reauthorization.
    I want to work with General Bostick and Secretary Darcy to 
make sure the cost share is made permanent and that your 
follow-through with lock construction is included in the 
capital development plan.
    Second, it is no secret that we collect more money for the 
harbor maintenance fee than we spend each year on port and 
harbor maintenance. Last fiscal year, we collected almost $1.6 
billion in fees and only spent $844 million of it. We talked 
together in a bipartisan way, and with you and with industry, 
and have come to a 6-year agreement to try to cause the amount 
of money we collect to equal the amount of money we spend, and 
we made the appropriate progress toward that last year.
    I would like to keep making progress toward that. If we 
collect the money for ports, we should spend the money for 
ports. It is not right to do it any other way.
    Third, the Port of Memphis has at least $4 million in 
dredging work that needs to be done. Yet the President's budget 
request only includes $1.1 million. Port of Memphis is home to 
manufacturing of steel and household appliances, agricultural 
exports, oil refining, and a TVA power plant. Supporting the 
transportation of these things is in our Government's interest 
if we want to have a strong economy. And I hope that is a 
priority.
    And finally, I am troubled by the recent rulemaking the 
Corps has entered into with the EPA, the Environmental 
Protection Agency, which changes the definition of waters of 
the United States in an attempt to expand the regulatory 
authority of the EPA. I am hearing a lot about that from 
farmers in my State. They are afraid the rule will mean that 
farm ponds, even man-made ponds as well as drainage ditches, 
will be regulated.
    Many acres of farmland in Tennessee have historically been 
farmed as a result of man-made drainage ditches. That now would 
be subject to the clean water regulation. This will require at 
least a burdensome permitting process, may end up with the 
farmers in court.
    Our General Assembly in Tennessee in 2009 clarified that 
field drainage ditches are not regulated waters. A lot of time 
and effort was devoted to that, and we hope that is respected 
by the Federal Government. Not to do that would be the kind of 
agency overreach that Members of both parties do not agree 
with, and it over-politicizes the work of the subcommittee.
    So, again, I will end where I started. Thank you for your 
good work on Lake Cumberland. I look forward to working with 
you on your budget, and especially on the four priorities that 
I outlined.
    Thank you, Madam Chairman.
    Senator Feinstein. And I thank you, Senator.
    Senator Landrieu, do you have an opening statement?
    Senator Landrieu. I do. Thank you, Madam Chair.
    Senator Feinstein. Oh, I beg your pardon.
    Senator Landrieu. I am sorry. Senator Cochran.
    Senator Feinstein. Senator Cochran, you are so quiet. I 
didn't see you. If you would like to make a brief opening 
statement, please go ahead.


                   statement of senator thad cochran


    Senator Cochran. Madam Chair, thank you very much. And 
thank you for scheduling and chairing this hearing to review 
the President's budget request for 2015 year, fiscal year 
funding, which is requested for the U.S. Army Corps of 
Engineers and the U.S. Department of Interior.
    The funding recommended to be appropriated by our committee 
will be used to support dredging of ports, flood control, and 
other very important construction and maintenance projects. The 
Mississippi River and Gulf of Mexico provide great economic 
benefits with respect to water-borne transportation. They 
provide access to foreign markets and access to the most 
fertile soils in the world--in the Mississippi Delta.
    With those great benefits come responsibilities and risks, 
and we need to be sure that we are providing support for the 
Army Corps of Engineers to do its duty and carry out its 
responsibilities in providing flood control protection and 
other essential elements of this project. We provide support 
for those activities, and we look forward to hearing the 
specific recommendations that you will be making and trying to 
make decisions that are consistent with these very important 
national interests.
    Thank you.
    Senator Feinstein. Thank you, Senator Cochran.
    Senator Landrieu.


                 statement of senator mary l. landrieu


    Senator Landrieu. Thank you. Yes. Senator Feinstein, thank 
you for your leadership. And I will try to be brief and put 
some of my remarks into the record.
    But as you all know, the Society of Civil Engineers has 
given our inland waterway infrastructure system a D-minus in 
their 2013 report card. Yet the budget that we are reviewing 
today with the Army Corps of Engineers, this amount represents 
the smallest percentage of the Federal budget in more than 200-
year history of the Army Corps. It is a 17-percent decrease 
from last year's budget. It is woefully inadequate.
    Now Senator Feinstein and the ranking member and the 
members say this every year. The chairman has tried to work to 
bring additional resources and was successful last year in 
identifying some additional resources for this budget. But we 
are starting way behind the eight ball at this meeting.
    Louisiana and the Gulf Coast could literally allocate the 
entire budget in just projects that we have that are authorized 
and that are literally shovel-ready, ready to go, just 
America's energy coast: Louisiana, Mississippi, parts of 
Alabama, not even counting Texas. We have, for instance, the 
Port of Lake Charles, Madam Chair, has attracted somewhere 
between $40--I will be conservative--$40 billion to $60 billion 
in private investment. Private investment. And we can't find 
enough money to dredge the shipping channel that supports this 
private investment.
    I know that you have read about what the Houston shipping 
channel looks like. They just had an accident there last week. 
Somebody described it as--one of the reporters--it is like 
playing chicken in the Houston shipping channel, their locks 
and dams, et cetera.
    So if this committee last year, because of the chairman's 
leadership, allocated an additional $10 million over this 
budget. We found $750 million in unallocated funds that we were 
able to provide to you all to help. But we have got to step up 
in some way and find some additional funding.
    Finally, this committee upped the President's request for 
Harbor Maintenance Trust Fund last year from $890 million to $1 
billion. While this year it is $915 million request, it is well 
short of the $1.8 million that was collected last year in the 
Harbor--I am sorry--billion. I am sorry, $1.8 billion.
    Senator Alexander has been hard at work with Senator 
Feinstein on that, but we have got to step up our maintenance 
in our waterways. It is a very important part of our national 
economy. It affects every State. And unlike highways that seem 
to get a lot of attention and unlike railways that seem to get 
a lot of attention, our waterways are woefully underfunded, and 
it is hurting the economy and restricting the economic growth 
of our country.
    So I look forward, as a member of this committee, to trying 
to find additional resources to allocate to some of these 
priorities. And I thank the chairman for holding this hearing.
    Senator Feinstein. Thank you very much, Senator.
    And who would like to go first? I would urge you to keep 
your--we have your written comments--keep your remarks as short 
as you wish so that we can have some time for questions. One of 
the secretaries. Secretary Darcy, please proceed.


                summary statement of hon. jo-ellen darcy


    Ms. Darcy. How about I go first?
    Thank you, Chairman Feinstein and distinguished members of 
the subcommittee. Thank you for the opportunity to present the 
President's budget for the Civil Works Program of the Army 
Corps of Engineers for fiscal year 2015.
    This budget for 2015 for the Civil Works Program provides a 
fiscally prudent and a sound level of Federal investment in the 
Nation's water resources. The President's 2015 budget includes 
$4.561 billion in gross discretionary appropriations for the 
Army Civil Works Program offset by a $28 million cancellation 
of unobligated carry-in to fiscal year 2015; a total of nine 
construction projects, three of which are navigation, four are 
flood risk management, and two are aquatic ecosystem 
restoration projects; 28 studies as well as six designs are 
funded to completion in this budget.
    Completed construction projects will result in immediate 
benefits to the Nation and directly impact many local 
communities as benefits are realized from the combined Federal 
and non-Federal investments. The civil works budget includes 
funding for one priority construction new start and 10 new 
study starts in the investigations account, including the water 
resources priority study, which will build on and broaden the 
progress that is being made in the Corps' North Atlantic Coast 
Comprehensive Study, which is funded under the Sandy 
supplemental bill.
    At a funding level of $915 million, the budget provides for 
the third consecutive year the highest amount ever proposed in 
a President's budget for work financed through the Harbor 
Maintenance Trust Fund in order to maintain our coastal 
channels and for related works in those channels.
    The budget funds capital investments in the inland 
waterways based on the estimated revenues in the Inland 
Waterways Trust Fund under current law. However, the budget 
also assumes enactment of the legislative proposal submitted to 
the Joint Select Committee on Deficit Reduction in 2011, which 
would reform the laws governing the Inland Waterways Trust 
Fund.
    The Administration's proposal would generate approximately 
$1.1 billion in additional revenue over 10 years from the 
commercial users of these inland waterways. This amount 
reflects estimates of future capital investment for navigation 
on these waterways over the next decade, including an estimate 
adopted by the Inland Waterways Users Board. The proposal is 
needed in order to ensure that the revenue paid by commercial 
navigation users is sufficient to meet their share of the costs 
of capital investments on the inland waterways, which would 
enable a significant increase in funding for such investments 
in the future.
    The budget provides $398 million for dam and levee safety 
activities, including $38 million to continue the levee safety 
initiative, which involves an assessment of the conditions of 
Federal levees.
    In continued support for the President's Veterans Job 
Corps, the budget includes $4.5 million to continue the 
Veterans Curation Project, which provides vocational 
rehabilitation and innovative training for wounded and disabled 
veterans while achieving historic preservation responsibilities 
for archeological collections administrated by the Corps of 
Engineers.


                           prepared statement


    In summary, the 2015 budget for the Army Civil Works 
Program is a performance-based budget that supports an 
appropriate level of Federal funding for continued progress 
with emphasis on those water resources investments that will 
yield high economic, environmental, and safety returns for the 
Nation and its citizens. These investments will contribute to a 
stronger economy, support water-borne transportation, reduce 
flood risks to businesses and homes, restore important 
ecosystems, provide low-cost renewable hydropower, and deliver 
other benefits to the American people.
    Chairman Feinstein and members of the subcommittee, I look 
forward to working with you in support of the President's 
budget. Thank you.
    [The statement follows:]
               Prepared Statement of Hon. Jo-Ellen Darcy
    Madam Chairman and distinguished members of the subcommittee, thank 
you for the opportunity to present the President's budget for the Civil 
Works program of the Army Corps of Engineers for fiscal year 2015.
                                overview
    The fiscal year 2015 budget for the Civil Works program reflects 
the Administration's priorities through targeted investments to 
develop, manage, and restore water resources. Commercial navigation, 
flood and storm damage reduction, and aquatic ecosystem restoration are 
the primary mission areas of the Army Civil Works program. The budget 
also supports related efforts at existing projects owned or operated by 
the Corps (hydropower, recreation, environmental stewardship, and water 
supply storage); as well as emergency preparedness and training to 
respond to natural disasters, the regulatory program, and the 
restoration of certain sites contaminated as a result of the Nation's 
early efforts to develop atomic weapons. These investments will 
contribute to a stronger economy, improve reliability of waterborne 
transportation, reduce flood risks to businesses and homes, increase 
public safety, protect and restore aquatic ecosystems affected by water 
resources development, and support American jobs.
    The primary objectives of the budget are as follows:
  --Focus funding on water resources investments that will yield high 
        economic and environmental returns or address a significant 
        risk to public safety, including investing in restoring 
        significant aquatic ecosystems to help promote their ecological 
        sustainability and resilience.
  --Support commercial navigation through investments in maintenance 
        and related activities at the most heavily used coastal ports 
        and inland waterways in the Nation.
  --Increase the organizational efficiency and improve the management, 
        oversight, and performance of ongoing programs.
              fiscal year 2015 discretionary funding level
    The budget for fiscal year 2015 for the Civil Works program 
provides a fiscally prudent and sound level of Federal investment in 
the Nation's water resources.
    In keeping with the Administration's commitment to continue to 
invest in those efforts that are a priority for the Nation, while 
putting the country on a sustainable fiscal path, the budget includes 
$4.561 billion in gross discretionary appropriations for the Army Civil 
Works program offset by a $28 million cancellation of unobligated 
carry-in to fiscal year 2015, including funds previously earmarked for 
particular programs, projects, or activities. This gross funding level 
represents the amount of new Federal discretionary resources that would 
be available to the Civil Works program.
    Within the $4.561 billion recommended appropriations, $1.125 
billion is for projects in the Construction account, and $2.6 billion 
is for activities funded in the Operation and Maintenance account. The 
budget also includes $80 million for Investigations; $245 million for 
Mississippi River and Tributaries; $28 million for Flood Control and 
Coastal Emergencies; $200 million for the Regulatory Program; $100 
million for the Formerly Utilized Sites Remedial Action Program; $178 
million for the Expenses account; and $5 million for the Office of the 
Assistant Secretary of the Army for Civil Works. Attachment 1 shows 
this funding by account and program area.
    [The attachment follows:]

                                         ATTACHMENT 1--FISCAL YEAR 2015 BUDGET--BUSINESS LINE/ACCOUNT CROSS-WALK
                                                                [In millions of dollars]
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                      Funding Categories
                                    --------------------------------------------------------------------------------------------------------------------
                                                                               MR&T
           Business Lines                                      ------------------------------------                                       OASA
                                        I        C       O&M                                TOTAL    FUSRAP    FCCE     REG       E       (CW)    TOTAL
                                                                   I        C       O&M      MRT
--------------------------------------------------------------------------------------------------------------------------------------------------------
Flood and Coastal Storm Damage            37      548      567       10       55      105      169  .......  .......  .......  .......  .......    1,321
 Reduction.........................
    Coastal........................        4  .......       14  .......  .......  .......  .......  .......  .......  .......  .......  .......       18
    Inland.........................       33      548      553       10       55      105      170  .......  .......  .......  .......  .......    1,304
Hydropower.........................  .......        2      209  .......  .......  .......  .......  .......  .......  .......  .......  .......      211
Navigation.........................       22      277    1,487  .......        8       31       39  .......  .......  .......  .......  .......    1,825
    Coastal........................       17       97      875  .......  .......        2        2  .......  .......  .......  .......  .......      991
    Inland.........................        5      180      612  .......        8       29       37  .......  .......  .......  .......  .......      834
Environment........................  .......  .......  .......  .......  .......  .......  .......  .......  .......  .......  .......  .......  .......
    Aquatic Ecosystem Restoration..       21      298       15  .......        2  .......        2  .......  .......  .......  .......  .......      337
    Stewardship....................  .......  .......       74  .......  .......        5        5  .......  .......  .......  .......  .......       78
    FUSRAP.........................  .......  .......  .......  .......  .......  .......  .......      100  .......  .......  .......  .......      100
Regulatory.........................  .......  .......  .......  .......  .......  .......  .......  .......      200  .......  .......  .......      200
Recreation.........................  .......  .......      236  .......  .......       11       11  .......  .......  .......  .......  .......      247
Emergency Management (incl. NEPP)..  .......  .......        4  .......  .......  .......  .......  .......  .......       28  .......  .......       32
Water Supply.......................       <1  .......        7  .......       19  .......       19  .......  .......  .......  .......  .......       26
Expenses...........................  .......  .......  .......  .......  .......  .......  .......  .......  .......  .......      178  .......      178
OASA(CW)...........................  .......  .......  .......  .......  .......  .......  .......  .......  .......  .......  .......        5        5
                                    --------------------------------------------------------------------------------------------------------------------
      TOTAL........................       80    1,125    2,588  .......  .......  .......      245      100      200       28      178        5    4,561
--------------------------------------------------------------------------------------------------------------------------------------------------------
I = Investigations; C = Construction; O&M = Operation and Maintenance; MR&T = Flood Control, Mississippi River and Tributaries; FUSRAP = Formerly
  Utilized Sites Remedial Action Program; FCCE = Flood Control and Coastal Emergencies; REG = Regulatory Program; NEPP = National Emergency Preparedness
  Program; E = Expenses; OASA(CW) = Office of the Assistant Secretary of the Army for Civil Works.


    A total of nine construction projects (three navigation projects, 
four flood risk management projects, and two aquatic ecosystem 
restoration projects), 28 studies, and 6 designs are funded to 
completion in the budget. Completed construction projects will result 
in immediate benefits to the Nation and directly impact many local 
communities as benefits are realized from the combined Federal and non-
Federal investments.
                            budget criteria
    The fiscal year 2015 budget continues the Army's commitment to a 
performance-based approach to budgeting to provide the best overall 
return for the Nation in achieving economic, environmental, and public 
safety objectives. Competing investment opportunities for studies, 
design, construction, and operation and maintenance were evaluated 
using objective performance metrics, which guided the allocation of 
funds.
    Within the Investigations account, deciding which studies to pursue 
can be a challenge. The Corps must use its professional judgment in 
these situations. Generally, funding is allocated to those studies that 
appear the most promising based on the potential for high economic, 
environmental, and safety returns to the Nation; and have an active 
local sponsor. Under the SMART Planning initiative, to be eligible for 
funding the Corps (the District, Division, and Headquarters) must also 
have reached agreement with the local sponsor on the scope, cost, and 
schedule of the study. This improvement to the planning process is 
helping to bring studies to a conclusion sooner and with less money 
without compromising the quality of the analyses.
                  new investments in fiscal year 2015
    The Civil Works budget includes $10 million to start construction 
of a nationally significant aquatic ecosystem restoration effort, the 
Louisiana Coastal Area Ecosystem Restoration program. This program, 
authorized in the Water Resources Development Act of 2007, is needed to 
restore habitat while reducing the risk of damage to coastal Louisiana 
from storm driven waves and tides, and complements the ongoing Federal 
effort under the Coastal Wetlands Planning, Protection, and Restoration 
Act. The Administration is committed to restoration of the Gulf Coast, 
and starting construction on this program serves as an important step 
in fulfilling that commitment.
    The budget also includes funding for 11 new study starts in the 
Investigations account. Two of these studies support efforts to 
encourage States and communities to assume responsibility for the 
development, management, restoration, and protection of water 
resources. Those studies focus on the disposition of locks that are no 
longer being used for commercial navigation, or have very little 
commercial navigation; these studies are the Allegheny River 
Disposition study in Pennsylvania and the Kentucky River Locks 1-4 
Disposition in Kentucky.
    Three additional studies are focused on deep draft navigation 
improvements--Manatee Harbor, Florida; New Haven Harbor Deepening, 
Connecticut; and San Juan Harbor Navigation Improvements, Puerto Rico. 
The principal criterion used to select these studies was the 
anticipated economic return to the Nation.
    Three studies are focused on flood risk management--Du Page River, 
Illinois; Fairfield and New Haven Counties, Connecticut; and Short 
Creek and Wheeling Creek, Ohio. The principal criteria used to select 
these studies were the population affected, the condition of the flood 
damage reduction measures that currently exist, and the potential 
consequence of a flood event.
    One new aquatic ecosystem restoration study--Salton Sea 
Restoration, California--will examine the potential for a project of 
environmental improvements to the Salton Sea.
    Finally, the budget again includes funding for the Water Resources 
Priorities Study. This study would assess the Nation's vulnerability to 
inland and coastal flooding; compare the flood risks faced by different 
regions of the United States; evaluate the effectiveness of current 
approaches to reducing these risks in different settings at the 
Federal, State, and local levels; and develop recommendations to 
improve existing programs to save lives, and reduce flood losses and 
associated recovery costs nationwide, in ways that will also promote 
the long-term sustainability of communities and ecosystems. In short, 
it would improve our understanding of why flood costs are increasing so 
dramatically and identify better ways for the Nation to address these 
risks. This is not being proposed as a study leading to a new project, 
and thus should not be subject to any potential limitation on new 
starts. Rather, this study will build on, and broaden, progress being 
made by the Corps in its North Atlantic Coast Comprehensive Study under 
the Disaster Relief Appropriations Act of 2013, Public Law 112-3, and 
is a logical next step to that effort.
                               navigation
    The budget includes $1.825 billion in support of global and 
domestic waterborne transportation, with emphasis on the coastal ports 
and inland waterways that support the greatest national economic 
activity.
    The Cleveland Harbor (Dike Raise), Ohio; New York and New Jersey 
Harbor, New York and New Jersey; and Texas City Channel (50-Foot 
Project), Texas Dredged Material Placement Facility projects are all 
funded to completion in fiscal year 2015.
    At a funding level of $915 million, the budget provides, for the 
third consecutive year, the highest amount ever proposed in a 
President's budget for work financed from the Harbor Maintenance Trust 
Fund to maintain coastal channels and for related work. The fiscal year 
2015 budget includes $595 million for the operation and maintenance of 
inland waterways.
    Overall, the total number of lock closures due to mechanical 
failures at main chamber locks on the high and moderate commercial use 
inland waterways has decreased, in both fiscal year 2012 and fiscal 
year 2013.
    For the operation and maintenance of navigation projects with a low 
level of commercial use (coastal and inland combined), the budget 
provides $113 million. Starting in 2012, the Corps modified the levels 
of service for certain inland waterways locks. This has resulted in 
reduced operating costs and the Corps is using these savings for work 
on these waterways or other inland waterways.
    The budget continues to include funding in both the Investigations 
and Construction accounts on proposals to deepen and widen channels at 
several of our coastal ports to accommodate post-Panamax vessels with 
deeper drafts. Within the Investigations account, funding is included 
to complete feasibility studies for Charleston Harbor, South Carolina 
and Wilmington Harbor, North Carolina; continue design efforts at 
Boston Harbor, Massachusetts, Savannah Harbor, Georgia, and Freeport 
Harbor, Texas; and to complete design efforts at Jacksonville Harbor, 
Florida. Within the Construction account, funding is included to 
continue construction of a new dredged material placement facility at 
Charleston Harbor, North Carolina.
    The budget includes $160 million for Olmsted Lock and Dam, 
Illinois, of which $80 million would be derived from the Inland 
Waterways Trust Fund. The budget does not support a reduction in the 
portion of the costs of this project financed from this trust fund. The 
budget also includes $9 million for ongoing work to address dam safety 
issues at Locks and Dams 2, 3, 4, Monongahela River, Pennsylvania, of 
which $4.5 million would be derived from the Inland Waterways Trust 
Fund.
    The budget funds capital investments in the inland waterways based 
on the estimated revenues to the Inland Waterways Trust Fund under 
current law. However, the budget also assumes enactment of the 
legislative proposal submitted to the Joint Select Committee on Deficit 
Reduction in 2011, which would reform the laws governing the Inland 
Waterways Trust Fund, including an annual per vessel fee to increase 
the amount paid by commercial navigation users of the inland waterways 
sufficiently to meet their 50-percent share of the capital investments 
that the Army Corps of Engineers incurs on their behalf. The revenue 
from this user fee would supplement the revenue from the existing 
excise tax on liquids used as fuel in commercial transportation on the 
inland waterways.
    The Administration's proposal would generate an estimated $1.1 
billion in additional revenue over 10 years from the commercial users 
of these inland waterways. This amount reflects estimates of future 
capital investment for navigation on these waterways over the next 
decade, including an estimate adopted by the Inland Waterways Users 
Board (Users Board). The proposal is needed to ensure that the revenue 
paid by commercial navigation users is sufficient to meet their share 
of the costs of capital investments on the inland waterways, which 
would enable a significant increase in funding for such investments in 
the future.
    Under the Administration's proposal, the Corps would be able to 
structure the user fee in two tiers. Nearly all of the capital 
investment by the Corps to support commercial navigation on these 
waterways involves work at Corps locks and dams. Under a two-tiered fee 
system, those who use the locks and dams would pay more of the non-
Federal share of capital investments, as they should. This would 
increase economic efficiency by requiring the specific users who 
benefit from these investments to internalize the costs. The 
Administration's proposal also includes other needed changes, which 
would clarify the scope of cost-sharing for inland waterways capital 
investment, and the authority for appropriating funds from the IWTF and 
from the General Fund to finance inland waterways costs; and would 
close an existing loophole under which traffic on roughly 1,000 miles 
of the inland waterways does not now pay the fuel tax.
                         flood risk management
    Through both structural and nonstructural measures, the flood risk 
management program serves as a vehicle to reduce the risk to safety and 
property from riverine and coastal flooding.
    The fiscal year 2015 budget provides $1.3 billion for the flood 
risk management program, which includes $325.7 million for construction 
of dam safety projects, $34 million for the assessment of existing dam 
safety projects, development of dam safety modification reports, and 
preconstruction engineering and design for existing dam safety 
projects, and $38 million to continue the levee safety initiative, 
which involves an assessment of the conditions of Federal levees.
    Between 10 percent and 15 percent of the levees in the Nation are 
maintained by the Corps, or are maintained by others and inspected by 
the Corps. The fiscal year 2015 budget includes funds for periodic 
inspections, levee screenings, and risk characterization by the Corps 
of these levees. The most prevalent deficiencies that the Corps has 
found to date have mostly been related to vegetation, encroachments, 
and culverts. Where the levee is a local responsibility, the Corps will 
suggest both structural and nonstructural risk reduction measures that 
the local authority can take to improve the condition of its levee and 
manage its flood risk.
    The budget also includes $2 million under the National Flood Risk 
Management Program to support the continued development of interagency 
teams known as Silver Jackets to provide unified Federal assistance in 
implementing flood risk management solutions. Silver Jackets teams have 
now been established in 41 States.
    The Dover Dam, Muskingum River, Ohio and Muddy River, Massachusetts 
projects are both funded to completion in the fiscal year 2015 budget.
                     aquatic ecosystem restoration
    The fiscal year 2015 budget reflects a continuing effort by the 
Administration to have a coordinated approach to restoring significant 
aquatic ecosystems. The Corps has been working collaboratively with 
other Federal resource agencies on this effort. Attachment 2 provides a 
list of these ecosystems and the associated funding in the fiscal year 
2015 budget for the Civil Works program.
    [The attachment follows:]

                FISCAL YEAR 2015 LARGE ECOSYSTEM FUNDING
                        [In millions of dollars]
------------------------------------------------------------------------
 Ecosystem
Account \1\                 Projects and Studies                 Amount
------------------------------------------------------------------------
           Bay Delta:
          I    Yuba Fish Passage                                   .2
          I    CALFED Coordination                                 .1
          I    Sac River Bank Protection                          1
          C    Hamilton City                                      3.8
          C    Sac River Bank Protection                          3
        O&M    Additional studies and projects in Navigation     35.62
                and Flood Risk Management Programs
        O&M    Fish and Wildlife                                  1.24
                                                             -----------
                 Total, Bay Delta                                44.96
                                                             ===========
           Chesapeake Bay:
          I    Chesapeake Bay Comp                                 .1
          I    Anacostia--Montgomery                               .25
          I    Anacostia--Prince Georges                           .25
          I    Lynnhaven River Basin                               .6
          C    Chesapeake Oysters                                 5
          C    Poplar Island                                     15.1
        O&M    Fish and Wildlife                                  1.42
                                                             -----------
                 Total, Chesapeake Bay                           22.72
                                                             ===========
           Everglades:
          C    Everglades                                        65.55
        O&M    Everglades                                         9.03
        O&M    Fish and Wildlife                                   .86
                                                             -----------
                 Total, Everglades                               75.44
                                                             ===========
           Great Lakes:
          I    Interbasin Control Study (GLMRIS)                   .5
          C    Chicago Sanitary and Ship Canal (CSSC)            29
          C    Green Bay Harbor                                    .13
          C    Cleveland Harbor                                   5.73
        O&M    Dredging                                          87.54
                                                             -----------
                 Total, Great Lakes                             122.9
                                                             ===========
           Gulf Coast:
          I    LCA--studies, PED                                  2.5
          I    Coastal Texas Feasibility study                     .2
          C    LCA--construction                                 10
        O&M    Fish and Wildlife                                  1.16
                                                             -----------
                 Total, Gulf Coast                               13.86
------------------------------------------------------------------------
           \1\ Key: I = Investigation; C = Construction; O&M = Operation
             and Maintenance.


    The budget for the Army Civil Works program provides $74.9 million 
for the ongoing South Florida Ecosystem Restoration Program, which 
includes the Everglades, consisting of $65.6 million in the 
Construction account and $9 million in the Operation and Maintenance 
account. The budget includes $29 million in Construction and $500,000 
in Investigations to continue efforts to combat the threat of Asian 
Carp and other aquatic invasive species in the Great Lakes region. 
Approximately $1.5 million of fiscal year 2014 funds are projected to 
be carried into fiscal year 2015, which will be used in conjunction 
with the budgeted funds to further the Great Lakes Mississippi River 
Interbasin Study efforts.
    The budget includes $71 million for the Columbia River Fish 
Mitigation program in order to meet requirements laid out in the 
Columbia River Biological Opinion and to meet commitments made under 
the Columbia River Basin Fish Accords. The budget includes statutory 
language to increase the authorized program limits for the Lower 
Columbia River Ecosystem Restoration, Oregon and Washington 
construction program and for the research efforts on the Lower Columbia 
River, which have both been relied upon to meet requirements laid out 
in the Columbia River Biological Opinion.
    In addition, the budget includes funds to initiate two new phase 
feasibility studies on the Russian River in California in order to 
address requirements laid out in the 2008 Russian River Biological 
Opinion. These feasibility studies will serve as the follow-up to the 
reconnaissance study that was initiated in fiscal year 2014. The Corps 
anticipates that the operational requirements and the likely 
alternatives needed to address problems in the study area will be 
specific to each facility, warranting separate feasibility studies. It 
has been common practice for the Corps to use one reconnaissance study 
to determine if there is a Federal interest in addressing the same 
water resource challenge in the same geographic area with the same 
project sponsor, before moving to separate feasibility studies.
    The budget also provides $48.8 million for ongoing work under the 
Missouri River Fish and Wildlife Recovery program, including funds to 
award construction of the Yellowstone Intake Dam Diversion project.
                    resilience to a changing climate
    The budget supports continued progress on very important 
investments that will yield long-term returns for the Nation. For 
example, the Corps of Engineers continues its active role in climate 
change adaptation. Through the Administration's proposed Opportunity, 
Growth, and Security Initiative, the Corps would be able to further its 
efforts to increase the resilience of water resources infrastructure to 
a changing climate. This would include investments in small flood risk 
reduction projects, with the focus on nonstructural and/or natural 
approaches to risk reduction. It would also provide technical 
assistance to non-Federal, State, and local agencies to assist and 
enable their development and implementation of nonstructural actions to 
reduce risks; and an interagency study by Corps and the Bureau of 
Reclamation to develop more resilient approaches to Federal development 
and management of water resources infrastructure to support project 
planning.
                       sustainability and energy
    We have redoubled our efforts to leverage third party financing to 
achieve Administration, Energy Policy Act (EPAct 2005), and Energy 
Independence and Security Act (EISA 2007) energy efficiency and 
renewable energy goals while reducing the demand on appropriated funds. 
By leveraging investments made since January 1999 in USACE hydropower 
infrastructure, we are now solidly ``GREEN'' on the Federal renewable 
energy goal (7.5 percent of total agency electricity in fiscal year 
2013). We achieved a new high in renewable energy use in fiscal year 
2013: 12.1 percent of our electricity consumption in fiscal year 2013 
was provided by renewable resources, the majority of which (78 percent) 
we generated on-site in our hydropower dams.
                           regulatory program
    The budget includes $200 million for the Regulatory Program, which 
is the level provided in the enacted appropriations for fiscal year 
2014, to enable the Corps to continue to protect high-value aquatic 
resources, enable more timely business planning decisions via a 
transparent and timely permit review process, and support sustainable 
economic development.
                       veterans curation project
    In continued support of the President's Veterans Job Corps, the 
fiscal year 2015 budget includes $4.5 million to continue the Veterans 
Curation Project, which provides vocational rehabilitation and 
innovative training for wounded and disabled veterans, while achieving 
historical preservation responsibilities for archaeological collections 
administered by the Corps. The project supports work by veterans at 
curation laboratories located in August, Georgia; St. Louis, Missouri; 
and the Washington, DC area.
                               conclusion
    In summary, the President's fiscal year 2015 budget for the Army 
Civil Works program is a performance-based budget that supports an 
appropriate level of Federal funding for continued progress, with 
emphasis on those water resources investments that will yield high 
economic, environmental, and safety returns for the Nation and its 
citizens.
    These investments will contribute to a stronger economy, support 
waterborne transportation, reduce flood risks to businesses and homes, 
restore important ecosystems, provide low-cost renewable hydropower, 
and deliver other benefits to the American people.
    Madam Chairman and members of the subcommittee, I look forward to 
working with this subcommittee in support of the President's budget. 
Thank you.

    Senator Feinstein. Thank you very much, Madam Secretary.

                       DEPARTMENT OF THE INTERIOR


                         Bureau of Reclamation

STATEMENT OF HON. ANNE CASTLE, ASSISTANT SECRETARY FOR 
            WATER AND SCIENCE
ACCOMPANIED BY HON. LOWELL PIMLEY, ACTING COMMISSIONER

    Senator Feinstein. Secretary Castle.
    Ms. Castle. Thank you, Madam Chair, Ranking Member 
Alexander, Senators. Thanks for the opportunity to talk to you 
today about Interior's Water-Related Programs and the 
President's 2015 budget request.
    Acting Commissioner Pimley will address the specifics of 
the Reclamation budget, and I will highlight some of the 
Department's programs related to addressing the water 
challenges that we face in this country.
    It is well known that we are confronted with unprecedented 
challenges in terms of water supplies all across the Nation, 
but particularly in the West. This year is an unfortunate 
example of that, most prominently in California, but not 
limited to that location. We also have very acute shortages in 
the Rio Grande Basin, in the Republican River, in other 
locations. The Colorado River watershed has had a good snow-
pack year, but it is also in the clutches of long-term drought.
    We have population growth, aging infrastructure, climate 
change; increasing pressure on use of water for development of 
domestic energy supplies; increasing recognition of the need 
for water for ecosystem; and all of those are challenging what 
are already scarce supplies. And this subcommittee recognizes 
that better than anyone.
    This administration puts a very high priority on coming to 
grips with long-term water supply sustainability, and the 
Department of the Interior's WaterSMART program is geared to 
secure and stretch water supplies and to provide tools to water 
managers that allow them to continue to move toward 
sustainability.
    The Department has established a goal of facilitating the 
increase of water supplies in the West through Reclamation's 
WaterSMART program by 840,000 acre feet. And we are well on 
track to meet that goal.
    That was a goal from 2010 to 2015. As of the end of fiscal 
year 2013, we have helped to save 734,000 acre feet of water 
every year. That is a lot of water. That is enough to serve a 
very large city, 3 million people or more.
    In 2015, Reclamation proposes to fund its WaterSMART 
programs at $52.1 million, and there are a number of different 
components. WaterSMART Grants at $19 million, which are cost 
share funding for water efficiency projects. Reclamation's 
Title XVI program, funded at $21.5 million. That enables large 
recycling and reuse projects to make municipal systems more 
reliable and drought resistant. The Basin Studies Program, 
funded at $3.9 million in the request.
    These are possibly the best tools that the Federal 
Government can provide to State and local water managers by 
convening a collaborative and proactive analysis of projected 
supplies and demands and identifying options and strategies to 
meet any expected shortages and to respond to changing needs.
    The drought in California and the other Western States 
underscores the need for tools like these and the importance of 
improving the resilience of communities to the effects of water 
shortage. Reclamation recently finalized its 2014 water plan 
for California's Central Valley project, and that outlines the 
actions that can be taken in the near term to manage ongoing 
water supply challenges, things like expanding operational 
flexibility, streamlining the water transfer process.
    In California, the Departments of the Interior and 
Agriculture and Commerce are working together with the State to 
minimize the drought's social, economic, and environmental 
impacts. Reclamation and the Natural Resources Conservation 
Service (NRCS) of the Department of Agriculture (USDA) are 
leveraging their Federal funding programs to help water 
delivery agencies and agricultural producers.

                          PREPARED STATEMENTS

    And in 2014, USDA, NRCS, and Reclamation are together 
providing up to $14 million--half from Reclamation, half from 
NRCS--for water districts and their farmers to promote 
conservation of water and improve water management. We hope to 
continue and expand that partnership to support agricultural 
economies in other parts of the drought-stricken West.
    The budgets for the Department of the Interior and for the 
Bureau of Reclamation are geared toward creating these 
sustainable supplies. And we at Interior very much appreciate 
the support that this committee has given and, Madam Chair, 
that you have given yourself to our water programs. Thank you.
    [The statements of Anne Castle and accompanying witness 
Lowell Pimley follow:]
                   Prepared Statement of Anne Castle
    Madame Chair, Mr. Alexander, and members of this subcommittee: I am 
pleased to appear before you today to discuss the President's fiscal 
year 2015 budget for the Department of the Interior. I would also like 
to thank the members of this subcommittee for your efforts to enact a 
2015 appropriation, and for your ongoing support for our initiatives.
    The 2015 budget request of $11.9 billion for the Department of the 
Interior makes key investments to maintain vital funding for Interior's 
missions, in landscape-level conservation, balanced energy development, 
water management, engaging youth and veterans, and fulfilling 
commitments to American Indians, Alaska Native Tribes and Insular 
communities.
    I will discuss the President's fiscal year 2015 budget for the 
Bureau of Reclamation, the Office of the Central Utah Project 
Completion Act and the water-related programs of the U.S. Geological 
Survey. I thank the subcommittee for your continued support of these 
programs.
                              introduction
    The Department of the Interior's mission affects the lives of all 
Americans. Interior has stewardship of 20 percent of the Nation's 
lands, oversees the responsible development of over 20 percent of U.S. 
energy supplies, is the largest supplier and manager of water in the 17 
Western States, maintains relationships with 566 federally recognized 
Tribes, and provides services to more than 2 million American Indian 
and Alaska Native peoples. This budget enables the Department to carry 
out its important missions in resource stewardship, balanced 
development of energy and mineral resources, water management and 
conservation, providing opportunities to youth and veterans, resilience 
in the face of a changing climate, advancement of self-determination 
and stronger communities for tribal Nations, and fulfilling commitments 
to Insular communities. The Interior Department's 2015 budget maintains 
core capabilities to meet these responsibilities and proposes 
investments in key priorities.
                          2013 accomplishments
    Interior's programs and activities serve as economic engines in 
communities across the Nation, contributing an estimated $371 billion 
to the economy in 2012 and supporting an estimated 2.3 million American 
jobs. Of this total, energy and mineral development on Interior-managed 
lands and offshore areas generated more than $255 billion of this 
economic activity and supported 1.3 million jobs. Recreation and 
tourism on Interior lands contributed $45 billion to the economies of 
local communities and supported nearly 372,000 jobs. Water supply, 
forage and timber activities, primarily on public lands in the West, 
contributed more than $50 billion and supported 365,000 jobs.
    In 2013 and 2014, Interior continued to focus efforts on promoting 
sustainable water strategies, and improving water management through 
science, collaboration, and cooperation. These approaches were 
demonstrated through the Water Census, Reclamation Basin Studies and 
Cooperative Watershed Management Program projects, and through joint 
activities like the Urban Waters Federal Partnership and the Western 
Watershed Enhancement Partnership. Comprehensive basin-wide approaches 
such as these will be critical to assessing water needs, evaluating the 
availability of and risks to water supplies, mitigating those risks, 
and planning for the impacts of reduced availability and increasing 
demands in collaboration with Interior's partners.
                 2015 budget and fiscal responsibility
    The Department's $11.9 billion 2015 budget for Interior represents 
a 2.4-percent increase from the 2014 enacted level which includes a cap 
exemption for fire emergencies. Without this exemption, Interior's 
budget totals $11.7 billion, a 0.3-percent increase, or nearly level 
with 2014. This is a smart and balanced budget. It sustains support for 
essential requirements and allows for targeted increases above the 2014 
enacted level. Within the overall increase for 2015, $54.4 million 
covers unavoidable fixed cost increases for such things as Federal pay 
and rent. Reflecting the need to prioritize budget resources, this 
request includes $413.3 million in proposed program reductions to 
offset other programmatic requirements. These tight fiscal times demand 
responsible budget requests that are based on strategic priorities.
    Interior's 2015 budget request includes $10.6 billion in current 
funding for programs under the jurisdiction of the Interior, 
Environment and Related Agencies Subcommittee. This is a $104.9 
million, or a 1 percent, increase compared to 2014. Total funding for 
the Department includes $1 billion requested for the Bureau of 
Reclamation and the Central Utah Project Completion Act (CUPCA), under 
the jurisdiction of this subcommittee.
    Interior programs continue to generate more revenue for the 
American people than the Department's annual current appropriation. In 
2015, Interior will generate estimated receipts of nearly $14.9 
billion, a portion of which is shared with State and local governments 
to meet a variety of needs, including school funding, infrastructure 
improvements and water conservation projects. Also, included with this 
request are revenue and savings legislative proposals estimated to 
generate more than $2.6 billion over the next decade.
           celebrating and enhancing america's great outdoors
    Throughout American history, the great outdoors have shaped the 
Nation's character and strengthened its economy. The 2015 budget 
requests the resources and authorities to care for our public lands and 
prepare for the future. The budget strengthens the President's 
commitment to the America's Great Outdoors initiative and includes 
legislative proposals to provide full and permanent funding for the 
Land and Water Conservation Fund and a 3-year investment in advance of 
the 100th Anniversary of the National Park Service.
    Coupled with these efforts is a historic commitment to America's 
natural and cultural heritage through Land and Water Conservation Fund 
programs. The budget includes a combined request of $672.3 million 
($246 million requested as current funding and $426.3 million as 
permanent funding) for Interior's LWCF programs that conserve lands and 
support outdoor recreation.
    Reclamation continues to participate in and provide support to the 
Desert and Southern Rockies Landscape Conservation Cooperatives. These 
LCCs are partnerships between Interior and other Federal agencies, 
States, tribes, non-governmental organizations, and other stakeholders, 
to bring together science and sustainable resource conservation 
activities to develop science-based solutions to on-the-ground 
challenges from a changing environment within an ecological region or 
``landscape.'' The LCCs leverage the resources and expertise of the 
partners and work across jurisdictional barriers to focus on natural 
resource issues specific to a particular ecosystem or landscape. 
Reclamation's 2015 budget includes $116 million in numerous projects 
and programs for river restoration that directly supports the goals of 
AGO.
                      engaging the next generation
    The 2015 budget supports a vision to inspire millions of young 
people to play, learn, serve and work outdoors by expanding volunteer 
and work opportunities for youth and veterans. The budget proposes 
$50.6 million for Interior youth programs in the Bureau of Land 
Management, U.S. Geological Survey, Fish and Wildlife Service, National 
Park Service, Bureau of Indian Affairs and the Bureau of Reclamation, a 
collective $13.6 million or 37-percent increase from 2014.
    A key component of the Department's efforts will be partnering with 
youth organizations through the 21st Century Conservation Service 
Corps. The proposed funding includes an increase of $8 million to 
expand opportunities for youth education and employment opportunities.
   ensuring healthy watersheds and sustainable, secure water supplies
    The 2015 budget addresses the Nation's water challenges through 
investments in water conservation, sustainability, and infrastructure 
critical to the arid Western United States and its fragile ecosystems.
    The budget includes $66.5 million for WaterSMART programs in 
Reclamation and the U.S. Geological Survey, nearly a 17-percent 
increase from 2014, to assist communities in stretching water supplies 
and improving water management. This funding supports the Department's 
goal to increase by 840,000 acre-feet, the available water supply for 
agricultural, municipal, industrial, and environmental uses in the 
Western United States through water-conservation programs by the end of 
2015. The budget includes $3.9 million for Reclamation's Basin Studies 
program. The Basin Studies program is a collaborative tool Interior has 
available for facilitating sustainable water supplies and improving 
water management decisionmaking. Basin studies in particular watersheds 
are conducted through a partnership between Reclamation and State and 
local stakeholders. A study will assess projected future water supplies 
and demands and the ability of existing infrastructure to address any 
imbalances. The study will then work with interested parties to develop 
adaptation strategies to cope with identified imbalances on a 
collaborative basis.
    In addition to $1 billion requested for the Bureau of Reclamation 
within the jurisdiction of the Energy and Water Subcommittee, the 
budget also requests $210.4 million for the U.S. Geological Survey's 
water programs to provide scientific monitoring, research, and tools to 
support water management across the Nation.
                                drought
    The drought in California and other Western States underscores the 
importance of improving the resilience of communities to the effects of 
climate change. The President's Opportunity, Growth, and Security 
Initiative includes a $1 billion government-wide Climate Resilience 
Fund to invest in developing more resilient communities, and finding 
solutions to climate challenges through technology development and 
applied research. Part of this proposal would be executed by 
Reclamation including research and breakthrough technologies.
    In California, the Departments of the Interior, Agriculture, and 
Commerce are working with the State to accelerate water transfers and 
exchanges, provide operational flexibility to store and convey water, 
and expedite review and compliance actions, to help stretch 
California's water supplies.
    Reclamation finalized its 2014 Plan for the Central Valley Project 
which outlines actions that can be taken in the near-term to manage on-
going water supply challenges such as expanding operational flexibility 
and streamlining the water transfer process. Federal and State 
officials are also discussing a collaborative response to the drought 
to minimize its social, economic, and environmental impacts.
    Reclamation and the Natural Resources Conservation Service (NRCS) 
are working to leverage Federal funds for water delivery agencies and 
agricultural producers. In 2014, they will jointly provide up to $14 
million in funding, $7 million from Reclamation and $7 million from 
NRCS, for water districts and associated growers to promote 
conservation of water and improve water management. The projects funded 
through this partnership will help communities build resilience to 
drought by modernizing their water infrastructure and efficiently using 
scarce water resources while continuing to support the agricultural 
economy. We've also identified $3 million in WaterSMART funding to 
support specific drought response measures and projects to create 
drought resilient infrastructure.
                          powering our future
    The 2015 budget advances the President's energy objectives by 
encouraging smart and safe domestic renewable and conventional energy 
development in concert with conservation objectives and improved 
protections for Americans and their cultural and natural heritage. The 
budget includes $94.8 million for renewable energy activities and a 
total of $658.4 million for current, fee-based, and permanent funded 
conventional energy programs. In executing these programs, the 
Department is working to take a landscape level approach, modernizing 
programs and practices, improving transparency, streamlining 
permitting, and strengthening inspection and enforcement of on and 
offshore development.
                               hydropower
    Hydropower is a very clean and efficient way to produce energy and 
is a renewable resource. Each kilowatt-hour of hydroelectricity is 
produced at an efficiency of more than twice that of any other energy 
source. Further, hydropower is very flexible and reliable when compared 
to other forms of generation. Reclamation has nearly 500 dams and 
10,000 miles of canals and owns 76 hydropower plants, 53 of which are 
operated and maintained by Reclamation. On an annual basis, these 
plants produce an average of 40 billion kilowatt hours of electricity, 
enough to meet the entire electricity needs of over 3.5 million 
households on average.
    Reclamation and FERC are parties to a Memorandum of Understanding, 
signed in 1992, that addresses the establishment of processes for early 
resolution of issues related to the timely development of non-Federal 
hydroelectric power at Bureau of Reclamation facilities. Reclamation 
and FERC recently met to discuss how to improve the timeliness of the 
processes developed in that MOU and resolution of authority issues.
    The Department signed a Memorandum of Understanding with the 
Department of Energy and U.S. Army Corps of Engineers in 2010 to 
increase collaboration between those agencies and strengthen the long-
term relationship among them to prioritize the generation and 
development of sustainable hydropower. This Administration is committed 
to increasing the generation of environmentally sustainable, affordable 
hydropower on existing dams and conduits for our national electricity 
supplies in as efficient a manner as possible. Activities under this 
MOU have been ongoing, and have resulted in accomplishments such as 
assessments of potential hydropower resources on Federal and non-
Federal lands, a collaborative basin-scale pilot project in Oregon, and 
grant opportunities for research and development of new technologies. 
An example of its on-going efforts to maximize potential generation at 
existing Federal facilities, Reclamation has assessed the potential for 
developing hydropower at existing Reclamation facilities and by 
utilizing low-head hydroelectric generating capacity on Reclamation-
owned canals and conduits.
    To support the Powering Our Future initiative, the 2015 Reclamation 
budget includes $1.2 million to optimize its hydropower projects to 
produce more energy with the same amount of water; investigate 
Reclamation's capability to integrate large amounts of renewable 
resources such as wind and solar into the electric grid; and work with 
Tribes to assist them in developing renewable energy sources. These 
important projects will assist in the production of cleaner, more 
efficient renewable energy.
         strengthening tribal nations--indian water settlements
    The Department has a unique responsibility to American Indians and 
Alaska Natives. The 2015 budget invests in: Advancing nation-to-nation 
relationships and tribal self-determination, supporting and protecting 
Indian families and communities, sustainable stewardship of energy and 
natural resources, and improving education in Indian Country.
    Interior's investments in Indian water settlements total $171.9 
million in Reclamation and Indian Affairs, for technical and legal 
support for water settlements. This includes $147.6 million to bring 
reliable and potable water to Indian communities, more than a 9-percent 
increase from 2014, with $112 million in the Bureau of Reclamation and 
$35.7 million in the Bureau of Indian Affairs to implement land and 
water settlements. Among the investments is $81 million for the ongoing 
Navajo-Gallup Water Supply Project, which, when completed, will have 
the capacity to deliver clean running water to a potential future 
population of approximately 250,000 people.
    The Claims Resolution Act of 2010 settled the Cobell lawsuit and 
four settlements that will provide permanent water supplies and 
economic security for the Taos Pueblo of New Mexico and Pueblos of New 
Mexico named in the Aamodt case, the Crow Tribe of Montana, and the 
White Mountain Apache Tribe of Arizona. The agreements will enable 
construction and improvement of reservation water systems, irrigation 
projects, a regional multi-pueblo water system, and codify water-
sharing arrangements between Indian and neighboring communities. The 
primary responsibility for constructing water systems associated with 
the settlements was given to Reclamation; and BIA is responsible for 
the majority of the trust funds.
    Reclamation is budgeting $90 million in 2015 for the continued 
implementation of these four settlements, including the $81 million for 
the Navajo-Gallup Water Supply project. Reclamation is proposing the 
establishment of an Indian Water Rights Settlements account to assure 
continuity in the construction of the authorized projects and to 
highlight and enhance transparency.
                          central utah project
    The Central Utah Project Completion Act (CUPCA), Titles II-VI of 
Public Law 102-575, provides for completion of the Central Utah Project 
(CUP) by the Central Utah Water Conservancy District (District). The 
Act also authorizes funding for fish, wildlife, and recreation 
mitigation and conservation; establishes an account in the Treasury for 
deposit of these funds and other contributions; establishes the Utah 
Reclamation Mitigation and Conservation Commission to coordinate 
mitigation and conservation activities; and provides for the Ute Indian 
Rights Settlement.
    The 2015 budget proposes to reconsolidate the CUPCA Office and 
program into the Bureau of Reclamation. This consolidation is part of 
broader Administration efforts to implement good government solutions 
to consolidate and streamline activities. The CUP is the only water 
project within the Department of the Interior not managed by 
Reclamation. The proposed merger would correct that anomaly, ensuring 
that these projects receive equal and consistent consideration and 
treatment. Concerns that prompted the enactment of CUPCA about 
Reclamation's previous management and operation of the CUP have been 
addressed within Reclamation and corrected. The 2015 CUPCA budget is 
$7.3 million. Of this amount, $1 million will be transferred to the 
Utah Reclamation Mitigation and Conservation Account for use by the 
Utah Reclamation Mitigation and Conservation Commission (Mitigation 
Commission). We propose to maintain both the Central Utah Project 
Completion and the Utah Reclamation Mitigation and Conservation 
Accounts for CUPCA appropriations after the proposed consolidation of 
the CUPCA Office into Reclamation in order to enhance transparency.
                               conclusion
    Thank you for the opportunity to testify on behalf of the 
President's 2015 budget for the Department of the Interior and the 
Bureau of Reclamation. I want to reiterate my appreciation for the 
long-standing support of this subcommittee. This budget has fiscal 
discipline and restraint, but it also includes forward looking 
investments. We have a tremendous opportunity to improve the future for 
all generations with wise investments in healthy lands, clean waters 
and expanded energy options.
    I look forward to working with you to implement this budget. This 
concludes my testimony. I am happy to answer any questions that you may 
have.
                                 ______
                                 
                  Prepared Statement of Lowell Pimley
    Thank you Madame Chair, Mr. Alexander and members of this 
subcommittee for the opportunity to discuss with you the President's 
fiscal year 2015 budget for the Bureau of Reclamation and the Central 
Utah Project Completion Act, also known as CUPCA.
    I appreciate the time and consideration this subcommittee gives to 
reviewing and understanding Reclamation's budget, projects, and 
programs. Reclamation is committed to prioritizing and defining our 
overall program in a manner that serves the best interest of the 
American public.
    Our 2015 budget continues to support activities that will deliver 
water and generate power, consistent with applicable State and Federal 
law, in an environmentally responsible and cost-effective manner both 
now and for future generations. Overall, our goal is to promote 
sustainability, resiliency, and certainty for those who use and rely on 
water resources in the West. Success in this approach will help ensure 
that Reclamation is doing its part to support the basic needs of 
growing communities, and provide support for economic growth in the 
agricultural, industrial, energy and recreational sectors of the 
economy. The 2015 budget is consistent with the President's pledge to 
reduce spending and focus on deficit reduction. It allows Reclamation 
to fulfill its core mission and implements cost savings, whenever 
possible.
    The budget also supports the Administration's and Department of the 
Interior's (Department) priorities to address America's water 
challenges, and major trends including the likelihood of continued 
constrained funding resources, population growth and new domestic 
needs, including energy development, increased demand and competition 
for supplies. Water availability and quality are a constant and 
increasing challenge across the Country as intensifying droughts and 
changing climate and hydrology exacerbate water shortages, deplete 
groundwater resources, and contribute to impaired water quality that 
all impact land, water, wildlife and tribal communities. Reclamation 
tackles water challenges across the American West in concert with the 
Department's priorities by: Ensuring healthy watersheds and 
sustainable, secure water supplies; promoting the America's Great 
Outdoors initiative; supporting an all-of-the-above energy strategy; 
strengthening tribal nations; and engaging the next generation. The 
Department will continue to ensure healthy watersheds and sustainable, 
secure water supplies primarily through the WaterSMART--Sustain and 
Manage America's Resources for Tomorrow--Program with participation 
from both Reclamation and the U.S. Geological Survey. The WaterSMART 
Program provides incentives and cost-share funding for water 
conservation projects and facilities and collaborative mechanisms for 
water users and policy makers to identify pathways that contribute to 
water sustainability. Reclamation's budget reflects those priorities.
    Reclamation's 2015 budget, including the Central Utah Project 
Completion Act, is $1 billion. These expenditures are offset by current 
receipts in the Central Valley Project Restoration Fund, estimated to 
be $57 million. The budget proposal for permanent appropriations in 
2015 totals $122.8 million. The budget also proposes the establishment 
of a new Indian Water Rights Settlement account and a current 
appropriation within the San Joaquin River Restoration Fund.
                      water and related resources
    The 2015 budget for Water and Related Resources, Reclamation's 
principal operating account, is $760.7 million, a decrease of $193.4 
million from 2014 Enacted levels. This decrease is due, in part, to 
shifting $90 million to establish a separate Indian Water Rights 
Settlement Account, a shift of $32 million to establish a separate 
current appropriation within the San Joaquin River Restoration Fund, 
and various program and project decreases including a reduction in the 
Central Valley Project.
    The 2015 budget includes a total of $343.5 million at the project 
and program level for water, energy, land, and fish and wildlife 
resource management and development activities. Funding in these 
activities provides for planning, construction, water sustainability 
activities, management of Reclamation lands, including recreation 
areas, and actions to address the impacts of Reclamation projects on 
fish and wildlife.
    The budget also provides a total of $417.2 million at the project 
level for water and power facility operations, maintenance, and 
rehabilitation activities. Reclamation emphasizes safe, efficient, 
economic, and reliable operation of facilities, ensuring systems and 
safety measures are in place to protect the facilities and the public. 
Providing adequate funding for these activities continues to be one of 
Reclamation's highest priorities.
     highlights of the 2015 budget for water and related resources
    I would like to share with the Committee several highlights of the 
Reclamation budget. Even in this tight fiscal climate, Reclamation's 
budget continues to promote and support efficient water management; 
increased renewable energy production; the construction of new 
infrastructure and sound maintenance of existing facilities; 
restoration of aquatic environments; and the continued use of applied 
science and new technologies to help ensure sustainable water 
deliveries and energy production. As a result, Reclamation continues to 
play an important role in providing a strong foundation for economic 
activity across the American West.
    WaterSMART Program.--One method Reclamation employs to stretch 
water supplies in the West and prepare for these ongoing challenges is 
the WaterSMART Program. The programs included in WaterSMART are 
collaborative in nature and work to effectively achieve sustainable 
water management. WaterSMART Grants, Title XVI Water Reclamation and 
Reuse, and the Water Conservation Field Services Program, along with 
other Reclamation activities, support the Department's Priority Goal 
for Water Conservation. The Basin Studies component of WaterSMART 
supports the Department's priority for Ensuring Healthy Watersheds and 
Sustainable, Secure Supplies.
    In the 2015 budget, Reclamation proposes to fund WaterSMART at 
$52.1 million. The WaterSMART components include: WaterSMART Grants 
funded at $19 million; the Basin Study Program funded at $3.9 million; 
the Title XVI Water Reclamation and Reuse Program funded at $21.5 
million; Water Conservation Field Services Program, funded at $4.5 
million; the Cooperative Watershed Management Program, funded at 
$250,000; new Drought Response activities, funded at $1.5 million, and 
new Resilient Infrastructure activities, funded at $1.5 million.
    Rural Water Projects.--Congress has specifically authorized 
Reclamation to undertake the design and construction of six projects 
intended to deliver potable water supplies to specific rural 
communities and Tribes located in the 17 Western States--primarily in 
Montana, New Mexico, North Dakota, and South Dakota. The 2015 
Reclamation budget includes $34.1 million for rural water projects, 
$17.8 million of that total is for operation and maintenance of 
completed tribal systems and the remaining $16.3 million is for 
continued construction for authorized projects.
    Dam Safety Program.--A total of $82.9 million is provided for 
Reclamation's Safety of Dams Program, which includes $62 million to 
correct identified safety issues. Of that amount, $21.4 million is for 
work at Folsom Dam. Funding also includes $19.8 million for safety 
evaluations of existing dams and $1.1 million to oversee the Interior 
Department's Safety of Dams Program.
    Site Security.--A total of $26.2 million is provided for Site 
Security to ensure the safety and security of the public, Reclamation's 
employees, and key facilities. This funding includes $4.1 million for 
physical security upgrades at high risk critical assets and $22.1 
million to continue all aspects of Bureau-wide security efforts 
including law enforcement, risk and threat analysis, personnel 
security, information security, risk assessments and security-related 
studies, and guards and patrols.
    Powering Our Future.--To support the Powering Our Future 
initiative, the 2015 Reclamation budget includes $1.2 million to 
optimize its hydropower projects to produce more clean, renewable 
energy with the same amount of water; investigate Reclamation's 
capability to help integrate large amounts of renewable resources such 
as wind and solar into the electric grid; and work with tribes to 
assist them in developing renewable energy sources. These important 
projects will assist in the production of cleaner, more efficient 
renewable energy.
    Strengthening Tribal Nations.--The 2015 Reclamation budget supports 
the Strengthening Tribal Nations initiative through a number of 
activities and projects. For example, the budget includes $8.1 million 
in support of Reclamation's activities with tribes, including technical 
assistance, Indian Water Rights Settlement negotiations, implementation 
of enacted settlements, and outreach to tribes; and $14.1 million to 
continue the operation and maintenance associated with the delivery up 
to 85,000 acre-feet of water to the Ak-Chin Indian Community. Ongoing 
authorized rural water projects also benefit both tribal and nontribal 
communities. Projects in the 2015 budget benefiting tribes include the 
rural water component of the Pick-Sloan Missouri Basin Program, 
Garrison Diversion Unit; Fort Peck Reservation/Dry Prairie; and Rocky 
Boy's/North Central Montana; and operation and maintenance funding only 
for tribal features of the Mni Wiconi Project following completion of 
construction. Numerous other projects and programs, such as the 
Columbia/Snake River Salmon Recovery Program, Klamath Project, and the 
Yakima River Basin Water Enhancement Project also benefit tribes. In 
2015, $90 million for planning and construction of five recent Indian 
Water Rights Settlements is being proposed in a new separate account.
    Ecosystem Restoration.--In order to meet Reclamation's mission 
goals of securing America's energy resources and managing water in a 
sustainable manner for the 21st century, one focus of its programs must 
be the protection and restoration of the aquatic and riparian 
environments influenced by its operations. Ecosystem restoration 
involves a large number of activities, including Reclamation's 
Endangered Species Act recovery programs, which directly address the 
environmental aspects of the Reclamation mission.
    America's Great Outdoors (AGO) fosters the intrinsic link between 
healthy economies and healthy landscapes to increase tourism and 
outdoor recreation in balance with preservation and conservation. 
Reclamation's 2015 budget includes $116 million within numerous project 
and program line items that directly supports the goals of AGO.
    The 2015 budget provides $150.6 million to operate, manage, and 
improve California's Central Valley Project, including a $32 million 
current appropriation within the San Joaquin River Restoration Fund. 
Overall, funding is $28 million below 2014 levels. The primary factor 
for the decrease is a 6-month delay in the schedule for drainage 
services for the San Luis Unit as approved by the U.S. District Court. 
Within the CVP total, is $16.7 million for the Trinity River Division, 
of which $11.9 million and an additional $2 million in the Central 
Valley Project Restoration Fund are for the Trinity River Restoration 
Program.
    Many other projects and programs also contribute to ecosystem 
restoration including the Lower Colorado River Multi-species 
Conservation Program, Middle Rio Grande Endangered Species Act 
Collaborative Program, the Endangered Species Act Recovery 
Implementation Program, the Columbia/Snake River Salmon Recovery 
Program, Klamath Project, and the Yakima River Basin Water Enhancement 
Project.
    Engaging the Next Generation.--Funds proposed in the fiscal year 
2015 President's budget request will expand Reclamation youth programs 
and partnerships to accomplish high priority projects, and promote 
quality participant experiences and pathways to careers. The funding 
for youth programs and partnerships, including the proposed 21st 
Century Conservation Service Corps, is included within Reclamation's 
project and program line items within the various accounts.
    Climate Change Adaptation.--Consistent with the direction in the 
President's 2013 Climate Action Plan, in 2015 Reclamation is developing 
and implementing approaches to understand, and effectively adapt to, 
the risks and impacts of a changing environment on western water 
management. Some examples include:
  --The Basin Study Program takes a coordinated approach to assess 
        risks and impacts, develop landscape-level science; 
        communicates information and science to other entities and 
        agencies; and works closely with stakeholders to develop 
        adaptation strategies to cope with water supply and demand 
        imbalances in a collaborative manner.
  --The Drought Response Program will implement, under existing 
        authorities, a comprehensive new approach to drought planning 
        and will implement actions to help communities manage drought 
        and develop long-term resilience strategies.
  --Through the Resilient Infrastructure Program, Reclamation will 
        proactively maintain and improve existing infrastructure for 
        system reliability, safety, and efficiency for water 
        conservation to prepare for extremes and to support healthy and 
        resilient watersheds. Reclamation will develop and implement an 
        enhanced decisionmaking criteria framework for selecting 
        resilient infrastructure investments and will identify 
        opportunities to integrate operational efficiencies more 
        compatible with climate change adaptation goals, as part of the 
        Bureau's ongoing infrastructure investments.
  --Within Reclamation's Science and Technology Program is water 
        resources research to improve capability for managing water 
        resources under multiple drivers, including a changing climate. 
        This research agenda will be collaborated and leveraged with 
        capabilities of the Interior Climate Science Centers.
  --Additionally, Reclamation's WaterSMART Grants, Water Conservation 
        Field Services, and Title XVI Programs are enabling the West to 
        better adapt to the impacts of a changing environment by 
        helping to conserve tens of thousands of acre-feet of water 
        each year in urban and rural settings, and on both large and 
        small scales.
                  central utah project completion act
    Interior's 2015 budget proposes to consolidate the CUPCA project 
within Reclamation while maintaining a separate account for CUPCA. This 
consolidation is part of broader Administration efforts to implement 
good government solutions, to consolidate activities when possible, and 
reduce duplication and overlap. The 2015 CUPCA budget is $7.3 million 
of which $1 million will be transferred to the Utah Reclamation 
Mitigation and Conservation Account for use by the Mitigation 
Commission. The 2015 funding will be used to provide for construction, 
program oversight, the Ute Tribal settlement, fish and wildlife 
development, and Endangered Species Act recovery.
                central valley project restoration fund
    The 2015 budget includes a total of $57 million for the Central 
Valley Project Restoration Fund (CVPRF). This amount is determined on 
the basis of a 3-year rolling average not to exceed $50 million per 
year and indexed to 1992 price levels. These expenditures are offset by 
collections estimated at $57 million from mitigation and restoration 
charges authorized by the Central Valley Project Improvement Act.
                    california bay-delta restoration
    The 2015 budget provides $37 million for California Bay-Delta 
Restoration, equal to the 2014 budget. The account focuses on the 
health of the Bay-Delta ecosystem and improving water management and 
supplies. The budget will support the coequal goals of environmental 
restoration and improved water supply reliability, under the following 
program activities: $1.7 million for a Renewed Federal State 
Partnership, $8 million for Smarter Water Supply and Use, and $27.4 
million for Habitat Restoration. These program activities are based on 
the Interim Federal Action Plan for the California Bay-Delta issued 
December 22, 2009.
                   san joaquin river restoration fund
    The 2015 budget funds activities consistent with the settlement of 
Natural Resources Defense Council v. Rodgers as authorized by the San 
Joaquin River Restoration Settlement Act. The Act includes a provision 
to establish the San Joaquin River Restoration Fund to implement the 
provisions of the Settlement. The Settlement's two primary goals are to 
restore and maintain fish populations, and restore and avoid adverse 
water impacts. Under the Settlement, the legislation provides for 
nearly $2 million in annual appropriations from the Central Valley 
Project Restoration Fund for this purpose. Reclamation proposes $32 
million of current funds for the San Joaquin River Restoration Fund 
account in 2015.
                    indian water rights settlements
    In 2015, Reclamation will enhance support of tribal nations, most 
notably through the establishment of an Indian Water Rights Settlement 
account. The 2015 Budget proposes $90 million for Indian Water Rights 
Settlements (IWRS), in a new account of the same name. Reclamation is 
proposing establishment of an Indian Water Rights Settlements account 
to assure continuity in the construction of the authorized projects, 
and to highlight and enhance transparency in handling these funds. This 
account is proposed to cover expenses associated with the four Indian 
water rights settlements contained in the Claims Resolution Act of 2010 
(Public Law 111-291) and the Navajo-Gallup Water Supply Project within 
Title X of the Omnibus Public Land Management Act of 2009 (Public Law 
111-11).
    Of this amount, $9 million is for implementation of three water 
rights settlements contained in the Claims Resolution Act of 2010. 
These settlements will deliver clean water to the Taos Pueblo of New 
Mexico, the Pueblos of New Mexico named in the Aamodt case, and the 
Crow Tribe of Montana. The budget also includes $81 million for the 
ongoing Navajo-Gallup Water Supply project. In 2015, funding priority 
was given to those settlements whose mandated completion dates would be 
most in jeopardy without it.
    In addition, the 2015 budget for the Water and Related Resources 
Account contains $22 million for on-going settlement operation and 
maintenance functions including the Ak Chin Indian Water Rights 
Settlement Act, San Carlos Apache Tribe Water Settlement Act, Colorado 
Ute Settlement Act Animas--La Plata Project, and Nez Perce/Snake River 
Water Rights Act which is part of the Columbia/Snake River Salmon 
Recovery Program.
                       policy and administration
    The 2015 budget for Policy and Administration, the account that 
finances Reclamation's central and regional management functions is 
$59.5 million.
                        permanent appropriations
    The total permanent appropriation of $122.8 million in 2015 
primarily includes $110.7 million for the Colorado River Dam Fund, and 
reflects a $51.7 million decrease for permanent funding. 2014 is the 
last year for the $60 million permanent appropriation for each of 3 
years to Reclamation's Water Settlements Fund provided in Public Law 
111-291. In 2015, the Central Utah Project Completion Act accounts are 
consolidated within Reclamation.
         2015 through 2018 priority goal for water conservation
    Priority goals are a key element of the President's agenda for 
building a high-performing government. The priority goals demonstrate 
that they are a high value to the public or that they reflect 
achievement of key Departmental milestones. These goals focus attention 
on initiatives for change that have significant performance outcomes, 
which can be clearly evaluated, and are quantifiable and measurable in 
a timely manner. Reclamation's participation in the Water Conservation 
priority goal helps to achieve these objectives.
    Reclamation will enable conservation capability for agricultural, 
municipal, industrial, and environmental uses in the Western United 
States by at least 840,000 acre-feet (from 2010) through 2015, and 
1,000,000 acre-feet through 2018 with the use of the WaterSMART Program 
to assist communities in stretching water supplies while improving 
water management and increasing the efficient use of water.
    Moreover, Reclamation's water conservation activities address a 
range of other water supply needs in the West. It plays a significant 
role in restoring and protecting freshwater ecosystems consistent with 
applicable State and Federal law, enhancing management of our water 
infrastructure while mitigating for any harmful environmental effects, 
and understanding and responding to the changing nature of the West's 
limited water resources.
    Finally, the 2015 budget demonstrates Reclamation's commitment to 
meeting the water and power needs of the West in a fiscally responsible 
manner. This budget continues Reclamation's emphasis on managing those 
valuable public resources. Reclamation is committed to working with its 
customers, States, tribes, and other stakeholders to find ways to 
balance and support the mix of water resource needs in 2015 and beyond.
                               conclusion
    This completes my statement. I would be happy to answer any 
questions that you may have at this time.

    Senator Feinstein. Thank you very much, Madam Secretary. I 
appreciate your comments.
    Do either of the gentlemen wish to speak? We have your 
remarks. If you do not, that is--we will let the women handle 
it.
    Ms. Darcy. He will handle the questions.
    Senator Feinstein. Well, I don't mean to intimidate you. If 
you have something you want to say, say it.
    General Bostick. I think they have covered it very well.
    The only thing I would say, Madam Chairman, is that I have 
great pride in the Corps of Engineers and the work our people 
are doing each and every day all across this country and 
throughout the world.
    Senator Feinstein. Thank you. And we share that pride and 
are very grateful to you for it. So thank you very much.
    Oh, about I guess it was 3, 4 weeks ago, Senator Boxer and 
I flew out with the President and got on a helicopter in Fresno 
and flew over the Central Valley. And I am a native 
Californian, and without giving up my age, I have lived there 
all my life, and I have never seen a drier Central Valley. I 
guess a half million acres to date have been fallowed. It could 
be a million acres coming.
    The California Water Project has a zero allocation. The 
Central Valley Water Project, which goes to farmers, has a zero 
water allocation. So there is virtually very little water, and 
it is a real problem.
    We are the biggest ag State in the country. It is a $50 
billion industry. It employs tens of thousands of people, and 
it is falling apart in a hand basket right now.
    So the question comes, what can we do? I have a bill that I 
have introduced. It was Rule 14'd yesterday. I hope it will 
come to the floor. It has some measures of operational 
flexibility for the departments, for the Federal departments. 
And it raises the caps on certain programs to allow counties 
and States that have been declared an emergency to be able to 
partake in those programs.
    We have removed the emergency spending part of the bill, 
candidly, because obviously we need 60 votes, and it was a 
problem for the Republican side. I have two great Republicans 
on my left, and I very much hope that they will vote to suspend 
cloture so that we can vote on this bill soon. And here is why.
    It is now raining in California, and we need to take 
advantage of that water with increased operational flexibility 
while it rains. And the bill has some specific things that can 
be done to increase flexibility. We have worked with the 
Department of Reclamation in producing them. We have worked 
with the State Department of Water Resources, with Fish and 
Game, et cetera.
    It is my understanding, Mr. Pimley, that Reclamation is 
taking steps to increase operational flexibility of the water 
distribution systems that you oversee now. And Reclamation's 
latest report stated that through March 27, the cumulative loss 
of winter-run Chinook Salmon at the export facility at Jones 
Pumping Plant is 304 out of an allowable incidental take limit 
of 24,237. So, clearly, the salmon are not affected. The 
estimated take for Delta Smelt is zero.
    So the data, it would seem to me, does support the notion 
that higher levels of water pumping in this emergency situation 
can occur. Could you indicate what your department is doing in 
that regard?
    Mr. Pimley. Yes. Thank you.
    We have been working very hard over the past 3 months.
    Senator Feinstein. I don't want to miss this. Could you 
speak directly into the mike?
    Mr. Pimley. Sorry, I have a bit of a cold. I am sorry.
    We have been working very hard since the first of the 
calendar year and even beginning last year to prepare for what 
we had feared could be a worst-case scenario, which has 
actually exceeded our concerns from a year ago. We have worked 
very much in concert with Federal fish agencies, NMFS (National 
Marine Fisheries Service) and Fish and Wildlife Services, as 
well as the State Fish and Wildlife Division and Department of 
Water Resources and the California State Water Board.
    Through those efforts, over the past 2 to 3 weeks of 
intense efforts, we have worked with NMFS and others to be able 
to increase pumping at the two facilities, the Central Valley 
and State Water Projects, beginning yesterday from what had 
been about 1,500 cubic feet per second (cfs) exports up to just 
shy of 5,000 between the two projects now. I think at this 
stage the State Project is at about 700, and we are--
Reclamation is at about 4,200.
    Senator Feinstein. Is that the cumulative total for both 
projects, State Water?
    Mr. Pimley. Correct, 4,900 for the two projects. Yes.
    Senator Feinstein. Forty-nine hundred. Okay.
    Mr. Pimley. So these actions were taken as a measured 
approach not just concerning drought, but also to address the 
need to strike a balance between fishery concerns and the needs 
of water supply. And then the third real key that we work with 
the State board on is the salinity control within the delta. So 
by balancing those three components of delta operations, we 
think we have struck the right, middle road to do the best we 
can for all three.
    It is an evolving situation out there, literally day by 
day. Conversations take place not just on a daily basis, but 
literally on an hourly basis and 7 days a week. We are trying 
to maximize pumping so that we can stay in a situation where we 
are not putting ourselves into a state of jeopardy with regard 
to endangered species.
    Senator Feinstein. So is that all you are doing? There are 
other things in our bill--keeping open the cross-delta 
channels, the one-for-one release ratio. Is any of that being 
done?
    Mr. Pimley. Yes, the one-to-one San Joaquin import/export 
ratio has been adjusted for the first part of April until we 
have to have a pulse flow, as I understand it, to help 
migrating salmon move out of the delta. But we are able to hold 
off on that until that pulse flow that waive the one-to-one 
ratio until that pulse flow is needed, which I believe is in 
about 2 weeks.
    Senator Feinstein. Say that again. This is important.
    Mr. Pimley. The one-to-one ratio is not controlling for the 
next two or so weeks until that pulse flow is required. So then 
the criteria we have to be concerned about, is how much 
negative flow we have going backwards through the Old and 
Middle Rivers.
    And we have worked with NMFS--they have raised that limit 
to minus 5,000 cfs, which is the 14-day average. But we are 
actually allowed to go, I think, 25 percent above that to 
capture these pulse flows or these flows that are coming in. As 
you mentioned, the storm that is in California right now, I 
believe, it is over a 5-day period that we can ramp up a little 
bit higher.
    We are not there yet, as I mentioned earlier, but we are 
following the hydrograph as the water is available in the 
delta.
    Senator Feinstein. Well, I am fully supportive of this, and 
I want you to know that. And the take figures being so low 
would seem to support this action, and I think the hope is that 
you can get upwards of 500,000 additional acre feet of water. 
Do you think that is possible?
    Mr. Pimley. I honestly don't know the total volume, ma'am.
    Senator Feinstein. Okay.
    Mr. Pimley. I do know that, I am not a biologist, but I 
have been taking a crash course over the past 2 weeks in the 
terminology.
    Senator Feinstein. Lucky you.
    Mr. Pimley. But my understanding is that there is a lot 
more to the equation than simply the incidental take numbers 
that they have been observing. I am paraphrasing here, and I 
believe you will get more details at the end of the week when 
we have a report come out on the drought operation plan for the 
rest of the water year. But my understanding is that there are 
a lot of fish migrating as we speak and will be in the delta 
over the next 2 months. That is when the story will be told on 
the species for this year.
    And so, the incidental take so far is admittedly quite low. 
But there are other factors that are stressing the populations, 
and I think we have got the real concerns going out into the 
next few weeks.
    Senator Feinstein. Just one comment, and this isn't your 
problem. It is ours. So is unemployment going to be going up. 
So are farmers that are not going to be able to get their loans 
to plant. So are contractors that are not going to be able to 
put together crews to work. And when this happened a few years 
ago, the unemployment in Valley towns, particularly Mendota, 
was 40 percent, and farmers were actually in bread lines.
    So I understand the fish. But I also understand that people 
have to live and earn and be able to buy their food. So I very 
much appreciate your taking this action.
    Senator.
    Senator Alexander. Thanks, Madam Chairman.
    General Bostick, will the increase in funding for the 
Harbor Maintenance Trust Fund spending result in increased fund 
for the dredging in the Port of Memphis?
    General Bostick. I can't specifically say, Senator 
Alexander, but I can follow up on that question whether it 
would help in that particular port.
    Senator Alexander. Thank you. I would appreciate if you 
would. We worked together to try to get on a 6-year path so 
that we can take care of the backlog of needs that we have, and 
that is one of the most important ones in our area.
    Secretary Darcy, last year the subcommittee added $81.5 
million in funding for inland navigation projects. Again, we 
all worked together on that, came to a pretty good result, I 
thought, for the inland navigation. And of course, we need 
those. If we are going to be a great country, we have got to 
keep our waterways, our locks, and our dams in good shape.
    We also were able to create a capital development plan that 
we agreed upon, which gave us an orderly way to move toward the 
priority projects. And fourth in that capital development plan 
is the Chickamauga Lock.
    Well, here is my question. If that increased level of 
funding continues, the $81 million higher in this year, is 
there a way for you to restart construction of the Chickamauga 
Lock during the fiscal year 2015?
    Ms. Darcy. Senator, that would depend on the other projects 
in line. As you know, Olmsted and then Monongahela and then 
Lockport and then Chick, none of those are currently funded to 
completion. We would need to look at if that additional revenue 
is there. Again, it would need to be met through the trust fund 
as well as the Treasury.
    Senator Alexander. Well, the hope was--as we worked through 
this last year and the conversations we had was as we got these 
projects in a priority order, which we all agreed on, which 
is--should be very helpful to the Corps so you won't be pulled 
in so many different directions--it is helpful to us as well--
that the increased funding would make it possible for you to 
move ahead on two or three at once.
    Obviously, you have your priorities. Two comes ahead of 
three. Three comes ahead of four. But you don't have to 
actually fully complete two before you restart construction on 
four because these are big projects that take a long time.
    Now let me ask you this. There was also a part of our 
proposal was to increase the revenue in the Inland Waterways 
Trust Fund. I believe the administration had a proposal.
    Ms. Darcy. That is correct.
    Senator Alexander. We had another one. What are the 
prospects for that increased revenue, and how much revenue 
would that be?
    Ms. Darcy. Under the Administration's proposal for the user 
fee, we are projecting that, if enacted, we would be able to 
generate $1.1 billion over a 10-year period.
    Senator Alexander. And I think the proposal that we had in 
the Congress was to increase the fuel tax.
    Ms. Darcy. That is correct.
    Senator Alexander. And it would produce about the same 
amount of money, which would--if I am remembering right. Now 
that would add another $100 million a year or so to the Inland 
Waterways Trust Fund.
    In addition to maintaining the $81 million increase that we 
had last year, if we are able to either take the 
administration's proposal of a lockage fee or the fuel tax, the 
increase that the barge owners have said they would like to 
pay, if we had that extra $100 million, would that increase the 
chances that Chickamauga Lock could be restarted in 2015?
    Ms. Darcy. I think it would increase the chances. However, 
the revenue coming into the trust fund, as you know, if you 
increase the tax, that would significantly increase the amount 
coming in. But it is that match between what is in the trust 
fund and the Treasury that would ultimately need to be 
reconciled in order to pay for any increase to the Chick Lock 
or to restart Chick.
    Senator Alexander. Well, you know, in the case of the fuel 
tax increase, we have got the barge owners who are asking to 
pay it so they can get through the lock more rapidly. And it 
doesn't affect any of the fishermen except if you have got a 
little boat, right now you are waiting. And if the big boats 
pay more to make it easier to get through the lock, the little 
boats get through faster without paying any more.
    So I would hope the administration would work with us to 
increase the fee and that as you and the General make your 
plans, that you would think about all of these projects, or at 
least two or three of them, at once. If we go up $81 million 
and stay there, and particularly if we are able to get the 
revenue up, as many of us think we should, in either the way 
the administration wants to do it or the way we have 
recommended, that that will give us a chance to move ahead on 
those next two or three projects, including the Chickamauga 
Lock.
    Ms. Darcy. I think we share the same goal, Senator.
    Senator Alexander. Thank you very much.
    Thank you, Madam Chairman.
    Senator Feinstein. Thank you very much, Senator.
    Senator Cochran.
    Senator Cochran. Madam Chair, thank you for scheduling this 
hearing.
    And to our panel of witnesses, thank you very much for 
being here and helping us review the budget request for the 
Secretary of Army's budget for civil works and related 
activities that come under your jurisdiction.
    In looking at the priorities, I am curious to know how you 
make the decisions, based on a shrinking budget, to provide 
upkeep, maintenance, dredging where that is required, and other 
activities that are over and above the day-to-day operations 
and activities of the agencies and departments under your 
jurisdiction. How do you go about assigning priorities? I'm 
curious. If you have a process, can you describe it for us?
    Ms. Darcy. Thank you, Senator.
    We do have a process. First of all, it is a performance-
based budget, where we look at projects across the Nation as 
far as the value to the Nation and what those outputs for a 
specific project would be.
    For example, the way we budget in our Operation and 
Maintenance (O&M) account for dredging, is that we look at the 
high commercial use harbors and take the money that we have and 
put it toward those high commercial use harbors. We also take a 
percentage of that money also to address some of the lower use 
harbors, some subsistence harbors, smaller harbors. But in that 
instance, we look at the highest commercial use in order to 
determine the percentage of money that goes to each of those 
projects.
    Senator Cochran. Our State of Mississippi has a great deal 
of economic interest in ports along the river on the western 
part of our State. Are there any ports that are on the 
Mississippi border, the State of Mississippi border that 
qualify for maintenance activity during this next fiscal year 
under the appropriations that we will approve in this budget 
bill?
    Ms. Darcy. I believe so. Can I name them? Vicksburg and 
Madison Parish. Yellow Bend. And----
    Senator Cochran. What about Memphis? Memphis, is part of 
Memphis?
    Ms. Darcy. Yes.
    Senator Cochran. We share that. Senator Alexander and I 
both are interested in that.
    Ms. Darcy. I was looking at Mississippi, but, yes, Memphis.
    Senator Cochran. Memphis. Right. Don't forget Memphis. And 
is Natchez or Vicksburg among those listed?
    Ms. Darcy. Yes, sir.
    General Bostick. The only thing I would add is that our 
districts have a big play in what we fund. We look at the 
national economic benefit and we look at risks to life and we 
look at environmental issues; the districts provide their 
recommendations up to the divisions, and then they come to the 
headquarters and go through the performance-based budgeting 
criteria process that Secretary Darcy explained.
    Senator Cochran. Let me ask you this. Is the appropriations 
being requested for maintenance of these ports sufficient in 
this budget request to take care of the needs that will exist 
over the next fiscal year?
    Ms. Darcy. Senator, the amount that is being requested in 
the President's budget--am I on? The amount that is being 
requested----
    Senator Feinstein. Move it down just a small bit.
    Ms. Darcy. The amount that is being requested in the 
President's budget is what we believe we can afford at this 
time from the Harbor Maintenance Trust Fund. It doesn't meet 
all of the needs for all of the harbors or in all of the ports, 
but it is what we are going to be able to afford to spend on 
those needs at this time.
    Senator Cochran. Well, with the emphasis on cutting 
spending and reducing the budget and trying to cut the deficit 
and that kind of thing, I hope that we don't get so carried 
away that we forget some of the primary responsibilities of 
these agencies that benefit from the appropriations approved by 
our committee to protect against catastrophic failures. And 
when we have so much of our commerce moving down the 
Mississippi River, it occurs to me that we need to be sure that 
we are getting that right.
    Are you satisfied that the funds being requested are 
sufficient for those purposes for the next fiscal year?
    Ms. Darcy. They are what we are able to afford at this 
time, sir.
    Senator Cochran. Now we can afford more, this committee 
can, by appropriating more, if it is consistent with our budget 
rules and restraints here on the Hill. You don't think it is 
important to make any requests for or in looking ahead, knowing 
that supplemental appropriations might be needed for any of 
these purposes?
    Ms. Darcy. Senator, this is the administration's request 
for this at this time.
    Senator Cochran. Okay. Thank you very much.
    Senator Feinstein. Are you muzzled?
    Ms. Darcy. No, Senator. I am supporting the President's 
budget request.
    Senator Cochran. I think so.
    Senator Feinstein. Yes. I think so, too. But the point is 
it is a huge budget cut for an agency that is our only real 
infrastructure agency. And that is the ``too bad'' thing.
    So, you know, I actually believe that this subcommittee has 
great respect for the Army Corps, and we want to see it be able 
to perform. So I would hope that if you have other priorities 
or will have other priorities, we are going to try to find a 
way to increase that amount.
    And Senator Cochran, you will support us. Right?
    Senator Cochran. Indeed, I will, Madam Chair.
    Senator Feinstein. Thank you.
    Senator Cochran. Thank you very much.
    Senator Feinstein. Senator Landrieu.
    Senator Landrieu. Thank you.
    I want to follow up on what Senator Cochran said because I 
think he raises an excellent point. And I understand the 
constraints, you know, Secretary Darcy, that you are under. But 
we are not under those same constraints. And it would help us 
to have the best information possible to make the arguments 
that we need to make, which is that continuing to grossly 
underfund water infrastructure projects in this Nation is 
counter to economic development and the creation of high-paying 
middle-class jobs.
    This maritime industry--I am not talking just about oil and 
gas. I am talking about maritime that affects every State, 
every community, is imperative. So I want to ask the question 
this way. And this is in, General Bostick, your testimony. You 
say this.
    Our budget includes 400 flood and storm damage reduction 
projects. This budget includes 192 coastal navigation projects. 
And this budget allocates money to 193 sites with navigation 
locks.
    I am going to ask you to submit to this committee the 
deficits associated with these: 400 flood, 192 coastal, and 193 
sites for this committee. Because you are putting $4.5 billion 
against these projects. You know, that is one way to testify. 
But the more interesting question is how much would it actually 
cost to complete all of them?
    I am not even sure--we need to know that. The country 
should know. Because it is billions and billions and billions 
and billions of dollars, and we are, like, throwing nickels and 
dimes at it. So I want that answer. If you have it, you can 
give it to me now. And if not, you can give it to me later. But 
I want that answer. What is the total amount?
    My second question is this. I mean, do you have a number 
right now for this?
    General Bostick. What you are asking for, Senator, is about 
our capability. And the capability is an estimate of each study 
or project that the Army Corps of Engineers estimates for the 
most that it could obligate efficiently for a fiscal year----
    Senator Landrieu. No, it is not obligate efficiently. It is 
what are the needs--if we built all these projects or if we had 
them completed. That is what I think the public is interested--
--
    Senator Feinstein. What the total amount.
    Senator Landrieu. What the total amount. And I know you 
don't--I don't think you have that number.
    General Bostick. For something like critical dredging, it 
is about $1.8 billion.
    Senator Landrieu. For what we need every year to dredge.
    General Bostick. Of what we could do in 2015.
    Senator Landrieu. Not what you can do, but what the country 
needs. It is two different things.
    Like we have a port of South Carolina that needs some 
dredging. We didn't even--now we do have a new start in here, 
and I am very grateful to the President, which was a promise 
made after Katrina destroyed the Gulf Coast. But we have the 
new start, and I am grateful, and our State is going to come up 
with a lot of money to help with this. We don't expect this 
committee to fund it. We have a funding plan. We need the 
authorization.
    But the Mississippi River needs to get dredged from Baton 
Rouge to New Orleans. It is literally the largest port system 
in the country, and we don't have the money in here, I 
understand, to dredge the Mississippi from Baton Rouge to the 
mouth. Do we?
    General Bostick. We do not.
    Senator Landrieu. We do not. And you do have four dredging 
projects in here. Correct?
    General Bostick. Correct.
    Senator Landrieu. And do we have the information about how 
those dredging projects were chosen? Can you submit those to 
the record in terms of economic impact?
    Ms. Darcy. We can do that.
    General Bostick. We can provide that. Yes.
    Senator Landrieu. Okay. Because the volumes in these ports 
I am fairly familiar with, and I don't know of any port system 
in the country--any--that has more volume than the ports of 
Baton Rouge to the mouth of the Mississippi. They couldn't 
possibly because this river is the biggest river in the whole 
country. I mean, there is no question about that.
    So, do you have a response to how the Mississippi River got 
left out?
    Ms. Darcy. I think you are referring to the one dredging 
project from Baton Rouge to----
    Senator Landrieu. To the mouth.
    Ms. Darcy [continuing]. To the mouth. At the time we were 
doing the allocations for the 2014 work plan, the local sponsor 
was not supportive of doing it.
    Senator Landrieu. Well, we have submitted information that 
counters that and it will. But that is one of my questions. I 
have gone over my time, and I am--well, no. I have a minute 
left. We sent you some additional information about that.
    But the point is--and it is not just each of us arguing for 
our own State. I have started off by saying the whole country 
has a huge need. And I can just--you know, I am more familiar 
with my State than I am with some others. But when I look at 
the Mississippi River and what is happening along this huge 
commercial corridor, and then I look at Lake Charles. So let me 
just ask about Lake Charles.
    You said that you allocate money, Madam Secretary, on 
economic commercial use. Are oil and gas tankers, like natural 
gas import or export, commercial use? Do you find it as 
commercial use?
    Ms. Darcy. That is commercial use.
    Senator Landrieu. And you take that into consideration? 
Okay. Since we are the only port right now that is positioned 
to do that, it is hard for me to understand how we don't get a 
regular allocation of dollars for the Calcasieu Ship Channel 
since we are one of the only ports that do that right now. Can 
you look into that for us?
    Ms. Darcy. I can look into it. What we look at is the 
volume, the commercial ton miles. So we will look at how that 
port competes compared to other high-use ports.
    Senator Landrieu. Okay. And the other is the energy ports 
along the Gulf Coast. We are not the only ones. But Port 
Fourchon, 18 percent of all the offshore drilling, it is not--
they don't even get calculated in some of the calculations that 
you all do. So we will continue to work.
    Madam Chairman, thank you.
    Senator Feinstein. Thank you, Senator.
    Senator Graham.
    Senator Graham. Thank you, Madam Chairman.
    Secretary Darcy, do you know why the Congress imposed 
sequestration?
    Senator Feinstein. Oh, poor Secretary Darcy.
    Ms. Darcy. Pardon me?
    Senator Graham. I would say you all were dumb, but you 
would not want to say that. I would say that we have created a 
mess for you and us. And it is easy to beat on you all, but we 
ought to beat on ourselves a little bit here. We have got to 
fix this.
    In 2016, sequestration hits again. Do you agree?
    Ms. Darcy. Yes.
    Senator Graham. You think it is bad now. What is going to 
happen post 2016, General?
    General Bostick. It is going to be worse, Senator.
    Senator Graham. Yes, I wish we could find a way to fix 
sequestration in a bipartisan manner. We are really gutting the 
ability to improve infrastructure. Do you agree with that, 
Secretary Darcy?
    Ms. Darcy. Yes. It is limiting that ability significantly.
    Senator Graham. Do you agree with that, General?
    General Bostick. Absolutely, Senator.
    Senator Graham. Okay. So the big picture is that we are on 
track now to reduce spending in an area I think is vital to our 
economy. And I will help you dredge the Mississippi River 
because if we don't, we are crazy.
    Our Inland Port Trust Fund, Olmsted Lock and Dam takes most 
of the money. Is that correct?
    Ms. Darcy. Yes, sir.
    Senator Graham. Until you fix that, you are never going to 
fix the Inland Port Trust Fund problem, are you?
    Ms. Darcy. There are ways to fix the Inland Waterways Trust 
Fund through a number of things, including the user fee that we 
have proposed.
    Senator Graham. Well, at the end of the day, I would just 
like the subcommittee, which has been one of the best 
experiences in Congress for me, to see if we can find a way to 
replace sequestration with something that makes more sense and 
frees up money.
    As to Charleston, the President's budget allocated $695,000 
to complete the Post 45 study. Is that enough, General? Madam 
Secretary?
    Ms. Darcy. It is funded to completion, sir.
    Senator Graham. Yes. So we really appreciate that, and I 
want to acknowledge the President's support of that.
    Now, when it comes to dealing with the West Coast port 
problems, they are mainly portside capacity. Is that correct?
    Ms. Darcy. It varies from port to port. But the West Coast 
ports have a different capacity because of some of their depths 
are naturally----
    Senator Graham. Do we have a strategy to make the West 
Coast of the United States more competitive and improve our 
ports? Do we have a national strategy to do that?
    Ms. Darcy. To make them more competitive, as opposed to the 
rest of the country?
    Senator Graham. Yes. Let us just start with the West Coast.
    Ms. Darcy. We don't have a strategy to make them the most 
competitive. No.
    Senator Graham. Do we have a strategy to make the East 
Coast more competitive?
    Ms. Darcy. I would say no.
    Senator Graham. Do we have a strategy to make the Inland 
Port Trust Fund more effective?
    Ms. Darcy. We are trying to, by proposing a user fee in 
order to increase the receipts into the trust fund, so that we 
can be more responsive to the infrastructure needs on the 
inland waterways.
    Senator Graham. Do you think the administration should come 
up with a strategy, or should the Congress come up with a 
strategy, or should we just not have one?
    Ms. Darcy. The President established a ports task force 
last year. One of our charges in the task force, which I sit 
on, is to come up with a port strategy for the country, and we 
are working on that.
    Senator Graham. When do you think that will happen?
    Ms. Darcy. I don't know.
    Senator Graham. When is the Panama Canal going to expand?
    Ms. Darcy. 2015.
    Senator Graham. That is next year.
    Ms. Darcy. Yes, sir.
    Senator Graham. Don't you think we need to get on with it?
    Ms. Darcy. We will.
    Senator Graham. Okay.
    To the chairman and the ranking member, I have really 
enjoyed working with both of you trying to come up with a 
strategy. But I don't know what you tell the American people. 
The Panama Canal is going to change shipping as we know it in 
the Gulf area, along the East Coast. Our West Coast ports have 
different needs, but many are going unaddressed.
    And I would just urge the administration and this committee 
to see if we could come up with a strategy fairly soon. You got 
any ideas on how to make that happen?
    Ms. Darcy. I think that, with the leadership of this 
committee and those of us in the Administration who have the 
same goals, we should be able to sit down soon and see what 
those are and how we get there.
    Senator Graham. Do you have any idea how much money it 
would take to have a comprehensive strategy to deepen ports, to 
dredge the Mississippi River in an effective way, making our 
inland ports more effective, and to deal with our capacity 
problems along the West Coast? Could you ballpark how much 
money it would take?
    Ms. Darcy. I can't even envision the ballpark.
    Senator Graham. Could you try to envision that, report back 
to us, and we will see if we can find the money if it makes 
sense to us?
    Ms. Darcy. We will do that.
    Senator Graham. Thank you.
    Senator Feinstein. Before recognizing Senator Tester, for 
just a minute. If you remember, we talked about this a lot. And 
as it washed out, California could never get its fair share 
back.
    Senator Graham. Well, let us fix that.
    Senator Feinstein. That is a problem.
    Senator Graham. Let us fix that.
    Senator Feinstein. If you can devise a sharing ratio for 
this, this funding that is based on what States pay in. But 
California is the biggest State to pay in and gets very little 
back. That is a problem.
    Senator Graham. And I would just say, Madam Chairman, yes, 
nobody wants to be unfair to California. There is the immediate 
needs of upgrading our infrastructure, and there is the way we 
collect money and how we disburse it.
    What I am thinking about trying to do is create a pot of 
money that fixes your capacity problems--new money--that helps 
deepen East Coast ports and will take care of the Olmsted Lock 
and Dam, and we can have those sort of one-time capital 
expenditures and we can come up with a new way to disburse the 
money. I think the needs are great and are being unaddressed as 
a Nation, and we are running out of time.
    So that is just my 2-cents worth. See if you can come up 
with the money to improve our infrastructure and deal with the 
allocations kind of as a separate issue. That is just my 
thought.
    Senator Feinstein. Thanks, Senator.
    Senator Tester.
    Senator Tester. Well, thank you, Madam Chair. And I want to 
thank the chairman and the ranking member for their work on 
this committee.
    And I would go back to Senator Graham's first statement 
when he said we ought to be beating up on ourselves. The truth 
is, I wonder what would happen if the President came out with a 
budget that talked about how much spending had to be done to 
build up our infrastructure. My guess, there would be ads runs 
saying this administration is a bunch of big spenders. And that 
is the way our election system works these days.
    If you don't believe it, take a look at a GSE (Government 
sponsored enterprise) housing reform bill that some hedge fund 
folks don't like, and they are running ads right now against 
Democrats and Republicans because they don't like the policy. 
We have got to fix that. If we fix that, we help fix you guys.
    And I want to thank you all for being here because, quite 
frankly, all these issues are very, very important to all of 
us, and they are all about infrastructure, and they are all 
about water. And it is pretty hard for you guys to say that 
project isn't worthy because every one of them are.
    And so, I am going to talk about some regional water 
systems in the President's budget that came out, and it was 
funded at half the amount it was funded at last year. And quite 
frankly, these projects have been around longer than I have 
been involved in State or Federal politics, and they are 
projects that are getting more expensive by the day, not less 
expensive. Yet the administration cuts them by 50 percent. 
Could you tell me the thinking behind it?
    Now, the projects I am talking about are projects like 
North Central Water Project in Montana, the Northeastern Water 
Project in Montana, and there is probably projects throughout 
the country that are the same as them.
    Can you tell me what kind of thought process goes into 
cutting those kind of water projects? I am looking at you, 
Lowell, you can rock and fire.
    Ms. Castle. Senator Tester, if you wouldn't mind me taking 
that?
    Senator Tester. You can do it, too. I am happy to hear from 
anybody.
    Ms. Castle. I will step into the fire.
    We do take rural water projects and the projects that you 
are talking about very, very seriously. They are important for 
the Nation. I will say that we very much appreciate this 
subcommittee's work to provide additional funding for 
Reclamation's rural water projects in the 2014 Omnibus 
Appropriations Bill.
    We were not able to, within our budget constraints, come up 
with the same amount of funding for the rural water program for 
the 2015 request. We are trying, as Secretary Darcy said, to do 
our part to balance the budget and to reduce the Federal 
deficit. And it is really another version of the conversation 
that was taking place here just earlier.
    But we are proposing to fund the Fort Peck project at $3.2 
million and to fund the Garrison project at $12.3 million. So 
we are doing what we can within a responsible budget to move 
those projects forward.
    Senator Tester. We have already invested north of $100 
million, maybe $150 million, in the project you just talked 
about, the Northeastern Water Project. I will tell you that--
and this is with all due respect--$3 million doesn't start up 
the pickup in that project. It is a fact. It doesn't.
    The O&M on that project is $1.5 million. And so, $3 
million, I appreciate it. I love you for it. But the fact is it 
doesn't even come close to what we need for that project, that 
one project. And we have got another one in the north central 
part of the State. And these projects have been around since 
the 1990s.
    And so, we are going to work on beefing that up. And 
hopefully, I can get the Chairman and Ranking Member to work 
with us, along with you guys, to give you some money that you 
can work with to be able to get some of these finished so we 
can get them off the books because, quite frankly, I don't want 
them to have to come to Washington, DC, anymore, begging for 
O&M, begging for money for the projects.
    Intake Dam--I will be very quick on this one--is for either 
the BOR or the Army Corps. Been working this 52,000 acres 
irrigation project. There is a fish passage, okay? The fish 
passage has been somewhat--we spent a lot of money on it. Let 
us just put it that way.
    We think it is going to work. We hope it is going to work. 
We don't know for sure if it is going to work. The concern is, 
is that after the work is done on that fish passage, if the BOR 
and Army Corps walk away from that and that fish passage 
doesn't work, we are going to break a bunch of irrigators.
    What is your perspective on that, on that issue? And then 
if I didn't explain it well, I can do it again. But go ahead.
    General Bostick. First, Senator, we agree with you. We 
believe it is going to work, and we are going to make every 
effort to work it to success. We are developing a Memorandum of 
Agreement with the Bureau that this summer will outline the 
long-term responsibilities that each of us will take. But we 
have learned from the past and are convinced that the plan that 
we are pursuing is going to be successful.
    Senator Tester. Do you anticipate--do you anticipate that 
long-term plan is going to be--if it doesn't work, it is not 
our problem?
    General Bostick. We are in the business of trying to solve 
problems and solve challenges. We are going to find a way to 
work together with the Bureau to find the right way forward.
    Senator Tester. Okay. One last thing, if I might, Madam 
Chair? My time has overrun. I will be very quick.
    Invasive aquatic species. Do you guys have a plan to make 
sure we are not transferring from one reservoir to another, 
from one body of water to another, from an Army Corps or Bureau 
of Rec standpoint?
    General Bostick. I would say we have some of the foremost 
experts working in this area. ERDC (Engineer Research and 
Development Center) has some of the best minds working it. We 
have also learned a lot in the GLMRIS (Great Lakes Mississippi 
River Interbasin Study) study, where we are looking at Asian 
carp and other invasive species. I think, from all of that 
work, it will help us all throughout the country.
    Senator Tester. I don't need to tell you guys, I mean, this 
is a huge economic--it would turn things upside down really 
fast.
    Thank you all. Thank you for the work you do. Thank you for 
your dedication to this country. Thank you for your dedication 
to water infrastructure. I look forward to working with you and 
the Chairman and the Ranking Member to get some of this stuff 
ironed out.
    Ms. Darcy. Thank you, Senator.
    Senator Feinstein. Thank you, Senator. Senator Tester, if 
there are no other questions, we will thank our witnesses and 
look forward to working with you during the budget process.

                     ADDITIONAL COMMITTEE QUESTIONS

    And I know members have some questions. The hearing record 
will remain open for 1 week, and additional questions for the 
record can be submitted to the subcommittee staff during this 
timeframe.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
               Questions Submitted to Hon. Jo-Ellen Darcy
            Questions Submitted by Senator Dianne Feinstein
                                drought
    Question. What actions has the Corps taken to address the historic 
drought in the West?
    Answer. First, the Corps implemented temporary deviations to 
operations at Whittier and Prado Dams during the drought which has 
allowed the maximum capture of over 22,000 acre feet of water. Other 
deviation requests will likely be forthcoming.
    Second, the California Department of Water Resources has been 
meeting with the Corps about permits for salinity barriers in the 
Delta. The Corps expects additional permit requests for other work, 
including pumps, siphons, wells and pipe extensions.
    Third, the Corps is engaged with other Federal, State and local 
agencies to anticipate and assist in providing drought responses. 
Regionally, the Corps is participating in forums conducted by the 
California Office of Emergency Services, the lead State agency, 
regional water planning bodies and directly with project partners.
    Fourth, the Corps is providing technical assistance to local 
communities. For example, the Corps provided technical assistance to 
Redwood Valley Water District to place a temporary floating pump 
platform in Lake Mendocino that will allow continued water withdrawal 
if the lake level falls below the permanent intake.
    Question. Are there other actions that the Corps could be taking?
    Answer. The Corps remains engaged with the California Drought Task 
Forces and is prepared to immediately act in processing deviations, 
regulatory permits and emergency water assistance requests within 
existing authorities. To improve longer-term drought resiliency, the 
Corps is working with the National Weather Service on improving 
forecast-based decision parameters for reservoir operations.
    Question. Are there statutory or other impediments that inhibit the 
role that the Corps could play in drought relief?
    Answer. The Army Civil Works program's actions reflect its 
authorities. In a drought, for example, the Corps may be able to take 
steps to change project operations at a multi-purpose dam that includes 
water supply as an ancillary project purpose. In some cases, the Corps 
may also be able to provide certain emergency assistance under Public 
Law 84-99.
    Question. Does the Corps have sufficient funding to address drought 
activities within the limited authorities available to you?
    Answer. Yes.
                              water supply
    Question. Questions have been raised about the Corps' operation of 
their lakes, particularly in California. The questions centers on the 
operating ``rule curve''. Many complain that the ``rule curves'' were 
developed 50 or more years ago and don't take into account the latest 
climate science or even observational data.
    Does the Corps have a process to periodically reanalyze these 
``rule curves''?
    Answer. Yes. Each dam or reservoir has a water control manual that 
is periodically updated based upon need including changing upstream 
and/or downstream conditions such as hydraulics, and dam operations. 
Engineering Regulation 110-2-240 directs the Corps to revisit the water 
control plans regularly. Updates vary from relatively minor to 
significant. A significant water control manual update could require an 
environmental impact statement, public involvement, endangered species 
coordination, engineering analysis, and economic analysis.
    Question. Are the rule curves the only factor that governs whether 
water is released?
    Answer. Rule curves provide the broad guidelines for reservoir 
operations. Specific releases are dependent on the conditions at that 
time.
    Question. Is there any flexibility in these ``rule curves''?
    Answer. Yes. We have flexibility in these ``rule curves''. The 
deviation process allows this flexibility via several different paths 
for temporarily changing operations. A deviation can cover a short-term 
change in operations for gate inspection or downstream rescue, to a 
longer term change to address downstream levee improvements, 
construction at the dam or water supply enhancements. Deviations are 
typically requested by an outside agency and are evaluated by the Corps 
to ensure that the Congressional authorizations for flood and storm 
damage reduction are not compromised.
    Question. What is the process for integrating the rule curves with 
the weather forecast when there is a storm on the horizon?
    Answer. Technically, the Corps does not incorporate weather 
forecast in the rule curves. Rather, it uses weather forecasts to 
determine whether a deviation from the rule curve is warranted in a 
particular situation. A deviation is an approved reservoir operation 
that does not follow the rule curve. Deviations can be requested and 
approved for immediate short-term emergencies; or they can be requested 
and approved for non-emergency situations for longer durations. The 
deviation process allows short-term flexibility to safely adjust 
reservoir operations to meet current and anticipated conditions for 
floods and droughts.
    Real-time reservoir operations are based on the amount of observed 
water on the ground in the form of rainfall, runoff, or snowpack. This 
reduces the potential for inducing damages as a result of operations 
based on weather forecasts with errors and uncertainties. Currently, 
the Corps is developing a research framework with NOAA's National 
Weather Service, River Forecast Centers, and other stakeholders to 
evaluate forecast reliability in conjunction with site specific 
constraints such as downstream capacity, uncontrolled flood wave 
timing, and other risk factors including floodplain development.
    Question. Would it not be prudent to take some of the funding that 
is proposed in your budget for climate change and utilize it for these 
analyses?
    Answer. No, that funding is needed to develop tools and evaluate 
options for broader programmatic changes in project design, 
construction, or operation. Generally, work on rule curves and the 
associated planning and implementation of operational changes for a 
particular weather forecast are funded with the project's Operation and 
Maintenance funds.
    Question. How do you answer critics that accuse the Corps of 
``flushing'' away water in a reservoir during a drought to maintain a 
``rule curve''?
    Answer. Each dam is operated based upon its water control manual 
and authorizing documents. Rule curves in water control manuals are 
defined by the specific authorized purposes of each project as well as 
endangered species requirements and are generally designed to best 
mitigate risks during both drought and flood events, consistent with 
the other authorized purposes and existing law.
    Question. Do any of the Corps reservoirs in California have the 
capacity for additional storage or the reallocation of storage for 
water supply?
    Answer. Possibly. The Corps is conducting incidental water 
conservation studies at Prado and Whittier Dams that will define any 
capacity for additional storage or the reallocation of storage for 
water supply.
    Question. At Lake Mendocino in Mendocino County, local interests 
desire to increase the height of the dam to obtain additional water 
supply storage. The locals are concerned that the Corps is going to 
walk away from this study without giving it the proper analysis.
    What is the status of this study?
    Answer. The Corps has reclassified the Coyote Valley Dam 
Feasibility Study as inactive based on the available preliminary data, 
which suggest that none of the alternatives considered is likely to be 
economically justified. In other words, the project costs are likely to 
exceed benefits. As a result, the fiscal year 2015 Budget does not 
include funding for this study.
    Question. Why is it taking so long?
    Answer. The Army has concluded that this study is not likely to 
result in a recommendation to construct a modification to the existing 
project.
    Question. How much would it cost to complete the study?
    Answer. The Corps has not developed a potential scope, cost, or 
schedule for further work on this study.
    Question. How much storage might be available?
    Answer. The calculation of the ``expected yield'' takes into 
account a variety of factors and is therefore only an estimate. 
However, assuming construction of the maximum raise proposed by locals 
(36 feet), approximately 25,000 acre feet per year could be an expected 
yield.
    Question. Are there potential partnerships with other agencies that 
might lead to development of this water supply storage?
    Answer. The Corps has explored this issue with the Bureau of 
Reclamation; however, the Bureau of Reclamation also requires a 
benefit-cost ratio of greater than one to recommend proceeding with 
this type of project.
            napa river, napa creek flood protection project
    Question. As you know, the Corps continues to work on the Napa 
River Flood Protection Project. The Administration proposed and 
Congress funded initiation of construction of this project in fiscal 
year 2000. The project now is about 70 percent complete. The unfinished 
project has already resulted in nearly $1 billion in public and private 
investment in downtown Napa. Construction of the Dry Bypass element is 
the next major element to be accomplished. This element will allow the 
project to capture many of the anticipated benefits of the project. 
However, it is my understanding that this may be the last element of 
the project that the Corps will pursue.
    Is this correct?
    Answer. That is correct. The remaining elements of the project have 
a benefit-cost ratio of less than one (costs exceed benefits) and are 
not required to achieve flood risk reduction outputs from the portions 
of the project that the Corps has already constructed. As a result, 
Federal investment in constructing the remaining elements is not 
economically justified. The Corps conducted a post authorization study 
in 2012 that determined that the last economically justified element of 
the project was the Dry Bypass. The groundbreaking for the Dry Bypass 
project is today and is anticipated to complete in June 2015.
    Question. What work remains?
    Answer. The unconstructed authorized project features include the 
west side floodwall, the Imola detention basin and pump station, the 
Tulocay floodwalls and pump station, the Oxbow bypass pump station, and 
the River Park Floodwall and levee.
    Question. What is the cost of that work?
    Answer. The estimated cost of these unconstructed elements is over 
$200 million.
    Question. Have the benefits of that work been reexamined?
    Answer. Yes, the benefits and costs of both the total project and 
the remaining unconstructed authorized project elements were evaluated 
in the 2012 Limited Reevaluation Report (LRR) and subsequent Dry bypass 
justification. The total project benefit to cost ratio was identified 
as 0.4 to 1 at 7 percent. Again, much of the benefits have been already 
captured with the work that has already been funded.
    It is my understanding that the non-Federal sponsor is presently 
working to complete a value engineering study to identify the most cost 
effective solution for completing the project. This value engineering 
could reduce the cost of constructing the remainder of the project.
    Question. Will you commit to having the Corps review the results of 
the value engineering study expeditiously so the Corps can use this 
information to determine the most cost effective solution to complete 
this critical flood protection project?
    Answer. The non-Federal sponsor expressed an interest in executing 
an agreement to provide funding for the Corps to review this study. 
With such an agreement and funding, the Corps would review that study 
and evaluate its applicability to any future Corps efforts.
                         budget justifications
    Question. Can you describe the process for getting your budget 
justifications reviewed and approved? What can be done to improve the 
process?
    Answer. Budget justifications are drafted at Corps Divisions and 
reviewed at Corps Headquarters, in my office, and with the Office of 
Management and Budget. All parties involved are committed to providing 
timely, quality budget justification materials. We are looking at how 
we can streamline our process, including better use of available 
technology and earlier coordination of the draft materials, while 
maintaining the quality of the end product.
                        budget--remaining items
    Question. Remaining items in most accounts appears to have been 
arbitrarily cut by 25 percent. How will that impact ongoing work? How 
will that impact the Corps R&D capability? What was the rationale for 
these cuts? Where you just trying to meet a number?
    Answer. Some impacts to ongoing work are anticipated from these 
reductions. However, the amounts proposed for fiscal year 2015 reflect 
the relative priority of the proposed work.
    For the research and development remaining item, the average 
execution of funds has been approximately $16 million per year from 
fiscal year 2010 and fiscal year 2013. An additional $10.6 million was 
provided to this remaining item in the fiscal year 2013 work plan above 
the fiscal year 2013 Budget level. Similarly, the fiscal year 2014 work 
plan provided approximately $8 million more than the fiscal year 2014 
budget.
    Question. Who makes the decisions as to what will be requested in 
the budget for research? Is it a committee, a person, etc?
    Answer. Each annual Budget is a product of a series of inputs at 
all levels of the Administration. For the research and development line 
item, Districts and Divisions annually identify their capability for 
research and development in the Budget year. Field review groups 
consisting of representatives from across the Corps prioritize those 
requests. The prioritized lists are then further prioritized by the 
Civil Works Research and Development Steering Committee at Corps 
Headquarters. Final funding decisions result from how well each 
proposed package of work competes with other potential programs, 
projects, and activities across the Nation.
    Question. Is there a ``backlog'' of research awaiting funding?
    Answer. The Corps identifies and prioritizes opportunities for 
additional research and development each year. These opportunities 
range from improvements to existing tools and capabilities to new 
research areas. On average, the Corps adds about 30 new items annually 
to the research and development portfolio. It selects these items each 
year from a larger pool of potential items (old and new) for research 
and development.
    Question. Does the Corps accept research proposals from other 
institutions?
    Answer. Yes. The Corps accepts proposals through its Broad Agency 
Announcements on select research topics that are identified and 
published annually at https://www.fbo.gov/
index?s=opportunity&mode=form&id=88442561687c1770755b4b38
e8231474&tab=core&--cview=1.
                          budget--construction
    Question. You have proposed to initiate a $2 billion ecosystem 
restoration construction project as the lone new construction start in 
your budget request. It would appear that the inclusion of this project 
coupled with the declining construction requests will assure one of two 
outcomes. Either there will be continued inefficient funding of the 
projects that you propose or you plan to further reduce the number of 
construction projects in the budget request? Can you explain how the 
Corps was able to rationalize including this project when the 
construction account was cut $225 million from your previous budget 
proposal?
    Answer. Although construction of the full program referenced--
Louisiana Coastal Area (LCA) ecosystem restoration program--would 
involve a significant investment of resources, the importance of this 
ecosystem makes it an important new start for the Nation. Louisiana 
contains one of the largest expanses of coastal wetlands in the 
contiguous United States, and has experienced 90 percent of the total 
coastal marsh loss in the Nation. Its coastal wetlands provide 
nationally significant habitat to migratory bird species, help protect 
an internationally significant commercial-industrial complex and 
communities from storm-driven waves and tides, and support commercial 
and recreational fishing activities. Additionally, the Corps has proven 
its ability to complete construction projects in recent years. In 
fiscal year 2014, 34 construction projects were funded to completion, 
and in fiscal year 2015, nine more projects are funded to completion. 
The Corps' ability to complete these projects will make additional 
funds available to support the construction of this environmentally and 
economically significant new start.
    Question. You have cut the number of funded construction projects 
in your budget request from 81 in the fiscal year 2014 request to 63 in 
the fiscal year 2015 request, a reduction of 18 projects. Yet your 
budget indicates only 9 projects are funded to completion in fiscal 
year 2015.
    What is the status of the 9 projects that didn't get completion 
funds and are not budgeted?
    Answer. The 2014 and 2015 Budgets included 80 and 66 construction 
projects, respectively. Besides completions, there were 13 projects 
that were in the fiscal year 2014 Budget, but not included in the 
fiscal year 2015 Budget.


------------------------------------------------------------------------
                                         Reason not included in fiscal
               Project                          year 2015 Budget
------------------------------------------------------------------------
Cape May Inlet to Lower Township, NJ   Sandy Supplemental funded
Columbia River Channel Improvements,   A Corps decision on further
 OR                                     funding for this study is on
                                        hold pending completion of EPA
                                        decision on contaminated
                                        sediments
Fire Island Inlet to Montauk Point,    Sandy Supplemental funded
 NY
Fort Pierce Beach, FL                  Periodic Renourishment; no funds
                                        needed
Great Egg Harbor Inlet and Peck        Sandy Supplemental funded
 Beach, NJ
Little Calumet River, IN               Local sponsor is behind on its
                                        cost-share
Lower Cape May Meadows, Cape May       Sandy Supplemental funded
 Point, NJ
Lower Snake River Fish and Wildlife    Proximity to 902 limit
 Compensation, WA,
  OR & ID
Nassau County, FL                      Periodic renourishment; no funds
                                        needed
Pinellas County, FL                    Periodic renourishment; no funds
                                        needed
Turkey Creek Basin, KS & MO            Proximity to 902 limit
Wilmington Harbor, NC                  Project will complete with
                                        carryover funds
Wrightsville Beach, NC                 Periodic renourishment; no funds
                                        needed
------------------------------------------------------------------------

    Question. How is it reasonable to budget for these projects 1 year 
and not budget for them the next?
    Answer. Changed conditions as shown in the above table.
    Question. Have the local sponsors been notified? What were they 
told?
    Answer. Yes. Sponsors were notified of the changes in annual 
funding, along with the reasons, based on the particulars of the 
projects.
    Question. Isn't there an inherent commitment that, once started, 
the government will see these projects through to completion?
    Answer. No. Budget decisions are made on an annual basis based on a 
comparison with other potential uses of the available funds including 
deficit reduction, and reflect a range of considerations.
    Question. Doesn't your budgeting process, contribute to projects 
becoming less competitive by stretching out the construction period 
thereby increasing project costs to the Federal Government and the 
local sponsor?
    Answer. The Budget process seeks to achieve the best overall use of 
available resources.
                         budget--investigations
    Question. Your planning initiative has proposed that studies be 
completed in 3 years for $3 million or less. You are claiming credit 
for completing 34 studies, 29 feasibility studies and 6 preconstruction 
engineering and design studies in the fiscal year 2015 budget request 
yet 15 of these studies were not included in your fiscal year 2014 
budget request but most showed up in your fiscal year 2014 work plan.
    These studies would not have been completed were it not for the 
additional funds Congress provided above the budget request in fiscal 
year 2014 since the Investigation account was reduced by $10 million in 
your fiscal year 2015 proposal. I hate to seem cynical here, but it 
appears that you are deliberately underfunding the investigations 
account and depending on Congress to increase the account.
    Question. As studies are rather cheap in the scope of Corps 
funding, why doesn't the administration provide for more robust 
spending on studies?
    Answer. The Budget funds those studies that the Corps has 
identified as having the greatest chance of leading to a proposed water 
resources solution.
    Question. Is it as many suspect, that the Administration does not 
want to complete studies because they may lead to additional 
construction projects?
    Answer. No. My guidance to the Corps is to complete the selected 
studies as efficiently as possible without compromising quality.
    Question. Or does the Administration believe that the studies are 
unwarranted?
    Answer. No, the fiscal year 2015 Budget included funding for 78 
studies of options that we believe have the potential to produce 
positive economic and environmental returns across the Nation.
    Question. Secretary Darcy, generally the Investigations for Corps 
projects are divided into three studies, the reconnaissance, the 
feasibility and preconstruction engineering and design. Congress 
intended for this to be a ``seamless'' process, both from the funding 
and budgeting standpoint, from the new start decision to begin the 
study process to the completion of the preconstruction engineering and 
design study. It appears from the budget request that the 
Administration has abandoned that seamless concept.
    Has the Corps created a new start decision point for the 
feasibility and PED phase?
    Answer. There is a need for an initial investment decision for a 
Corps study, which occurs before starting a reconnaissance study. The 
Corps also reviews the status of each study through the annual Budget 
process to determine whether there is still a sufficient basis to 
continue to fund that study. When the study phase is completed, the 
Corps uses performance standards to select the projects funded in the 
Budget for preconstruction engineering and design work.
    Question. Do studies have to compete for these ``new start'' 
decisions?
    Answer. The only studies that compete as ``new starts'' for 
inclusion in the Budget are reconnaissance studies.
    Question. What criteria are used for these decisions?
    Answer. Criteria considered when selecting which reconnaissance 
studies to propose for funding include the likelihood that a study will 
lead to a proposed water resources solution, the extent of the water 
resources problem and its urgency, compliance of the study with 
Executive Branch policy, non-Federal sponsor support for the study, and 
likely participation of non-Federal sponsor in implementation of a 
proposed solution. More specific criteria are applied based on the kind 
of problem that is being addressed. For example, flood risk management 
studies are evaluated on factors such as the population impacted, area 
of inundation, and the risk and consequences of flooding.
    Question. Was Congress notified of this change in budgeting 
process?
    Answer. There has been no such change to report.
    Question. What is the rationale behind this change?
    Answer. There has been no change to report.
    Question. Is this just to limit the number of feasibility and PED 
studies?
    Answer. There has been no change to report.
    Question. Isn't this process a disincentive for a local sponsor to 
sign a cost sharing agreement?
    Answer. The increased emphasis on the successful completion of each 
study phase is an incentive to partner with the Corps.
    Question. Why would a local sponsor partner with the Corps on a 
study if there is no assurance that the Corps intends to see the entire 
Investigations phase through to completion?
    Answer. Our local sponsors understand that no one can guarantee 
them future funding, as Army Civil Works funding decisions are made on 
annual basis. However, the SMART planning process has helped in this 
regard. Under this initiative, the completion of ongoing feasibility 
studies is a priority, and Corps will be able to complete them sooner.
                       fiscal year 2014 work plan
    Question. In the fiscal year 2014 work plan for construction, the 
Administration has left $28 million unallocated for shore protection. 
It is my understanding that while you may have funded all of the 
ongoing construction projects, that there is a backlog of 
reimbursements of prior shore protection work that could be funded. Why 
are these funds unallocated? Is there a reason that the Administration 
is not allowing reimbursements of shore protection work?
    Answer. The fiscal year 2014 work plan includes $23 million for 
reimbursements of prior shore protection work performed by non-Federal 
sponsors. Reimbursements were considered and included in the work plan 
development process, but the remaining funds are unallocated due to the 
lack of projects that could use those funds to accomplish work in 
fiscal year 2014. We are continuing to assess whether additional 
projects could use the unallocated work plan funds and will keep you 
apprised of any allocation decisions that are made.
    Question. Also in the Investigations account of the fiscal year 
2014 work plan there appear to be nearly $8.5 million of the $35 
million above the budget request that Congress provided that is 
currently unallocated. As chronically stressed for funding as the 
Investigations account seems to be, surely there are studies where 
these funds could be applied. Why do these funds remain unallocated?
    Answer. A combination of factors resulted in some Investigations 
funding remaining unallocated. There were slippages and changes in 
capability since the submission of capability prior to the conference. 
Also, there were some studies that expressed a capability to use the 
funding, but not in fiscal year 2014.
    That being said, the Army will continue to re-examine the 
capabilities and schedules of eligible studies throughout the year and 
apply the rating system that was used for the original work plan to 
those studies. Studies that become eligible for the unallocated fiscal 
year 2014 funding could receive those funds during this fiscal year. 
Those funds that remain unallocated by the end of fiscal year 2014 
would be carried over, but the use of those funds would remain limited 
to the specified purposes of each remaining item.
                     harbor maintenance trust fund
    Question. The budget request proposes $915 million be expended on 
Harbor Maintenance Activities. While this is an increase of $25 million 
over your fiscal year 2014 request it seems that this increase, to a 
certain extent, was at the expense of other parts of the Corps budget, 
particularly when the O&M budget itself is reduced by $88 million from 
the fiscal year 2014 request. Congress is serious about spending more 
of the revenues generated from the Harbor Maintenance Tax to dredge 
harbors to their constructed dimensions. What is it going to take to 
get this message through to the Administration? Were it not for the 
additional funding provided by Congress in fiscal year 2014, how many 
less projects would have been funded and what would have been the 
projected economic impact at a local and State level?
    Answer. The Budget amount of $915 million for Harbor Maintenance 
Trust Fund eligible activities reflects an appropriate amount. The 
level of Federal spending to support harbor maintenance and related 
work should reflect consideration for the economic and safety return of 
these investments, as well as a comparison with other potential uses of 
the available funds.
    The Army allocated $62 million for harbor maintenance and related 
work at 59 additional projects from the O&M funds added by the 
Congress. The Corps does not track projected economic impacts at the 
local and State levels, and an extensive study would be required to 
determine those impacts.
    Question. The metrics that are used in the budget to determine 
which harbors to dredge have nothing to do with the economics analysis 
for which those projects were analyzed, justified and constructed. To 
utilize different metrics on a completed project is to assume that they 
should not have been built in the first place. If that is the 
Administration's intent, they should propose these projects for 
deauthorization in a WRDA bill rather than not funding them until the 
projects are no longer viable. How do the metrics that are used in the 
budget request have any bearing on the economics of the project as it 
was conceived, analyzed and constructed? Wasn't the 50 year maintenance 
of the project included as one of the costs in the economic analysis of 
the project?
    Answer. The economic analysis that the Corps performs when it 
formulates a proposed coastal channel improvement typically involves a 
set of assumptions about how the future will unfold at that port, in 
that region, and globally over a period of 50 years following 
completion of construction of the project. Generally, the Corps uses 
these forecasts to estimate the potential future transportation cost 
savings for a set of predicted commodities and vessels. There is a 
great deal of uncertainty embedded in these assumptions.
    Once the Corps has constructed a coastal navigation project, 
conducting a detailed economic analysis to inform annual spending 
decisions is not practical. Instead, the Corps considers a variety of 
factors to prioritize harbor maintenance and related work. The Corps 
uses tonnage to classify coastal ports based on their level of 
commercial use. This provides a good initial indicator of both the 
usage and the economic value of a coastal navigation project. However, 
in deciding how to allocate funding among projects, the Corps considers 
other factors as well. All of these factors, when considered together, 
are indicative of the return that can result from a proposed harbor 
maintenance activity. Nonetheless, as a first order approximation, the 
greater the tonnage, the greater the transportation savings that can 
accrue.
    Similarly, while our studies typically include the estimated costs 
of operating and maintaining the proposed project over 50 years, these 
50-year cost estimates are based on assumptions and projections. 
However, conditions change and these changes can include less usage 
than expected, more costs than expected, and other factors, which may 
warrant consideration in developing priorities for the use of operation 
and maintenance funding.
                       inland waterway trust fund
    Question. There is an ever increasing backlog of work to be 
accomplished on the inland waterways system. The budget request has 
repeatedly referred to assume that the lockage fees that have been 
proposed are enacted. As has been stated by both the House and the 
Senate, this is not a proposal that Congress will accept. Fortunately 
you have not included these assumed revenues into you annual budget 
request but rather used them as an offset against future spending. 
While this may be a clever budget gimmick, it does not really solve the 
problem of inadequate funding on the inland waterways system.
    This subcommittee has developed a solution for fiscal year 2014 
that shifts an additional part of the burden of the Olmsted Lock and 
Dam project to the General Treasury from the Inland Waterways Trust 
Fund. This is a short term solution but we recognized that this was the 
only way to move other inland waterway projects forward. This solution 
has freed up more than $80 million for other inland navigation work.
    Question. Does the Administration plan to develop and propose a 
solution to the funding inadequacies of the inland waterways system 
that could be acceptable to all parties?
    Answer. The Administration submitted a proposed vessel use fee to 
the Congress in September 2011 that would supplement the revenue from 
the existing diesel fuel tax with a user fee paid by the commercial 
users of the inland waterways.
    The Administration's proposal would generate an estimated $1.1 
billion in additional revenue over 10 years from the commercial users 
of these inland waterways. This amount reflects estimates of future 
capital investment for navigation on these waterways over the next 
decade, including an estimate adopted by the Inland Waterways Users 
Board. The proposal is needed to ensure that the revenue paid by 
commercial navigation users is sufficient to meet their share of the 
costs of capital investments on the inland waterways, which would 
enable a significant increase in funding for such investments in the 
future.
    Under the Administration's proposal, the Corps would be able to 
structure the user fee in two tiers. Nearly all of the capital 
investment by the Corps to support commercial navigation on these 
waterways involves work at Corps locks and dams. Under a two-tiered fee 
system, those who use the locks and dams would pay more of the non-
Federal share of capital investments, as they should. This would 
increase economic efficiency by requiring the specific users who 
benefit from these investments to internalize the costs. The 
Administration's proposal also includes other needed changes, which 
would clarify the scope of cost-sharing for inland waterways capital 
investment, and the authority for appropriating funds from the Inland 
Waterways Trust Fund and from the General Fund to finance inland 
waterways costs; and would close an existing loophole under which 
traffic on roughly 1,000 miles of the inland waterways does not now pay 
the fuel tax.
    Question. What is the backlog of construction work (major rehab and 
other) needed to modernize the inland waterway system?
    Answer. The Administration's legislative proposal reflects 
estimates of future capital investment for navigation on these 
waterways over the next decade, including an estimate adopted by the 
Inland Waterways Users Board. The Corps does not have a specific, fixed 
multi-year investment plan for these waterways. The Congress has 
authorized many projects that the Corps has not built, some of which 
have a low economic return. Other investments, particularly work to 
maintain, repair, and rehabilitate existing inland waterways projects 
with a high level of commercial use, may prove to be a better 
investment.
    Much like the metrics that are used for determining whether to 
dredge a port, there are similar metrics for maintaining inland 
waterways.
    Question. Would the Corps consider other metrics that are more in 
line with how projects are analyzed and built as opposed to the tonnage 
based metrics currently used?
    Answer. Once the Corps has constructed an inland waterways project, 
conducting a detailed economic analysis to inform annual spending 
decisions is not practical. Instead, the Corps considers a variety of 
factors to prioritize operation and maintenance work. The Corps uses 
segment-ton-miles to classify inland waterways based on their level of 
commercial use. This provides a good initial indicator of both the 
usage and the economic value of each of the inland waterways. However, 
in deciding how to allocate funding among projects, the Corps considers 
other factors as well. All of these factors, when considered together, 
are indicative of the return that can result from a proposed operation 
and maintenance activity. Nonetheless, as a first order approximation, 
the greater the segment-ton-miles, the greater the transportation 
savings that can accrue.
    Question. How are these lower use projects expected to compete, if 
they don't have enough tonnage to be dredged and they can't attract 
business because the channel is unreliable?
    Answer. The Corps views the navigation program from a national 
perspective, and focuses on the investments that will provide the best 
returns to the Nation. However, the Budget also includes significant 
funding for navigation projects with a low level of commercial use 
(coastal as well as inland). In allocating these funds, the Corps 
considers a range of factors. These include the need to operate and 
maintain locks; use of a harbor as a critical harbor of refuge or a 
subsistence harbor; whether the coastal port or inland waterway 
supports public transportation, U.S. Coast Guard search and rescue 
operations, the national defense, or other Federal agency use; the 
reliance on marine and inland transportation for energy generation or 
home heating oil deliveries, and the level of commercial use.
    Question. What is the backlog of major maintenance that needs to be 
accomplished on these waterways?
    Answer. The Corps does not keep track of a backlog of maintenance 
work as such on an ongoing basis. Instead, it compiles a new estimate 
each year of the sum of all amounts not funded that the individual 
project managers say they could efficiently and effectively use by the 
end of the fiscal year. The Corps uses economic data and other 
objective performance measures to inform its decisions on the best way 
to allocate funds. All of the maintenance work funded in the Budget is 
of higher priority than the unfunded work.
    The Corps uses the term ``major maintenance'' to refer to a 
specific type of maintenance activities. Major maintenance refers to a 
non-repetitive item of maintenance work or aggregate items of related 
work for which the total estimated cost exceeds $6 million, which does 
not qualify as major rehabilitation. At this time, there is 
approximately $547 million in such work that has not been funded on 
inland waterways projects.
                              water supply
    Question. With the continued drought throughout the western United 
States, it is more important than ever that Federal water agencies work 
together to assist States and local communities in addressing needs. It 
is also very important that Federal water agencies ensure they are 
doing all they can to enhance the resources within their authorities. I 
appreciate the effort of the Corps of Engineers in collaborating with 
USDA, DOI, and other Federal agencies to address these needs. I 
understand across the U.S. the Corps of Engineers stores more than 10 
million acre-feet of water for Municipal and Industrial Water Supply 
(M&I) behind the multi-purpose reservoirs it operates and maintains. 
This is enough to meet the annual needs of 6.8 million households. A 
majority of this M&I water supply storage is located in reservoirs in 
the arid southwestern U.S.
    What is the Corps of Engineers doing to work with local and State 
governments to ensure the multi-purpose reservoirs it operates and 
maintains that include M&I water supply storage are being operated and 
maintained to efficiently manage the waters stored, especially during 
this period of long term drought?
    Answer. Each Corps of Engineers reservoir has a water control plan 
devised to guide effective operations for meeting the Congressionally-
authorized project purposes, including a drought contingency plan. In 
many cases, the water control plan includes basic changes to the normal 
operating regime in the event of a drought. The Corps also may provide 
a temporary deviation from established reservoir operations in response 
to drought conditions. For example, two such deviations were recently 
granted in Southern California in response to the current drought. 
These deviations apply to site-specific, current conditions and 
requests for modification and do not constitute permanent changes to 
the water control plan. Flexibility in operations is subject to the 
limitations of project authorities and Federal law, environmental 
compliance, dam safety considerations, and associated flood and storm 
damage reduction considerations. The Corps has also actively 
participated on drought coordination teams in affected regions of the 
country throughout this period of drought.
    Looking just at the Corps of Engineers' multi-purpose reservoirs 
west of the Mississippi River, there is more than 1.4 million acre-feet 
of M&I water supply storage that has not been activated. Can you 
provide me a listing of the projects, with information on the State, 
congressional district, the amount of storage, estimated population 
this storage could serve, and the estimated date for when this storage 
will be activated?
    Answer. See attached tables for a listing of the projects, with 
information on the State, congressional district, the amount of 
storage, estimated population this storage could serve. The Corps does 
not have dates for anticipated activation--activation is dependent on 
State and local authorities requesting activation and paying for the 
storage space, among other conditions of contracts for storage, 
pursuant to statutory authority, e.g., the Water Supply Act of 1958. 
The Corps published its most recent inventory of all M&I water supply 
contracts and storage in 2012, including inactivated storage: ``2011 
M&I Water Supply Database'' (USACE Institute for Water Resources, 
2012). This publication can be found online at: http://
www.iwr.usace.army.mil/Portals/70/docs/iwrreports/2012-R-02.pdf. For 
the 135 Corps reservoirs that have M&I water supply storage, the 
database includes storage space, user, contract data (size, date, cost, 
etc.), State, and other information.
    Question. As a measure to enhance the ability of these reservoirs 
to meet the M&I water supply needs of the western U.S., are there any 
issues as to why this storage has not been activated to meet the 
Nation's M&I water supply needs?
    Answer. Initiatives to activate storage are the responsibility of 
State and local entities. States and non-Federal entities have the 
primary responsibility in the development and management of their water 
supplies including the financial responsibility of providing supplies 
to users.
    Question. Are there any actions within the Corps of Engineers 
existing authorities that could be done to enhance the amount of M&I 
water supply storage at reservoirs operated and maintained by the Corps 
of Engineers?
    Answer. Yes. The Corps continues to undertake storage efficiency 
measures to address conditions in storage reservoirs such as leakage, 
unintentional spilling, and sedimentation. Requests to activate 
existing storage, to reallocate storage to M&I from other purposes, or 
to contract for use of surplus water (where available) can be 
considered by the Corps at the initiative of State and local sponsors.
                                 ______
                                 
            Questions Submitted by Senator Richard J. Durbin
    Question. In January, the Army Corps of Engineers released the 
Great Lakes Mississippi River Inter-basin Study Report (GLMRIS). In the 
report, the Corps lays out several pathways to prevent invasive species 
from transfer between the Chicago Area Waterway and Lake Michigan.
    In the GLMRIS report, the Corps estimates that the costs of these 
actions would be $8 billion to $18 billion dollars and would take up to 
25 years to build if all the funds were readily available. This is 
unlikely to ever occur as Army Corps of Engineers' budget for similar 
construction projects on all navigable waterways in the United States 
in fiscal year 2014 is $1.66 billion.
    Given this fact, many residents in my State what to know what 
practical short- and medium-term steps can be taken to thwart the 
transfer of invasive species.
    In your estimation, what actions can be taken by the Corps and 
other key stakeholders--local and State agencies, other Federal 
agencies, private actors--in the 5 years that would provide the 
greatest additional risk reduction from the aquatic invasive species 
threat?
    Answer. The Asian Carp Control Strategy Framework, which is 
developed by the Asian Carp Regional Coordinating Committee (ACRCC), is 
the best resource for identifying actions that will reduce the threat 
of self-sustaining populations of Asian Carp from becoming established 
in the Great Lakes. The Corps currently operates three electric 
barriers to control transfer of fish from the Mississippi River basin 
toward the Great Lakes. Construction of a permanent upgrade to the 
existing Demonstration Barrier is underway.
    At Eagle Marsh, Fort Wayne, IN, previously identified as the 
highest priority potential ANS transfer pathway outside the Chicago 
area in the GLMRIS Other Pathways Preliminary Risk Characterization 
released in 2010, the Corps is currently providing planning support to 
the Natural Resources Conservation Service and local stakeholders in 
design of a long-term mitigation measure. The goal of the NRCS and the 
Indiana Department of Natural Resources is to begin construction of the 
measure in 2014.
    The ACRCC is currently developing a revised Framework that will 
outline the most pressing actions needed to reduce the risk from the 
aquatic invasive species threat.
    Question. What funding and legislative authority would the Corps 
and other stakeholders need to accomplish these actions?
    Answer. As seen in Framework documents from previous years, both 
agency-based funding and the Great Lakes restoration Initiative (GLRI) 
funding are being used to focus on short and long-term controls to 
reduce the risk of Asian carp invasion to the Great Lakes Basin. The 
ACRCC has not identified a need for additional legislative authority at 
this time.
    Question. Are these actions integral to any of the longer term 
control options outlined in GLMRIS? If so, which ones and how?
    Answer. Several studies by Great Lakes Commission and the Army 
Corps have suggested the Brandon Road lock and dam may be an effective 
control point for upstream movement of Asian carp. To further inform 
control efforts, studies focused on this location and other potential 
bottlenecks (Starved Rock and Lockport locks and darns) can expedite 
future actions.
    Question. Given that any action to reduce the risk of aquatic 
invasive species transfer to or from the Great Lakes basin will have 
both regional and national benefits, has the Corps considered options 
for cost-sharing all or part of the options outlined in the GLMRIS 
report? If so, what are the cost-sharing options? Is there a precedent 
for a multi-partner cost-sharing agreement?
    Answer. No detailed options for cost-sharing were outlined in the 
report. However, if a decision were made to recommend an alternative 
from the GLMRIS Report, the Corps would consider its existing cost-
share policies and experience with multi-partner cost sharing 
agreements, which have been utilized previously.
                                 ______
                                 
             Questions Submitted by Senator Lamar Alexander
                        waters of united states
    Question. As I mentioned, there are great concerns among Tennessee 
farmers that your proposed rule to define waters of the United States 
will cover ditches, stock ponds, and other water facilities that have 
not been regulated before. While facilities on one farm might not meet 
the substantial nexus test that the rule proposes, the rule allows your 
agency and the EPA to simply aggregate all the water facilities from 
the surrounding area to bring them all under the regulation. Allowing 
regulation by aggregation could mean that any limits on the power to 
regulate under the Clean Water Act are meaningless because the Federal 
Government could just keep adding in more and more areas until they 
find a substantial nexus.
    Is this a way for the Federal Government to regulate water 
facilities that it did not in the past?
    Answer. The Army believes that the proposed rule is consistent with 
the statute, the applicable science and the U.S. Supreme Court case 
law, more specifically the Court's decisions in Riverside Bayview Homes 
in 1985, Solid Waste Agency of Northern Cook County (SWANCC) in 2001, 
and Rapanos/Carabell in 2006. Our goal in this rulemaking is to provide 
the clarity, consistency, and predictability members of Congress and 
the regulated public have requested while remaining faithful to the 
requirements of Federal law. The scope of regulatory jurisdiction under 
the CWA in this proposed rule is narrower than that under the 1986 
regulations, but may be greater than under the 2003 and 2008 agency 
policy guidance.
    One way CWA jurisdiction under the proposed rule is narrower than 
under the existing rule is the requirement for ``other waters'' to have 
a ``significant nexus'' with navigable waters to be determined 
jurisdictional. Informed by the Riverside Bayview Homes decision, in 
both SWANCC and Rapanos, a majority of Justices required the agencies 
to afford meaning to the word ``navigability'' by finding a significant 
nexus between non-navigable waters, including adjacent wetlands, and 
downstream navigable waters. As Justice Kennedy wrote in Rapanos, ``to 
constitute 'navigable waters' under the Act, a water or wetland must 
possess a 'significant nexus' to waters that are or were navigable in 
fact or that could reasonably be so made.'' Thus, the Army and EPA 
collectively determined it is reasonable and appropriate to apply the 
``significant nexus'' standard for CWA jurisdiction to other categories 
of water bodies as well, for example tributaries of traditional 
navigable waters and ``other waters,'' to determine CWA jurisdiction, 
whether by categorical rule or on a case-specific basis. The proposed 
rule includes revisions to the definition of ``waters of the United 
States'' in light of these Supreme Court decisions.
    A second examples of how jurisdiction under the proposed rule is 
narrower than under the existing rule is the categorical exclusion of 
certain waters and ditches from jurisdiction.
    The Army recognizes that the U.S. Supreme Court has defined certain 
limits on the scope of the CWA as expressed in the SWANCC and Rapanos 
decisions and the proposed rule is, in our view, consistent with those 
decisions, codifies the agencies' interpretation of the Supreme Court 
rulings, and will replace the 2003 and 2008 jurisdictional guidance.
    Question. What are the limits of aggregation?
    Answer. In order to effectively serve the purpose of the Clean 
Water Act, waterbodies must be understood as elements of larger systems 
that function together as has been demonstrated by our best science. 
The agencies have concluded in the proposed rule that to understand the 
health, behavior, and sustainability of downstream waters, the effects 
of small water bodies in a watershed need to be considered in the 
aggregate. The effect that a single waterbody has on a downstream 
navigable water may be small when considered in isolation, but the 
aggregated effects of all similarly situated waterbodies in the same 
watershed can be substantial.
    ``Other waters,'' which are waters that do not fall within one of 
the categories jurisdictional by rule under the agencies' proposal, 
will be evaluated either individually, or as a group of waters where 
they are determined to be similarly situated in the region. The 
agencies propose to interpret the ``region'' within which similarly 
situated waters would be aggregated as the watershed that drains to the 
nearest traditional navigable water, interstate water, or the 
territorial seas. Waters are similarly situated where they perform 
similar functions and are located sufficiently close together or when 
they are sufficiently close to a jurisdictional water. How these other 
waters are aggregated for a significant nexus analysis depends on the 
functions they perform and their spatial arrangement within the region. 
For other waters that perform similar functions, their landscape 
position within the region relative to each other or to a 
jurisdictional water is generally the determinative factor. This 
significant nexus analysis will focus on the degree to which the 
functions provided by those other waters affect the chemical, physical, 
or biological integrity of ``waters of the United States'' and whether 
such effects are significant.
    This combination of functionality and proximity to each other or to 
a ``water of the United States'' meets the standard provided by Justice 
Kennedy in the Rapanos case decision. The agencies recognize that 
examining both functionality and proximity of these factors will reduce 
the frequency of aggregation of other waters for significant nexus 
analysis.
    The proposed rule sets forth several different options for how 
other waters should be determined to be similarly situated and 
aggregated in order to solicit comment and input from the regulated 
public regarding what standard for aggregation would provide the most 
clarity, certainty, and predictability.
                                 ______
                                 
              Questions Submitted by Senator Thad Cochran
       funding for the mississippi river and tributaries project
    Question. Mississippians are deeply concerned that the fiscal year 
2015 Budget for the Army Civil Works program includes only $245 million 
for the Mississippi River and Tributaries (MR&T) project. That is far 
below last year's budget request and $62 million below what Congress 
provided in the fiscal year 2014 Omnibus Appropriations Act.
    If Congress provides additional funding for the Mississippi River 
and Tributaries (MR&T) program to increase preparedness and reduce 
risks associated with events such as the 2011 Mississippi River Flood, 
could you put those funds to good use?
    Answer. The Budget reflects our recommendation for this program, 
relative to other potential uses of those funds including deficit 
reduction. However, some additional funding could be used to help 
increase preparedness and reduce flood risks in the area. Also, 
preparedness funding generally is in the Flood Control and Coastal 
Emergencies account, and is not specific to the MR&T program.
    2. Should the Mississippi River fall to near-record lows as it did 
in the fall of 2012, would additional funding for maintenance dredging 
prevent negative impacts on waterborne commerce and rural economies?
    Answer. The specific work would depend on the nature of the 
problem. For example, the focus of our response to support navigation 
on the Mississippi River during the last drought was on rock work and 
other structural changes to the navigation channel, which would also be 
effective in a future drought.
                environmental infrastructure assistance
    Question. In recent years the president's budget has included very 
little--if any--funding for environmental infrastructure assistance. 
Many towns, cities, and municipalities across the country need 
assistance to upgrade their wastewater treatment and water supply 
facilities. Currently there are a large number of projects in 
Mississippi ready to move forward, but need funding and approval to 
execute a Project Partnership Agreement. Without environmental 
infrastructure assistance, many small towns and municipalities will 
remain noncompliant and in violation of Federal laws.
    Would you be willing to work with Congress to help address the 
environmental infrastructure needs of small towns and cities, 
especially those in more rural and underserved areas?
    Answer. The Congress has authorized the Corps to provide such 
funding for specified States and, in some cases, for specified areas 
within a State. However, the Executive Branch believes that this 
program should not be an Army Civil Works responsibility.
    Question. Are there specific ways in which the Subcommittee can be 
more helpful to the Corps on this issue?
    Answer. No.
                  mississippi river levee deficiencies
    Question. The Mississippi River levee system protects people, 
property, infrastructure, and the environment from catastrophic 
flooding. There are currently 122 miles of deficient levees in the 
Vicksburg District alone, which puts people in Mississippi, Arkansas 
and Louisiana at risk. Catastrophic damage is likely to occur if the 
system is below authorized levels of protection, and the fiscal year 
2015 funding level for levee improvements is roughly $17 million below 
the system's total capacity.
    What was the Corps' decisionmaking process in determining the 
requested level of funding for levee construction improvements?
    Answer. The Corps uses performance-based metrics to allocate funds 
among the projects in its construction program.
    Question. Would you agree that catastrophic damage could occur if 
the system is not maintained at the authorized level of protection?
    Answer. There is always a residual risk of serious flood damage in 
a large flood, anywhere in the country, even with well-maintained 
levees and substantial bank protection. The Corps has been constructing 
the levees and the other features of the MR&T main stem system since 
the 1930's. Construction and maintenance is ongoing. The Corps uses 
risk-based methods to prioritize the work to address potential 
vulnerabilities. The 2011 floods subjected this system to historic 
flood loads, and the system functioned successfully.
    Starting in fiscal year 2014, the Budget is funding a multi-year 
effort to collect and study basic data that will update the system's 
flow lines and flow capacity. The purpose of this study is to identify 
ways to improve upon the MR&T main stem system's operations plan to 
ensure continued performance of the system.
                lack of funding for upper yazoo projects
    Question. The Upper Yazoo Projects (UYP) within the Mississippi 
River and Tributaries (MR&T) system includes channel and levee features 
along the Yazoo, Tallahatchie, and Coldwater Rivers. The project 
provides important flood risk reduction measures in the Yazoo Basin. 
There are significant risks, such as loss of life as well as 
agricultural and timber production, associated with an absence of 
funding for the project. However, the president's budget has not 
included funding for the Upper Yazoo Projects in the last few years.
    Given the current confinements with regard to addressing specific 
projects, what can Congress do to help you address critically important 
projects such as this one, that don't seem to be as competitive as 
other projects under your criteria, for one reason or another?
    Answer. The Corps uses performance-based metrics to allocate funds 
among the projects in its construction program. The Corps views its 
flood and storm damage reduction mission from a national perspective, 
and focuses on the investments that will provide the best returns to 
the Nation.
    Question. Would you consider completion of the Upper Yazoo Project 
important, since Congress has already invested nearly $300 million in 
the project to date?
    Answer. We would evaluate the potential work on this project and on 
other projects, and allocate funds in the way that provides the best 
overall return from a national perspective.
            maintenance dredging for mississippi river ports
    Question. Agriculture is a top industry in Mississippi and farmers 
rely heavily on our Mississippi River ports to move their crops to 
market. The president's fiscal year 2015 budget significantly 
underfunds Greenville Harbor, Rosedale Harbor, Vicksburg Harbor, the 
Mouth of the Yazoo River, and the Claiborne County Port. The funding 
provided is only sufficient enough to conduct surveys, rather than 
maintenance dredging itself. Without additional funding, these harbors 
will lose project dimensions during harvest season which will 
negatively impact a wide range of businesses and individuals involved 
with the agricultural sector.
    Does the Corps take into consideration the harmful economic impact 
of light loading barges during peak harvest time when the Mississippi 
River is generally at its lowest?
    Answer. Yes.
             flood risk management in pearl river watershed
    Question. The Rankin-Hinds Pearl River Flood and Drainage Control 
District has been working for quite some time on developing a 
comprehensive flood risk management solution for the Jackson 
Mississippi metropolitan area. Following the 1979 Easter flood of 
record, it became clear that Jackson is vulnerable to significant flood 
risk issues. The area has experienced major flooding numerous times 
since then. In fact, the river is currently at flood stage.
    Currently the flood control district is working with the Vicksburg 
district of the U.S. Corps of Engineers to conduct feasibility and 
environmental impact studies with non-Federal funds in hopes of 
expediting this important project. A solution is critical to our State. 
Jackson is the State capitol and home to the highest density population 
in the State.
    Although the flood control project is in the early stages of 
development, it remains very important to the Jackson metropolitan 
area. As things move forward, would you be willing to work proactively 
with the Rankin-Hinds Drainage Control District to help them find a 
solution for Jackson's flood risk problems?
    Answer. The Corps is providing technical assistance pursuant to the 
July 19, 2012 Memorandum of Agreement with the Rankin-Hinds Pearl River 
Flood and Drainage Control District. In this capacity, the District's 
technical assistance may include participation in meetings to help 
develop the scope of the feasibility study, evaluate alternatives, as 
well as, participation in In-Progress Reviews, National Environmental 
Policy Act coordination and Agency Technical Review.
    Question. Specifically, will you respond to their data as they 
conduct the study and will the Corps provide vertical management of 
this report?
    Answer. In addition to the Corps providing technical assistance 
during the study, once the Rankin-Hinds Pearl River Flood and Drainage 
Control District submits the report to my office, both the Corps 
Headquarters and my office will review the report.
                                 ______
                                 
              Questions Submitted by Senator Susan Collins
                          small ports dredging
    Question. I would like to thank you for the funding for the 
maintenance dredge for the Royal River that was announced just a few 
weeks ago. I can assure you this announcement was warmly received by my 
constituents.
    As you know, there remains a great need in my State and others 
around the Nation when it comes to the dredging and maintenance at our 
small ports and harbors. We need to pay careful attention to ensure the 
water infrastructure needs of all States are met.
    Ports and harbors are the economic lifeblood for many small or 
rural communities, and funding for the maintenance dredging is 
critically important to supporting these efforts, a fact not fully 
accounted for under the Army Corps' budget metrics, which tend to favor 
larger ports.
    I would like to highlight the $40 million for Operations and 
Maintenance projects at ``small, remote, or subsistence navigation'' 
harbors and waterways that the fiscal year 2014 Omnibus Appropriations 
bill set aside this year--an increase of $10 million over the previous 
year. I understand there is a $300 million backlog of operations & 
maintenance projects in New England alone. These additional monies are 
welcome indeed, but, certainly not enough to meet all the needs in my 
State and throughout the country.
    There are two small projects in DownEast Maine--Beals Island and 
Pig Island Gut--that were last dredged in 1957 and 1965, respectively. 
Used primarily by lobster boats, Pig Island Gut and Beals Harbor is 
also used by boats engaged in the harvesting of herring, clams, 
periwinkles, mussels, and seamoss.
    There are about 115 commercial fishing boats that are regularly 
moored around Beals Island and about 100 regularly moored at the Pig 
Island Gut anchorage. Coast Guard Station Jonesport frequently launches 
out of Beals Harbor as well. At present, the boats moored there cannot 
safely return to port during low tide. The entire economy of the area 
is based on these fisheries, and yet the harbors have not been dredged 
in over 50 years.
    The dredging of these two harbors is critically important to the 
economies of both communities.
    Recognizing that funding is limited, what recommendations do you 
have for the Harbor Master to help ensure these projects are as 
competitive as possible should funding become available?
    Answer. Changes in channel conditions should be reported promptly 
to the New England District Office as should the economic benefits and 
impacts of the projects. Any waterborne commerce should be reported to 
the Corps Waterborne Commerce Statistics Center.
                          camp ellis shoreline
    Question. The Army Corps built a jetty at Camp Ellis in Biddeford, 
Maine, which has caused massive erosion of the shoreline and destroyed 
more than 36 homes during a series of major storms.
    The beachfront continues to erode as the city of Biddeford and the 
Army Corps have worked to find a solution to this problem over the past 
20 years. The Corps and city are preparing to execute a project 
partnership agreement that will detail how the repairs will be 
maintained following the restoration project.
    Recently, this project has been delayed because of concerns about 
the impact on Piping Plover habitat.
    In a recent meeting between the U.S. Fish and Wildlife Service and 
the Army Corps, it was agreed that there will be no adverse effects to 
the habitat from this project. It appears that the project will now 
move forward.
    How do you see the timetable for this project proceeding, given 
that this project has taken over 20 years to get to this stage?
    Answer. A formal letter concluding endangered species consultation 
for the Camp Ellis study is anticipated by May 31, 2014, and agreed 
measures will be incorporated into the final feasibility report and 
environmental assessment.
    However, the Camp Ellis study did not recommend any action on the 
beach that is located south of Saco on the other side of the Saco 
River, as there is no evidence that the Federal navigation project has 
impacted the shore south of the project.
                          navigation dredging
    Question. The State of Maine has 55 Federal navigation projects 
that require periodic maintenance dredging to allow for safe 
navigation. Many of these projects have shoaled and are in need of 
maintenance dredging. Most of these projects, however, are categorized 
as ``low use'' and do not compete well for limited Federal funds. 
Despite their low ranking, these projects are critical to the economy 
of the local communities and the State of Maine.
    Does the Army Corps consider the use of non-Federal contributed 
funds to supplement the limited Federal budget for small use navigation 
projects as a potential model for the future?
    Answer. Yes. Over the past few years, a number of non-Federal 
sponsors have provided contributed funds to enable the Corps to 
undertake unfunded work.
                                 ______
                                 
             Questions Submitted by Senator Lisa Murkowski
         civil works construction projects--how alaska competes
    Question. Assistant secretary, thank you for the work you do in 
Alaska. In particular, I thank you for the recent funding of the Valdez 
harbor. This harbor is critical to the economic vitality of the 
community, State and Nation given the oil that is tanked from this 
Alaska pipeline terminus to refineries in Lower 48 and on to 
distribution. Truly, this selection was a surprise, but a welcome 
surprise.
    Given our inability to include earmarks in our appropriations 
process today, we look for methods to build our harbor infrastructure 
within our smaller communities by including new Remote, Small and 
Subsistence funding for those harbors nationwide that do not compete 
well with ports in New York or California. I know you feel these 
constraints as well.
    Given the constraints and cost benefit analysis used to rank port 
projects nationally, how do you plan to address the needs of small 
harbors across the Nation?
    Answer. Small, remote, and subsistence harbors will continue to 
compete for the available funding, along with all of the programs, 
projects, and activities across the Nation.
    Question. What assistance do you need from this committee to 
provide for small harbors?
    Answer. The fiscal year 2015 Budget provides $50 million for 
operation and maintenance work at small harbors.
                          kenai bluff erosion
    Question. We have a town in Alaska, Kenai, whose bluff is falling 
into the river. Really, the senior housing facility is at the edge of 
the bluff. The community has the project match but an agreement is 
necessary between the city and the agency for a study to move forward. 
The process for completing an agreement has faltered for nearly 3 
years. This is a community and project that is ready to go.
    What can we do to get an agreement signed?
    Answer. The Corps completed a 905(b) reconnaissance report in March 
2014 and has prepared a technical document that will inform the 
feasibility effort. The Corps will now develop a scope, schedule, and 
estimated cost of the study. If the Corps receives funding to initiate 
the feasibility study, the Corps will work with the local sponsor to 
execute a feasibility cost-sharing agreement.
                                 ______
                                 
             Questions Submitted by Senator Lindsey Graham
    Question. The Georgetown Harbor has been shoaling for close to a 
decade and has not been included in the President's Budget because it 
falls under the 1 million ton threshold.
    How will you interpret new guidance regarding Operations and 
Maintenance dollars being allocated to emerging harbors as these 
harbors play important economic development roles within their regions?
    Answer. If WRRDA 2014 is enacted, the Army will analyze and prepare 
implementation guidance for its provisions.
    Question. What is the criteria being used in determining how to 
allocate maintenance funds for small, remote or subsistence harbors? As 
you know, Congress funded this at $40 million in fiscal year 2014.
    Answer. In allocating funding for commercial navigation, the Corps 
focuses on those activities that provide the greatest economic, 
environmental, and public safety returns to the Nation. The Corps 
categorizes these projects according to their level of commercial use, 
as high, moderate, or low commercial use projects. The Budget focuses 
this funding on projects that support a high or moderate level of 
commercial navigation traffic (coastal projects carrying at least one 
million tons of cargo; and inland waterways with at least one billion 
segment-ton-miles of traffic), which together account for roughly 99 
percent of the Nation's waterborne commercial cargo.
    The Budget also funds navigation projects with a low level of 
commercial use (coastal projects carrying less than one million tons of 
cargo; and inland waterways with less than one billion segment-ton-
miles of traffic). For coastal channels and inland waterways with a low 
level of commercial use, the Corps considers a range of factors such as 
the need to operate and maintain locks; use of a coastal port as a 
critical harbor of refuge or a subsistence harbor; whether the coastal 
port or inland waterway supports public transportation, U.S. Coast 
Guard search and rescue operations, the national defense, or other 
Federal agency use; the reliance on waterborne transportation for 
energy generation or home heating oil deliveries; and the level of 
commercial use (albeit less than a medium level of commercial use).
                                 ______
                                 
               Questions Submitted by Senator John Hoeven
    Question. You are likely to have several new studies and 
construction projects authorized under the WRDA bill currently in front 
of a conference committee. How will the Corps respond to those new 
authorizations? Would you alter your fiscal year 2014 work plan to 
support such projects or could the fiscal year 2015 work plan include 
funding for such projects?
    Answer. As part of the Consolidated Appropriations Act of 2014 
(Public Law 113-76), the Corps was authorized to begin nine new study 
efforts in the Investigations account and four new projects in the 
Construction account. The fiscal year 2014 work plan, which the Army 
submitted to the Congress on March 3, 2014, identifies the nine studies 
and four construction projects that the Corps would start to fund in 
fiscal year 2014. The fiscal year 2014 appropriations act does not 
allow the Army to modify these designations, once it has submitted the 
work plan to the Congress. When the Congress enacts an fiscal year 2015 
appropriations bill, the Corps will consider all eligible projects for 
inclusion in a potential fiscal year 2015 work plan.
    Question. Will you consider newly authorized projects as possible 
candidates for any new starts that the administration or Congress 
authorizes for fiscal year 2015?
    Answer. If Congress enacts an fiscal year 2015 appropriations bill 
that allows new starts, the Corps will consider all eligible, 
authorized studies and projects for inclusion in a potential fiscal 
year 2015 work plan.
                                 ______
                                 
               Questions Submitted to Hon. Lowell Pimley
            Questions Submitted by Senator Dianne Feinstein
                    california drought/water pumping
    Question. I understand that Reclamation and the California 
Department of Water Resources (DWR) have sought permission to change 
water operations to capture this week's storm flows. Instead of 1,500 
cubic feet per second of pumping originally called for by the 
biological opinions, the agencies are seeking a higher level of pumping 
while the storm flows last. I appreciate the fact that you are taking 
action to capture more water from this week's storms. That being said, 
I know many of my constituents are still seeking to understand the 
rationales behind the pumping levels you have established. The new 
pumping regime began yesterday, but many questions and uncertainties 
have been raised due to the lack of documentation. Will you commit to 
providing explanations today?
    Answer. As of April 1, the National Marine Fisheries Service (NMFS) 
Biological Opinion (BiOp) (Reasonable and Prudent Actions (RPA), Action 
IV.2.1) requires implementation of the San Joaquin River (SJR) Import-
to-Export ratio (commonly referred to as the I:E ratio, but not to be 
confused with the E/I ratio required in State Water Resources Control 
Board Decision 1641. During this drought year, the I:E ratio would be 
either 1:1 (SJR inflow equals combined exports) or 1,500 cubic feet per 
second (cfs) public health and safety pumping whichever is greater.
    To capture abandoned and natural flow in the Delta as a result of 
recent storm events, Reclamation has sought and NMFS has concurred 
that, because of on-going discussions with senior technical staff and 
the development of the draft Drought Operations Plan and associated 
biological review, an increase in exports at this time is consistent 
with the underlying analyses of the NMFS BiOp and its RPA. As a result, 
NMFS stated the proposed operation is not likely to jeopardize the 
continued existence of California Central Valley steelhead or result in 
the adverse modification of their designated critical habitats, or 
exceed its incidental take limit. As such, the proposed operation 
conforms to the requirements of the Endangered Species Act and its 
implementing regulations.
    Question. It is my understanding that Reclamation, DWR, and the 
Federal and State agencies have decided--for this immediate storm flow 
period--to begin pumping yesterday at 4,200 cfs. What are the basis for 
the pumping levels you have established for this storm flow period?
    Answer. Senior technical staff from the five agencies (National 
Marine Fisheries Service (NMFS), Fish and Wildlife Service (FWS), 
California Department of Fish and Wildlife (DFW), Department of Water 
Resources (DWR), and Reclamation) have been working together to develop 
the biological review of the overall 2014 Drought Operations Plan. 
Through these discussions, senior technical staff determined increasing 
exports to capture flow resulting from this storm event was consistent 
with the underlying analyses of the NMFS BiOp and its RPA. The 
scientific basis was provided in the supporting documentation with the 
2014 Drought Operations Plan released on April 9, 2014.
    Question. Reclamation's latest report stated that through March 27, 
the cumulative loss of winter-run chinook salmon at the export 
facilities is about 304, out of an allowed incidental take limit of 
24,237. The estimated salvage for delta smelt is zero. Does the data 
support the notion that even higher levels of water pumping can occur 
without jeopardizing fish species?
    Answer. The 24,237 authorized take limit represents 2 percent 
(23,928) of the juvenile-production estimate or JPE of natural winter-
run Chinook salmon (WRCS) and 1 percent (309) of the Livingston Stone 
National Fish Hatchery winter-run Chinook hatchery production. It is a 
very large number when the population has lots of spawners (like last 
year) and is a very small number when the population has few spawners 
(like this coming year).
    Current cumulative salvage numbers at the export facilities is not 
necessarily a good reflection of the risk to the species. Each salmonid 
species has a different proportion of the population in the Delta 
currently. The majority of WRCS are currently in the Delta migrating to 
the Bay. If exports are increased and more negative reverse flows 
realized, WRCS migrating through the Delta could be more susceptible to 
entrainment at the export facilities. The majority of spring-run 
Chinook salmon will enter the Delta in April and May as they migrate to 
the Bay. Similar to WRCS, if more negative reverse flows are realized 
these fish could be subject to higher levels of entrainment.
    The determination of jeopardy is not based on exceeding the 
Incidental Take Limit (ITL), but reflects the complex multi-stressor 
impacts of the Central Valley Project (CVP)/State Water Project 
operations that influence abundance, productivity, and genetic 
diversity, all which will be influenced dramatically by drought 
conditions during water year 2014.
    Question. If salvage data is not the influential factor, then what 
other factors influence that decision?
    Answer. Salvage data along with trawl, beach seine, and fish trap 
data at locations in the Delta and in the Sacramento River watershed 
inform decisions regarding operations at the export facilities. In 
addition to these biological monitoring data, physical data such as 
turbidity, water quality (i.e. salinity), and river inflows are 
considered in light of their relationship to risks to species and also 
human consumption. During Water Year (WY) 2014, water quality and Delta 
outflow, which are both regulatory standards as part of California's 
State Water Resources Control Board Bay-Delta Plan, remain influential 
factors informing decisions about exports levels.
    Question. What do the fish data say if water pumping were to 
achieve -7,000 cfs OMR flows or above?
    Answer. As of today, senior technical staff has not completed a 
biological review of an Old and Middle River (OMR) of -7000 cfs. One 
could predict reverse flows of that magnitude could pull special status 
species into the sphere of influence of the export facility, possibly 
increasing entrainment later in the year.
    Question. What level of pumping will be allowed after the storm 
flows subside?
    Answer. Exports after the storm subsides will be in compliance with 
the State Water Resources Control Board (State Board) Temporary Urgency 
Change Order (Order) as well as any other BiOp requirements that are 
triggered. In mid-April, the State Board Decision 1641 San Joaquin I:E 
ratio requirement of 1:1 or 1,500 cfs public health and safety pumping 
will be in effect and would control operations.
    Question. If Reclamation wishes to pump at levels beyond the 
biological opinions, what procedure or process can be used to achieve 
that?
    Answer. Reclamation has been engaging with both FWS and NMFS to 
exercise flexibility to operate while maintaining compliance with the 
BiOps. Reclamation reinitiated consultation with the FWS under drought 
conditions and has been working with NMFS within the drought 
contingency planning portion of RPA Action I.2.3.c. The agencies will 
continue to work together to operate in a manner that protects species 
while meeting the needs of our customers.
    Question. What are your constraints in doing so?
    Answer. Determinations must be made as to the location and quantity 
of special status species within the system, including the Delta and 
Sacramento and San Joaquin Rivers. Processing monitoring and trawl data 
as well interpolating this data is required before fishery agencies can 
make any determination regarding flexibility in the BiOps.
    Question. What other emergency measures can be implemented within 
your discretion to maximize water supplies without jeopardizing 
endangered species?
    Answer. Reclamation coordinates daily with DWR and the fishery 
agencies to evaluate options to increase exports while providing 
protections for the species.
    Question. And are you prepared to implement those measures 
immediately?
    Answer. Yes, Reclamation would, in coordination with DWR and the 
fishery agencies, implement measures deemed appropriate as quickly as 
possible.
    Question. How will the need for carryover storage affect the water 
projects' ability to export more water as opposed to storing it?
    Answer. Reclamation believes current projected operations strikes 
the right balance between release of water this year for multiple 
beneficial uses and storage carried over into next year should drought 
conditions persist. Considerable effort has been devoted to assess the 
potential needs for water to serve human health and safety needs next 
year in the event 2015 is another critically dry year.
    Question. How much carryover storage is needed going into the 2015 
water year?
    Answer. Based on the most current assessments, the projected 
carryover storage contained in the 2014 Drought Operations Plan will be 
adequate to supply critical human health and safety needs next year. 
Reclamation is also making every effort to conserve storage to make 
maximum use of limited cold-water reserves this year to protect several 
listed fish species, and to begin building cold water pools for 2015.
                             water storage
    Question. There has been considerable discussion, including by me, 
about additional storage needed in California. Just so we all 
understand, how far in the future are we talking about new storage 
coming on line assuming we make the decision to move forward on that 
front this year?
    Answer. If the storage projects currently under study were found to 
be technically feasible, environmentally acceptable, and cost-
effective, and decisions to move forward were made, each project would 
have different construction requirements and associated schedules. 
National Environmental Policy Act (NEPA) documents would need to be 
finished over the next 1 to 2 years and acquisition of the necessary 
land and easements would begin after that. Final designs must be 
prepared prior to initiating construction. The timeline to construct 
and bring projects on-line once the final designs are completed would 
likely be in the 5 to 10 year timeframe depending on funding 
availability for all post-authorization activities, including design, 
construction, and mitigation.
    Question. What will it take to get all storage studies completed by 
the end of 2015?
    Answer. Reclamation has completed public review and comment on 
draft Feasibility Reports for expanding Shasta Lake and increasing 
storage in the Upper San Joaquin River Basin. The draft Environmental 
Impact Statement (EIS) for Shasta was released for public review and 
comment last summer, and the draft for Upper San Joaquin is due out 
this summer. Both studies to support Federal decisionmaking are on-
track to be completed by the end of 2015, with Shasta to be completed 
by the end of 2014. The North-of-the-Delta Offstream Storage 
Investigation (NODOS, also referred to as the ``Sites Reservoir'') and 
continued study of Los Vaqueros Expansion (LVE275) are delayed due to a 
lack of non-Federal cost share. Reclamation is continuing to work with 
State and local agencies on strategies to complete these study efforts 
in a timely manner.
    Question. Do you see any obstacle that would delay the completion 
timeframe beyond 2015?
    Answer. If Reclamation is required to analyze new or modified 
alternatives, the schedules could extend beyond 2015. There are no 
other known issues at this time that could delay Shasta or Upper San 
Joaquin storage studies. The lack of non-Federal cost share will likely 
delay completion of NODOS and LVE275 beyond 2015.
    Question. What are those obstacles, and what can be done to 
mitigate or remove them?
    Answer. Non-Federal cost sharing partnerships could mitigate the 
obstacles, particularly when cost shares are provided via timely in-
kind services. Many potential cost share partners are contributing 
significant funding to other projects and have been impacted by the 
State economy, and are fully engaged in drought activities. Reclamation 
will continue to seek non-Federal cost share opportunities.
    Question. Can you commit to completing all the studies by the end 
of 2015 so the projects could potentially be eligible for State funding 
if worthy?
    Answer. As described above, Reclamation can commit to completing 
the studies for Shasta and Upper San Joaquin by the end of 2015. Also 
noted in previous responses is the lack of non-Federal cost share for 
NODOS and LVE275.
    Study partners have agreed to add alternatives for expanding San 
Luis Reservoir to the San Luis Low Point Improvement Project (Low 
Point). The Low Point project is part of the CALFED Conveyance Program, 
and reservoir expansion alternatives were eliminated from study before 
the potential safety issue was identified and before the current 
operating restrictions for the Central Valley and State Water Projects. 
While Reclamation and the State continue the study to correct the 
safety issue, by law, separate funding is needed to develop the 
information and designs needed to eliminate the safety issue with a 
larger volume of water stored behind the dam. Reclamation identified 
funding to evaluate a reservoir expansion alternative to the Low Point 
studies this year. At this time, Reclamation cannot commit to 
completing the NODOS, LVE275, or Low Point studies by the end of 2015.
    Question. According to the Bureau of Reclamation's December 2013 
appraisal study, the initial and partial construction cost estimate for 
expanding San Luis Reservoir is $360 million; about two-thirds are for 
seismic repairs that must be done regardless of whether storage is 
expanded. Therefore for an incremental cost of approximately $120 
million, the project could yield additional average annual Delta 
exports of 43,000 acre feet. When will you initiate the feasibility 
studies for expanding San Luis Reservoir?
    Answer. This is a correct interpretation of the initial estimates 
for the appraisal study. However, these estimates will likely change 
significantly as more information is learned through additional data 
collection, design, and cost estimating efforts. Initiation of a 
feasibility study is uncertain as neither Federal appropriations nor a 
non-Federal cost-share agreement are in place.
    Question. Can you please share with me your overall schedule for 
completing the San Luis feasibility study?
    Answer. A detailed schedule is being completed and a non-Federal 
cost-share agreement is being negotiated. Generally, the Draft 
Feasibility Report and environmental documents are scheduled for late 
Spring 2017, with the final documents completed by December 2017.
    Question. The Safety of Dams Act limits expenditures to repairing 
dams and not creating additional water storage capability. However, 
there seems to be some significant cost-efficiencies that can be 
achieved if these goals can be integrated. Do you agree that there 
should be legislative changes to the Safety of Dams Act to facilitate 
such dual-purpose projects?
    Answer. No such legislative change was included in the President's 
fiscal year 2015 Budget. As we continue to develop the Administration's 
fiscal year 2016 Budget, we will consider a broad range of issues, 
including legislative changes relevant to Reclamation programs. A 
legislative change to the Safety of Dams Act could be written to 
facilitate the study, planning and even construction of projects which 
integrate additional water storage or other project benefits with an 
identified dam safety corrective action. There could be potential 
efficiency and cost savings if a project associated with increased 
water storage is integrated with a Safety of Dams project. Bureau of 
Reclamation water projects are constructed and operated for a variety 
of congressionally authorized purposes. However, Reclamation projects 
generally require congressional approval to increase project benefits 
and expanding project benefits through a dam safety corrective action 
is explicitly prohibited by the existing language of the Safety of Dams 
Act. This prohibition seems to clearly indicate Congress intended funds 
budgeted for Dam Safety purposes should be used only for Dam Safety and 
not to provide water supply, hydropower, recreation, or any other type 
of benefit to project beneficiaries. Reclamation agrees with this 
expressed intent. Integration of Safety of Dams modifications with 
increased water storage or other project benefits would require 
separable appropriations and accounting, and development of new 
processes to implement any revision to current law. Moreover, 
Reclamation believes any costs associated with developing an additional 
project benefit should be fully borne by the beneficiaries of such 
additional project benefits at the time of construction and appropriate 
financial commitments should be documented through a cost-share 
agreement with the Secretary.
        central valley project improvement act restoration fund
    Question. The Central Valley Project Improvement Act (CVPIA) 
established a restoration fund which required water users, power users, 
the State and Federal Government to contribute towards the habitat and 
species restoration. Since 1992 the fund has spent $1.4 billion on 
restoration activities. Though the Act intended for water and power 
users to make proportionate contributions, frequently that has not been 
the case, with power users often contributing much more. For example, 
this year power users expect to contribute roughly 56 percent of all 
CVPIA Restoration Fund receipts, double their share. Does the Bureau of 
Reclamation have discretion to resolve this administratively by 
assessing water and power contributions to the fund proportionately?
    Answer. Reclamation is actively exploring options to address the 
issue administratively but a preliminary assessment seems to indicate 
that Reclamation does not have the authority to assess water and power 
contributions to the fund proportionate to CVP repayment 
responsibilities without violating provisions of the CVPIA that were 
enacted to ensure an appropriate amount of restoration funding, even in 
dry years. Furthermore, if such a change were enacted, our analysis 
shows this would ultimately reduce amounts available to the Restoration 
Fund and impact our ability to carry out the mandates under the CVPIA. 
Because collections into the Restoration Fund depend upon hydrology and 
because per acre-foot of water collections from irrigation and urban 
customers are fixed (although indexed) under law, shortfalls in 
collections in drier water years shift to power customers since they 
are not fixed. If collections had been limited to contractor 
proportionate responsibility for repayment of the CVP, it would have 
resulted in an estimated $77 million less collected over the last 10 
fiscal years. It should be noted in the early years of implementation 
of CVPIA, water users paid a higher proportion of the total 
collections.
    Question. If not, would the administration support a legislative 
correction to require a proportionate assessment, fixed annual 
contribution, or some other solution that more fairly assesses 
contributions from power and water users?
    Answer. The President's fiscal year 2015 Budget does not propose 
any changes in language from the Consolidated Appropriations Act, 2014. 
Reclamation is committed to continue working with all parties on 
implementation of the CVPIA in a way that ensures continued progress on 
important program elements. This requires a sufficient funding stream 
that is derived from the annual collections, but with recognition of 
the desire for equity. We will continue to review options in the future 
during budget formulation. We are also carefully monitoring the 
situation regarding collections during the extreme drought event this 
year, which adversely affects both water collections and the generation 
of power.
    Depending on the approach, legislation to require a proportional 
assessment could smooth the volatility of funding obligations or shift 
obligations between power and water. However, the Department would not 
support legislation that would reduce the funding available to meet 
requirements under the CVPIA.
    Question. What have been the State and Federal contributions to the 
Restoration fund in recent years?
    Answer. From 1993 to 2013, contributions from Federal water and 
power contractors totaled $915 million, including the Friant surcharge 
which has been directed to the San Joaquin River Restoration Program as 
of 2009, resulting in $887 million available for the CVP Restoration 
Fund. This amount can be categorized as follows: Irrigation: 
$518,288,595, M&I: $126,281,920, and Power: $270,789,562. Additional 
expenditures from Water and Related Resources ($426 million), the 
CALFed Bay-Delta Fund ($37 million), the American Reinvestment and 
Recovery Act ($151 million), and a State Trust Fund ($85 million) also 
contribute to meeting CVPIA requirements up through 2013 according to 
the draft 2013 Expenditures, Credits and Offsets (ECO) Report. The 
State does not contribute to the Restoration Fund, but some of the 
provisions in the CVPIA require a cost share varying from 25 percent to 
50 percent. State contributions generally occur through in-lieu 
services under a Sharing of Costs Agreement for Mitigation Projects and 
Improvements (SCAMPI) which expires December 31, 2014. The SCAMPI 
requires reconciling costs upon expiration. During preliminary efforts 
the State identified $230 million in cost-share from 1993-2012. The 
U.S. and the State have not yet agreed on the documentation required to 
substantiate State expenditures. The U.S. and the State are currently 
negotiating a new agreement for activities after the expiration of 
SCAMPI.
    Question. Have both met their obligations?
    Answer. As discussed above in response to question 18a, Reclamation 
and the State are still working on reconciling costs, but the State has 
identified nearly $230 million in direct contributions and in-kind 
services.
    Question. Based on the $1.4 billion spent by the Restoration Fund 
to date, can you please summarize the program's accomplishments to 
date, future funding needs and schedule to meet the CVPIA's objectives?
    Answer. From 1993 through 2013, funding sources expended for 
activities authorized under the CVPIA include Reclamation's Water and 
Related Resources account ($426 million), the American Recovery and 
Reinvestment Act ($151 million), and the Restoration Fund ($887 
million). Accomplishments working with our partners include 
facilitating and providing technical advice to local watershed groups 
for planning and implementing the restoration of anadromous fish 
spawning, rearing, and migration habitat; development of in-stream flow 
requirements and operations to support anadromous fish and water 
quality on CVP streams; facility modifications to manage water 
temperatures, provide passage, and prevent entrainment; delivery of 
water supplies to Federal, State, and private wildlife management areas 
and refuges; development of water operations models; actions to support 
meeting the biological opinions for operations of the CVP; and support 
for the San Joaquin River Restoration Program, the Trinity River 
Restoration Program, and the Habitat Restoration Program. For all 
Central Valley streams for all races of Chinook salmon, the average 
1992-2011 populations were 398,273 fish compared to a 1967-1991 
baseline of 497,054 fish, but on streams with substantial investments 
in restoration by the CVPIA and our partners (Butte Creek, Clear Creek, 
and Battle Creek) fish populations exceeded and continue to exceed the 
local doubling goals despite the recent population crash due to ocean 
conditions. The CVPIA program assisted in constructing 44 fish screens 
on the Sacramento and San Joaquin Rivers and tributaries, many of which 
resulted in improved diversion facilities. By the end of calendar year 
2016, the CVPIA will have screened all large intakes (greater than 150 
cfs) on the Sacramento River. Actions in support of fisheries also 
substantially contribute to State efforts to manage for water quality 
objectives. The scope and scale of the uncertainties in actions to 
achieve the anadromous fish doubling goal and full refuge water supply 
deliveries preclude a specific funding requirement and schedule; 
however, Reclamation and the U.S. Fish and Wildlife Service are working 
with stakeholders to prioritize the limited available funding on the 
actions that best contribute to meeting the fish doubling and refuge 
water supply goals.
    [The attachment follows:]


          10-YEAR ROLLING AVERAGE OF CVP RESTORATION FUND (ALL YEARS) RECEIPTS FOR IRRIGATION, M&I, AND COMMERCIAL POWER CENTRAL VALLEY PROJECT
--------------------------------------------------------------------------------------------------------------------------------------------------------
                      Irrigation                       M&I Water                   Commercial Power         Non-Fed Contributions          Total
          ----------------------------------------------------------------------------------------------------------------------------------------------
  Fiscal                           10-Year                         10-Year                         10-Year
   Year       Receipts    Percent  Rolling    Receipts    Percent  Rolling    Receipts    Percent  Rolling    Receipts    Percent    Receipts    Percent
                                   Average                         Average                         Average
--------------------------------------------------------------------------------------------------------------------------------------------------------
    1993       8,488,521   96.779  .......       282,532    3.221  .......             0    0.000  .......             0    0.000     8,771,053  100.000
    1994      12,445,670   59,320  .......     3,062,475   14.597  .......     5,472,398   26.083  .......             0    0.000    20,980,543  100.000
    1995      19,653,199   58.558  .......     3,326,054    9.910  .......    10,582,808   31.532  .......             0    0.000    33,562.061  100.000
    1996      33,963,427   72.533  .......     4,532,763    9.680  .......     8,328,838   17.787  .......             0    0.000    46,825,028  100.000
    1997      28,285,292   77.131  .......     6,441,240   17.564  .......     1,945,430    5.305  .......             0    0.000    36,671,962  100.000
    1998      16,735,441   67.943  .......     3,050,510   12.385  .......     4,845,695   19.673  .......             0    0.000    24,631,645  100.000
    1999      31,450,074   64.578  .......     6,339,033   13.016  .......    10,911,746   22.406  .......             0    0.000    48,700,853  100.000
    2000      28,518,202   60,684  .......     6,487,597   13.805  .......    11,989,179   25.512  .......             0    0.000    46,994,978  100.000
    2001      22,658,904   62.749  .......     5,560,639   15.399  .......     6,891,001   19.083  .......     1,000,000    2.769    36,110,545  100.000
    2002      24,668,330   47.668   63.906     6,525,177   12.609   12.847    20,556,612   39.723   22.965             0    0.000    51,750,118  100.000
    2003      27,019,792   56.451   62.269     5,034,994   10.519   12.779    15,809,615   33.030   24.698             0    0.000    47,864,401  100.000
    2004      27,196,590   71.043   63.236     6,903,465   18.033   13.175     4,181,758   10.924   23.346             0    0.000    38,281,814  100.000
    2005      32,737,905   56.861   62.754     5,873,948   10.202   13.034    18,963,247   32.937   23.983             0    0.000    57,575,099  100.000
    2006      33,853,402   61.696   61.590     7,529,892   13.723   13.473    13,488,271   24.582   24.711             0    0.000    54,871,565  100.000
    2007      28,062,780   70.013   61.070     6,652,464   16.597   13.417     5,366,834   13.390   25.288             0    0.000    40,082,078  100.000
    2008      17,478,762   33.025   57.590     8,436,749   15.940   13.752    27,011,088   51.035   28.447             0    0.000    52,926,599  100.000
    2009      18,692,314   31,460   53.694     6,188,421   10.415   13.418    34,536,089   58.125   32.682             0    0.000    59,416,823  100.000
    2010      31,260,772   65.169   54.150     6,026,431   12.563   13.296    10,681,594   22.268   32.348             0    0.000    47,968,797  100.000
    2011      30,438,715   51.419   53.224     7,797,695   13.172   13.133    20,960,452   35.408   33.643             0    0.000    59,196,862  100.000
    2012      26,821,459   45.077   52.843    11,816,747   19.860   13.958    20,862.633   35.063   33.198             0    0.000    59,500,839  100.000
    2013      17,859,043   40.889   51.490     8,413,096   19.262   14.730    17,404,274   39.848   33.779             0    0.000    43,676.413  100.000
          ----------------------------------------------------------------------------------------------------------------------------------------------
   Total   518,288,594.6   56.559  .......  126,281,920.   13.781  .......  270,789,561.   29.551  .......  1,000,000.00    0.109  916,360,076.  100.000
                       3                              44                              78                                                     85
--------------------------------------------------------------------------------------------------------------------------------------------------------



 
----------------------------------------------------------------------------------------------------------------
                      Irrigation               M&I Water             Commercial Power       Capital Costs Data
              --------------------------------------------------------------------------------------------------
 Fiscal Year                   10-Year                  10-Year                  10-Year
Capital Costs     Receipts     Rolling     Receipts     Rolling     Receipts     Rolling     Receipts    Percent
                               Average                  Average                  Average
----------------------------------------------------------------------------------------------------------------
   1993-2002   14,486,575,55    60.031  4,610,396,615    19.105  5,034,866,339    20.864  24,131,838,50  100.000
                           4                                                                          8
   1994-2003   14,632,880,48    60.126  4,552,428,315    18.706  5,151.536,987    21.168  24,336,845,79  100.000
                           8                                                                          0
   1995-2004   14,746,727,75    60.275  4,473,508,093    18.285  5,245,527,205    21.440  24,465,763,04  100.000
                           1                                                                          9
   1996-2005   14,849,152,16    60.419  4,389,655,764    17.861  5,338,023,815    21.720  24,576,831,74  100.000
                           6                                                                          5
   1997-2006   14,951,521,68    60.624  4,304,226,069    17.452  5,407,051,351    21.924  24,662.799,10  100.000
                           2                                                                          2
   1998-2007   15,030,984,26    60.843  4,216,611,404    17.068  5,457,134,543    22.089  24,704,730,21  100.000
                           3                                                                          0
   1999-2008   15,092,295,01    60.797  4,174,222,599    16.815  5,557,613,187    22.388  24,824,130,80  100.000
                           4                                                                          0
   2000-2009   15,134,750,35    60.715  4,138,874,526    16.604  5,653,754,512    22.681  24,927,379,39  100.000
                           9                                                                          7
   2001-2010   15,141,844,01    60.596  4,084,990,814    16.348  5,761,288.940    23.056  24,988,123,77  100.000
                           8                                                                          2
   2002-2011   15,158,866,33    60.277  4,039,444,885    16.062  5,950,484.470    23.661  25,148,795,68  100.000
                           0                                                                          5
   2003-2012   15,205,203,24    60.084  3.973,320,671    15.701  6,128,035,195    24.215  25,306,559,11  100.000
                           6                                                                          2
----------------------------------------------------------------------------------------------------------------


                                drainage
    Question. Could you explain the drainage issue with Westlands 
addressed in your budget?
    Answer. On November 13, 2013, the Court granted Westlands' 
unopposed Motion for an orderly suspension for implementation of 
Revised Control Schedule (November 4, 2011) (R-Schedule) activities 
specific to providing drainage service to the central sub-unit of 
Westlands for a period of 6 months, to allow Westlands and the Federal 
Defendants to continue discussions toward a potential settlement of 
drainage within Westlands. On April 30, 2014, the Court granted 
Westlands' unopposed Motion seeking a 6 month extension to the partial 
suspension of the R-Schedule In an effort to continue settlement 
discussions, Reclamation consented to the granting of Westlands' Motion 
with the caveat that the Motion be granted on the same terms as those 
adopted in the November 13, 2014 Order. Reclamation intends to brief 
members of Congress, other interested parties, and stakeholders on a 
proposed settlement based on the terms and conditions of the Draft 
Principles of Agreement, and is in the process of scheduling the first 
briefings of members of Congress. Negotiations are proceeding with the 
drafting of a proposed settlement agreement.
    Concurrent with the discussions with Westlands referenced above, 
Reclamation continues parallel discussions with northerly San Luis Unit 
(SLU) districts--San Luis Water District, Panoche Water District, 
Pacheco Water District (collectively, the ``Northerly Districts'')--as 
well as with the Panoche Drainage District, on a potential settlement 
of drainage in those districts' service areas.
    Question. It is my understanding that funds normally used for 
drainage have been used for higher priority items while negotiations on 
the drainage issues continue. Can you give me a better understanding of 
what is being discussed?
    Answer. Specific programs included in the fiscal year 2014 budget 
were reprogrammed as directed by the July 28, 2014 memo identifying 
specific programs for reprogramming. The majority of these programs 
were in California and others were distributed in other regions based 
on their priority needs. Reclamation's fiscal year 2015 budget includes 
funding to address the need to consider Court Ordered Revised Control 
Schedule activities that support the Demonstration Treatment Plant as 
well as the potential for the re-initiation of drainage activities in 
Westlands in the event negotiations are unsuccessful. Given the 
progress in the negotiations and other factors, the funding levels for 
fiscal year 2015 were reduced from the amounts identified on the 
Revised Control Schedule as originally filed with the Court which are 
less than the levels identified in the Control Schedule filed with the 
Court. Also, the April 30, 2014 Court Order confirmed that, during the 
partial suspension of the implementation of the Revised Control 
Schedule, Reclamation may redirect a portion of appropriations 
designated for drainage activities within Westlands to other high 
priority activities. However, the Court cautions the parties that 
further extension requests will be viewed with disfavor and must be 
supported by specific showings of progress toward settlement and 
absence of harm to the public interest resulting from further delay.
                            sites reservoir
    Question. The Committee has indicated its interest in accelerating 
the completion of the CALFED authorized storage studies and getting to 
a decision about whether to construct these new water storage 
facilities as soon as possible. The budget request does not reflect any 
particular urgency to see these studies completed. For example, 
Reclamation has budgeted only $100,000 in fiscal year 2015 for work on 
the Sites Project. That does not seem sufficient to meet the optimum 
schedule for completion of this work. The Sites Project Joint Powers 
Authority and others believe the Final Feasibility Study and the Final 
Joint EIR/EIS on the Sites Project can be completed by June 30, 2015. 
Can you tell the Subcommittee what additional resources you intend to 
commit to this effort in fiscal year 2014 and what additional resources 
are needed in fiscal year 2015 in order to meet that June 30, 2015 
target date for the completion of the Final Feasibility Study and Final 
Joint EIR/EIS?
    Answer. Reclamation and the State of California agreed to cost 
share the CALFED storage projects at a program level. As planned and 
agreed, the State was to be the primary funder of the Sites project, 
expending four-fold over Federal expenditures. Other than bond funding 
provided to the Sites Joint Powers Authority, the State ceased funding 
Sites in 2010. Reclamation did not request additional appropriations to 
maintain the Sites project schedule for two reasons: (1) Reclamation 
policy required a minimum of a 50 percent non-Federal cost share for 
all feasibility studies; and (2) The State legislators and voters 
approved the framework for a large ``Water Bond''. The amount and 
makeup of the total bond fund that was to be established separately in 
2010, was delayed to 2012, and again delayed to 2014. Reclamation's 
Commissioner approved a limited waiver to the cost share policy through 
2017. At this time, Reclamation is focusing planning efforts on Shasta 
and Upper San Joaquin. The fiscal year 2015 funding request is 
sufficient to meet the scheduled milestones for these studies.
    Question. This project is estimated to generate over 500,000 acre-
feet of water each and every year, and it will allow the CVP and the 
State Water Project to keep an additional 1.3 million acre-feet of 
usable water in storage, in Sites and the other existing Federal and 
State reservoirs north of the Delta, at the end of each year. Can you 
provide the Subcommittee with the steps Reclamation can take to 
expeditiously complete work on the Sites Project studies and the 
studies on the other CALFED storage projects?
    Answer. Reclamation is on track to complete studies to raise Shasta 
Dam and increase storage in the Upper San Joaquin River Basin. Due to 
cost sharing requirements, funding increases for non-Federal 
participation are needed for Sites and Los Vaqueros.
    Question. How is Reclamation weighing the pros and cons of each of 
the CALFED storage projects?
    Answer. Reclamation's analysis follows the process outlined in the 
Principles and Guidelines for Water and Related Resources Development. 
Each project includes two primary objectives: water supplies and 
ecosystem enhancement.
    Question. Specifically: How is Reclamation calculating the public 
benefits for each of the CALFED storage projects and are they being 
calculated equally?
    Answer. Reclamation is following the process described in the 
Principles and Guidelines for calculating all benefits from all four 
storage studies currently underway. In addition, Reclamation is 
providing input to the California Water Commission as they develop 
State guidelines for identifying and quantifying public benefits.
    Each project is unique in the benefits provided and/or the 
information available to calculate the benefits. For example, a 
population-level model of existing anadromous fish populations is 
available to help quantify the benefits of providing additional cold 
water in the Sacramento River below Shasta Dam. However, the benefits 
of cold water releases from Friant Dam cannot be calculated in the 
exact same way because the anadromous fish population does not 
currently exist in the San Joaquin River between Friant Dam and the 
Merced River.
    Question. Are the cold water and salmon protection values for 
Temperance Flats, for example, the same as those values for the Shasta 
raise project or Sites?
    Answer. These studies are still works in progress, in draft form at 
most, and have not been completed or fully reviewed. As previously 
mentioned, Reclamation will follow the process described in the 
Principles and Guidelines (P&G) for calculating all benefits from all 
four storage studies currently underway. The source of information 
available to value environmental benefits varies from project to 
project due to varying existing conditions, varying least-cost 
alternatives, etc. As we continue working towards completion of these 
studies, we will apply the long-established principles and processes 
described in the P&G in a way that is appropriate for the unique 
attributes of each study.
    Question. If Reclamation determines there is a Federal interest in 
moving forward with one or more of the CALFED storage projects, does 
Reclamation intend to seek Federal funding, using Reclamation's 
traditional approach of seeking funds to cover the non-reimbursable and 
the reimbursable portions of the projects?
    Answer. Public Law 108-361 Sec. 103 (d) 1 (B) states ``If on 
completion of the feasibility study . . . the Secretary, in 
consultation with the Governor, determines that the project should be 
constructed in whole or in part with Federal funds, the Secretary shall 
submit the feasibility study to Congress.'' If there is a determination 
of Federal interest and a decision to seek congressional authority for 
construction, Reclamation would evaluate whether to seek Federal 
funding, concurrent with an up-front non-Federal cost share, as part of 
the annual Budget process. It is also possible the State or another 
non-Federal entity may wish to implement one of the storage projects 
currently being studied, other than Shasta Dam, with no, or more 
limited, Federal involvement.
    Question. And what are the currently projected reimbursable and 
non-reimbursable costs for each project?
    Answer. As previously mentioned, these studies are still works in 
progress, in draft form at most and have not been completed or fully 
reviewed, and all of the following information is subject to change: 
Reclamation has prepared preliminary cost allocations for the Shasta 
and Upper San Joaquin projects. The alternatives in the draft 
Feasibility Reports that appeared to have the highest net National 
Economic Development benefits are displayed below as an example to 
demonstrate how costs may be allocated and then assigned to 
reimbursable and non-reimbursable purposes. However, final alternatives 
have not yet been selected for any of the projects. Further, for the 
Upper San Joaquin project, the potential for State bond funding was 
incorporated. The following tables display information from the Draft 
Feasibility Reports.

              EXAMPLE OF CONSTRUCTION COST ASSIGNMENT FOR SHASTA LAKE WATER RESOURCES INVESTIGATION
                                              [Dollars in millions]
----------------------------------------------------------------------------------------------------------------
                                                                                         Cost Assignment
                         Purpose/Action                               Total     --------------------------------
                                                                                 Nonreimbursable   Reimbursable
----------------------------------------------------------------------------------------------------------------
Irrigation Water Supply........................................           132.5              0.0           132.5
Municipal and Industrial Water Supply..........................           198.6              0.0           198.6
Fish and Wildlife Enhancement..................................           654.9            654.9             0.0
Hydropower.....................................................            84.0              0.0            84.0
                                                                ------------------------------------------------
    Total......................................................         1,069.9            654.9           415.0
----------------------------------------------------------------------------------------------------------------
Notes:
All numbers are rounded for display purposes; therefore, line items may not sum to totals.
Subject to refinement/change during remainder of feasibility study.


                EXAMPLE OF CONSTRUCTION COST ASSIGNMENT FOR UPPER SAN JOAQUIN RIVER BASIN STORAGE
                                              [Dollars in millions]
----------------------------------------------------------------------------------------------------------------
                                                                                          Nonreimbursable
                             Purpose                               Reimbursable  -------------------------------
                                                                                      Federal       State/Local
----------------------------------------------------------------------------------------------------------------
Water Supply:
    Agricultural Water Supply Reliability.......................           306.8             0.0             0.0
    Municipal and Industrial Water Supply Reliability...........           360.9             0.0             0.0
    Emergency Water Supply......................................             0.0             0.0           440.8
    Municipal and Industrial Water Quality \1\..................             0.0             0.0             0.0
Ecosystem.......................................................             0.0           627.7           627.7
Hydropower......................................................            25.8             0.0             0.0
Recreation......................................................             0.0            61.9            61.9
Flood Damage Reduction..........................................             0.0            32.2            32.2
                                                                 -----------------------------------------------
        Total...................................................           693.5           721.8         1,162.6
----------------------------------------------------------------------------------------------------------------
Note:
\1\ Water quality improvements for specific beneficiaries are assumed to be reimbursable to Federal, State or
  local governments. Delta water quality improvements may be a broad public benefit and nonreimbursable. There
  is no Municipal and Industrial water quality benefit for the Upper San Joaquin River storage.
Subject to refinement/change during remainder of feasibility study.


    Question. Can you provide the Subcommittee with a schedule of when 
Reclamation anticipates that these projects will come to this Congress 
for an authorization to construct and the timing of associated 
appropriations requests?
    Answer. Reclamation currently estimates the Final Feasibility 
Reports and Environmental Impacts Statements for the Shasta Lake Water 
Resources Investigation and the Upper San Joaquin River Basin Storage 
Investigation could be sent to Congress in the spring and fall of 2015, 
respectively. While we are working to complete the studies as quickly 
as possible, they are still in draft form and are still subject to: 
review from the State and other Federal agencies, a mandatory public 
comment period, and further review within the Administration, prior to 
transmittal to Congress. Decisions on any specific appropriations 
requests will be developed during the agency's budget formulation 
process. Furthermore, any appropriation requests would be contingent on 
decisions regarding the feasibility of the projects as well as the 
establishment of construction cost-share agreements.
    Question. What steps is Reclamation taking to informing the project 
locals or the other beneficiaries paying for the water supply costs and 
to determine if the projects under consideration are affordable to 
potential project beneficiaries?
    Answer. In addition to numerous public meetings, workshops, and 
hearings, Reclamation has established a CVP Operating Partner Forum 
made up of representatives from the water authorities established to 
operate and maintain CVP conveyance facilities. Reclamation meets with 
the forum frequently to discuss how new projects may be operated, may 
affect the operating partners, may be operated more effectively, and 
may be cost shared and repaid.
                           general questions
    Question. What Role does Reclamation see for water recycling and 
desalinization in the future of Western water?
    Answer. Water recycling offers a drought resistant water supply, 
since sources such as treated municipal wastewater continue to be 
available during periods of water shortage. For example, recycled water 
has proven very useful during the current drought in California as it 
provides a source of water without the need for additional water 
supplies from the Sacramento River or Bay-Delta. Desalination, although 
expensive, can provide drought resistant supply augmentation in 
appropriate circumstances. In 2013, for example, recycling and 
desalination projects funded through Reclamation's Title XVI Water 
Reclamation and Reuse Program delivered 385,000 acre-feet of recycled 
water, including about 350,000 acre-feet in California.
    Question. Do you believe there should be a Federal role in 
desalinization beyond the current R&D efforts through either grants or 
direct project construction participation?
    Answer. Reclamation's current focus in this area is in addressing 
the existing congressionally authorized reuse projects so those 
projects can complete construction and begin to deliver additional 
water as soon as possible. The President's fiscal year 2015 Budget of 
$21.5 million for the Title XVI program reflects the important role 
water recycling plays in efforts to work toward sustainable water 
management. In this tight fiscal climate, construction funding is 
focused on those existing reuse projects owned and operated by non-
Federal entities.
    Question. How does recycled water play into the future of western 
water supplies?
    Answer. Although expensive, water recycling provides relatively 
valuable water, flexibility, helps to diversify the water supply, and 
reduces the pressure to transfer water from agricultural to urban uses. 
Particularly in drought-prone areas of the West, desalinated water and 
treated wastewater are among the most drought-proof components of the 
water portfolio, since sources such as treated municipal wastewater 
continue to be available during periods of water shortage. States such 
as California and Texas have made water reuse a fundamental part of 
their strategies to meet current and future demands.
    Question. Is there any estimate of the potential water savings that 
could be achieved if more water recycling was done?
    Answer. In its 2012 report, Water Reuse: Potential for Expanding 
the Nation's Water Supply, the National Research Council of the 
National Academies calculated there is a very large potential for water 
reuse in this country, particularly in areas where municipal effluent 
is discharged at coastal locations and ``lost'' to the ocean.
    The State of California made water reuse a fundamental part of its 
strategy to meet current and future demands and estimates 900,000 to 
1.4 million acre-feet of ``new water'' could be added to the State's 
supply by reusing municipal wastewater that currently flows to the 
ocean or saline bays. The 2012 Texas State Water Plan projects about 
614,000 acre-feet of water per year will become available by 2060 from 
existing water reuse infrastructure. In addition to the existing 
supply, the 2012 Texas State Water Plan recommends obtaining 
approximately 915,000 acre-feet per year of new water supplies from 
water reuse strategy by 2060.
    Question. (a)What would the environmental impact be of additional 
water recycling?
    Answer. Typical wastewater discharges may cause adverse ecological 
effects in receiving water bodies, due to individual constituents that 
may arise from industrial, household, or wastewater treatment plant 
applications. Recycled water is treated to higher levels than typical 
wastewater discharges, providing additional environmental benefits to 
the bodies of water that would otherwise receive these discharges. 
However, recycled water also produces effluent with elevated 
concentrations of contaminants which are sometimes discharged into 
water bodies at higher concentrations than typical wastewater 
discharges. Water recycling may also reduce diversions from rivers 
leaving more water instream for plant and animal species that rely on 
surface water flows. However, as the National Research Council of the 
National Academies notes, some water recycling projects may affect the 
water supply of downstream ecosystems due to decreased return flows. 
All of the environmental impacts of water recycling must be considered 
when examining the benefits of such projects.
    Question. (b) For instance, I have been told that by recycling 
water, rather than letting it flow unimpeded to the ocean, that we 
could improve near shore pollution levels by keeping those pollutants 
in the watershed and addressed through the recycling process. Is that 
benefit factored into the economics of recycled water?
    Answer. Recycling water that would otherwise be discharged to 
rivers, lakes, or the ocean does have multiple benefits, including 
improving water quality by not discharging wastewater into the 
environment. As they plan their projects, sponsors of water reuse 
projects commonly perform integrated economic analyses that include 
qualitative factors, such as social and environmental benefits, to 
evaluate the full benefit of the water recycling project.
    Question. Should it be a part of the analysis? Perhaps we are not 
counting significant environmental benefits that are provided by water 
recycling.
    Answer. Environmental benefits are an important consideration under 
the Title XVI evaluation criteria used by Reclamation to identify 
projects for funding. Points are awarded based on the extent to which 
the project will improve surface, groundwater, or effluent discharge 
quality; will restore or enhance habitat for non-listed species; or 
will provide water or critical habitat for federally listed threatened 
or endangered species. By incorporating environmental benefits into 
those selection criteria, Reclamation provides an opportunity for 
project sponsors to articulate those aspects of their projects to 
ensure those benefits are part of the analysis used to make funding 
allocations.
    Question. You have ``doubled down'' on your Water SMART grants 
proposal for fiscal year 2015. Is this primarily due to the dry 
conditions, or are there other reasons for this increase in grant 
funding?
    Answer. The President's Budget for Water SMART Grants represents a 
continuing recognition of the importance of water efficiency projects. 
Projects funded under the program are completed within 2 to 3 years, 
resulting in a near-term impact on water and energy conservation and 
improved water management. In addition, many Water SMART Grant projects 
make important contributions beyond water and energy efficiency, 
including increasing the use of renewable energy, protecting endangered 
species, or facilitating water markets. Interest in the program 
continues to be strong, with only the most competitive proposals moving 
forward. Each year, requests for funding are three to five times larger 
than available funding. The continued high level of interest in funding 
reflects the priority that water managers across the West place on 
water efficiency and other improvements to increase sustainability.
    Question. What is the water savings that you anticipate could be 
achieved through these grants?
    Answer. Water SMART Grants contribute the largest share of water 
savings to the Department's Priority Goal for Water Conservation. Water 
SMART Grant projects, along with other programs that contribute to the 
Goal, are expected to result in water savings of 840,000 acre-feet, 
cumulatively since the end of fiscal year 2009 through fiscal year 
2015. Projects funded through fiscal year 2013 have contributed 730,000 
acre-feet toward that goal, and 50,000 acre-feet of water savings are 
expected to result from fiscal year 2015 appropriations for the 
contributing programs.
    Question. We have made significant progress on screening major 
diversions to ensure that anadromous fish do not get trapped in these 
diversions. What is the status of this program?
    Answer. Since 1992, Reclamation provided funding for the 
construction of 41 fish screens, which cumulatively screen over 6,000 
cubic feet per second (cfs) of previously unscreened diversions in 
California's Central Valley, including the Sacramento and San Joaquin 
Rivers and tributaries as well as the Sacramento-San Joaquin Delta. We 
expect in fiscal year 2014, a contract will be awarded to initiate 
construction on the largest major unscreened diversion on the 
Sacramento River by Reclamation District RD-2035, which serves the 
Woodland-Davis area. A 160 cfs screened diversion on the Sacramento 
River for Natomas Mutual at their Pritchard Lake diversion is funded 
and work is expected to complete this year. There is a proposed 135 cfs 
diversion remaining on the Sacramento River operated by Meridian Farms, 
which is still under consideration for funding by the Anadromous Fish 
Screen Program (AFSP) if fishery benefits and cost-share issues can be 
worked out; and a proposed fish screen project for West Stanislaus on 
the San Joaquin River which is still in the planning stages. Completion 
of these projects would complete the diversion of all 100 cfs or 
greater diversions. There are scores of smaller diversions, many of 
which may be good candidates for screening based upon their location 
and the fishery benefits to be derived. These additional smaller screen 
projects are evaluated by Federal and State fishery biologists within 
the AFSP with screening costs typically being less than $1 million per 
facility. The Federal Government provides up to 50 percent of the 
shared cost for fish screens under the AFSP. The completion of the Red 
Bluff Fish Screen (2500 cfs) and Passage project on the Sacramento 
River near Red Bluff, California in 2012-2013 was a major 
accomplishment.
    There are also fish screen and fish passage activities underway in 
other regions within Reclamation. An example is the fiscal year 2015 
funding request to initiate construction on the Cle Elum fish passage 
in the Yakima River Basin Water Enhancement Project in the State of 
Washington.
    Question. What is the schedule for completing these projects?
    Answer. According to the Fish Screens Schedule, Reclamation 
anticipates construction on the RD 2035 fish screen to begin in 2014 
and to be completed within a 3 year period subject to the continued 
availability of Federal funding. Screening for the Natomas Mutual 
Pritchard Lake diversion is scheduled to start the summer of 2014 and 
be completed in 2015, subject to completing compliance under the 
Endangered Species Act; all funding for the project has been obligated. 
There are unresolved issues relative to providing Federal funding for 
the Meridian Farms project and that project does not have non-Federal 
cost-share dollars that would yet allow this project to proceed; the 
West Stanislaus project is not far enough along to establish a 
completion schedule, and they have not identified a source of funding 
for the non-Federal cost-share. With respect to the dozens of smaller 
screen projects that might be proposed for screening, we have no date 
for completion as we do not have information as to how many of these 
diversions might justify screening based upon biological benefits to be 
derived.
    Question. The budget request for Indian Water Rights Settlements 
for fiscal year 2015 is $90 million. This is up nearly 75 percent from 
fiscal year 2012, the first year this account appeared in your budget. 
These settlements made up 5 percent of your overall fiscal year 2012 
request but now make up 8.7 percent of your overall fiscal year 2015 
request. I am concerned that this number is rising significantly faster 
than your overall budget request squeezing out other work. It is 
important that these settlements be kept on track, however, it is also 
important that other work that Reclamation undertakes be kept on 
schedule as well. Do you see these requirements continuing to escalate?
    Answer. The principal driver of the discretionary budgetary 
increases since fiscal year 2012 for Indian Water Rights Settlements 
(IWRS) is the Navajo-Gallup Water Supply Project. The fiscal year 2012 
funding for the IWRS account of $51 million was increased primarily to 
make sure Reclamation meets the deadline of 2024 for completion of the 
Navajo--Gallup Water Supply Project. If the project completion deadline 
is not substantially met, the Navajo Nation may submit a petition to 
the court to terminate the San Juan Basin in New Mexico Navajo Nation 
Water Rights Settlement Agreement; thereby increasing uncertainty for 
all Colorado River water users. Funding has increased over time from 
$25 million in fiscal year 2012 to $81 million in the fiscal year 2015 
President's Budget request. Beginning in fiscal year 2020, mandatory 
funds will supplement annual appropriations to support completion of 
the $1 billion project, but this level of annual appropriations is 
necessary to keep the project on schedule.
    The Taos Pueblo Indian Water Rights Settlement (NM) is expected to 
require only one additional year of appropriations funding in 2016. The 
Crow Tribe Water Rights Settlement (MT) and the Aamodt Litigation 
Settlement Act (NM) will require discretionary appropriations into the 
future, but also have access to specific quantities of mandatory funds 
that supplement annual appropriations. The White Mountain Apache (AZ) 
settlement does not require annual appropriations in 2015 as mandatory 
funding is available under the 2010 Claims Resolution Act.
    Question. If so, how will they be addressed in future budgets 
without impacting other Reclamation missions?
    Answer. Both Public Law 111-11 and Public Law 111-291 make 
available significant amounts of mandatory funding to Indian water 
settlements. Public Law 111-291, the Claims Resolution Act of 2010, 
directed almost $625.0 million in mandatory funding to projects 
administered by Reclamation. These mandatory funds have been received 
from Treasury. Most of the funds are associated with construction and 
they will be indexed to account for inflation. In addition, Public Law 
111-11 will make available $120 million per year between fiscal year 
2020 and 2029 for a total of $1.2 billion in mandatory funding to a 
broad range of current and prospective Indian water settlements.
    The availability of significant mandatory funding will allow 
Reclamation to plan for the balanced use of discretionary and mandatory 
funding over a series of years. Reclamation's future budget requests 
and plans will reflect the judicious application of mandatory and 
discretionary funding for Indian water settlements. Indian Water 
Settlements' projects and activities are an important constituent of 
Reclamation's overall mission and goals. In this difficult budget 
climate, Reclamation's future request for their funding will provide 
for equity and balance throughout Reclamation's entire portfolio of 
mission essential projects and programs.
    Question. (a) For Title XVI projects, Reclamation has developed a 
competitive funding opportunity system for providing Title XVI funds 
rather than choosing projects to budget for as was past practice. Has 
this competitive system resulted in providing funds to more deserving 
projects?
    Answer. We believe the process used to select Title XVI projects 
for funding has been successful at allowing Reclamation to prioritize 
the projects that most closely match program goals through a process 
that is transparent to all potential applicants and the public.
    Question. (b) How?
    Answer. The funding criteria Reclamation developed in 2010 are used 
to identify the Title XVI projects that most effectively stretch water 
supplies and contribute to water supply sustainability; address water 
quality concerns or benefit endangered species; incorporate the use of 
renewable energy or address energy efficiency; deliver water at a 
reasonable cost relative to other water supply options; and meet other 
important program goals. Reclamation incorporated these criteria into 
funding opportunity announcements used each year to invite sponsors of 
authorized projects to apply for funding. Proposals are evaluated 
against these criteria to identify projects for funding.
    Question. (c) Could there be advantages to providing a few larger 
grants over a period of several years to provide a reliable funding 
stream for regional systems or does the competitive nature of the 
current system ensure that the most viable projects are funded 
regardless of their size?
    Answer. We believe the current procedure does provide a reliable 
funding stream for projects that closely match program goals--including 
larger regional projects. In 2012, Reclamation made significant 
revisions to its funding opportunity announcements for the Title XVI 
Program to address feedback and to ensure the program works as well as 
possible and in a way that minimizes the burden on project sponsors, 
including sponsors of large or regional projects that may have longer 
construction timeframes. Sponsors may request up to $4 million 
annually, which is more per project than what was made available before 
the use of funding criteria, as planning, design, and construction 
activities continue, without being required to divide large projects 
into shorter phases. Regional-scale projects that include multiple 
partners are an important part of the Title XVI Program. Reclamation's 
funding criteria provide significant consideration for projects that 
implement a regional planning effort or include collaborative 
partnerships to meet the needs of a region or watershed.
    Question. (a) Regional water reuse projects appear to offer the 
opportunity to generate very substantial amounts of additional water, 
relatively quickly. This Committee provided additional resources for 
water reuse, Title XVI in fiscal year 2014. What is being done, if 
anything, to advance these regional water reuse projects, which appear 
to offer opportunities for near-term significant additional water 
supplies for many of our drought stricken, water short regions?
    Answer. Within the Title XVI Program, funding criteria reflect 
Reclamation's assessment that regional-scale or watershed-based 
projects can be particularly effective at achieving results. The 
funding criteria addresses the extent to which a project applies a 
watershed or regional- scale approach, and provide significant 
consideration of the extent to which a project implements a regional 
planning effort or includes collaborative partnerships among multiple 
entities to meet the needs of a region or watershed. Additional 
resources are being made available to congressionally authorized 
projects that most closely match those goals, including projects that 
use a watershed or regional-scale approach. Additional resources are 
also being made available for development of new water reuse 
feasibility studies.
    Question. (b) Is Reclamation taking any steps to implement the 
guidance that the House and Senate Appropriations Committees provided 
in the reports to accompany the fiscal year 2014 Energy and Water 
Development Appropriations bill encouraging the Bureau of Reclamation 
to consider providing additional assistance for regional water reuse 
projects?
    Answer. This year, Reclamation made significant adjustments to its 
funding opportunity announcement for development of new water reuse 
feasibility studies. Applicants may submit requests in one of two 
funding groups, including one category that allows for up to $450,000 
per study (previously applicants could only request up to $150,000) and 
up to 3 years to complete the study. This adjustment allows sponsors of 
potential new regional-scale projects additional flexibility, a point 
communicated to potential applicants in the funding opportunity 
announcement used to solicit proposals, without a significant effect on 
other important program goals.
    Question. What do you believe is an appropriate role for 
Reclamation to play in recycled and impaired water research and 
development?
    Answer. Consistent with the 2008 National Research Council report 
on the role of Federal R&D investments related to advanced water 
treatment research, Reclamation's R&D role is to encourage investments 
in areas where private-sector entities are unwilling to make 
investments and assume risk, and where the benefits are widespread.
    Question. Does your budget support these R&D efforts?
    Answer. Reclamation's R&D budget requests lead to innovation and 
solutions that can be successfully implemented by the private and 
public sectors. This role includes providing funding for the 
identification of institutional barriers and identifying research gaps, 
for lab-scale testing, for pilot-scale testing, for demonstration-scale 
testing, and for the transfer of new technologies and solutions in 
water treatment.
    Question. Can you give me an update on Quagga Mussel R&D? Are there 
any promising techniques to address this invasive species?
    Answer. Reclamation R&D has been pursuing a spectrum of quagga 
mussel prevention and control technologies for both closed conduit and 
open water applications. Specific research includes:
  --Biocides to eradicate mussel infestations;
  --UV light technologies to prevent and eradicate mussel infestations;
  --Coatings sufficiently durable to protect metal water infrastructure 
        yet not allow mussels to attach; and
  --Evaluating underwater pulse-pressure technologies as a method to 
        prevent mussel infestations.
    Significant advances resulting from Reclamation's investments in 
quagga mussel R&D include:
  --Working with Reclamation under a Cooperative Research and 
        Development Agreement (CRADA), Marrone Bio Innovations matured 
        their biocide based technology into a commercial-ready product 
        to eradicate and control infestations in small diameter 
        conduits. Following tests at Davis Dam, the product received an 
        EPA label for commercial use.
  --Reclamation demonstrated, working in partnership with private 
        sector consultants and industry representatives, that certain 
        forms and dosing of commercially available UV light 
        technologies offer an additional promising alternative for 
        closed conduit applications.
  --Reclamation has been testing commercially available coatings for 
        their ability to prevent mussel attachments. Although many 
        commercially available coatings were found to prevent mussel 
        attachments, none of the coatings tested were able to provide 
        the durability needed to adequately protect Reclamation's metal 
        water infrastructure (e.g. gates, screens, trashracks, 
        penstocks, pipes etc.). As such, Reclamation's Science and 
        Technology Program entered into a CRADA with a U.S. coating 
        manufacturer in 2014 to jointly develop and commercialize such 
        a coating.
  --Reclamation entered into a CRADA with Fluid Imaging Technologies to 
        conduct research for improving automated detection and 
        quantification of invasive mussel larvae (also known as 
        ``veliger''). Under the CRADA, both parties jointly improved 
        the Fluid Imaging Technologies' FlowCAM into a new commercially 
        available VeligerCAM to accurately count abundant organisms 
        including mussel larvae and monitor physical larvae damage.
    Question. Is Reclamation continuing to work with States to ensure 
water bodies not currently infested with Quagga mussels remain that 
way? What are the steps that Reclamation is taking to prevent the 
further spread of these invasive species?
    Answer. Reclamation continues to work with the western States and 
other Federal agencies to maintain our Mussel Detection and Monitoring 
Program. Water samples from hundreds of water bodies are collected by 
both Reclamation and the States and are tested for the presence of 
microscopic mussel larvae. Testing is provided at no cost to the 
States. Water quality data is collected at the same time to improve our 
understanding of the susceptibility of various water bodies to mussel 
infestation. Reclamation shares all results with our recreation 
management partners to assist in their efforts to educate the public 
and to implement boat inspection and cleaning programs.
                                 ______
                                 
                Questions Submitted to Hon. Anne Castle
 Questions Submitted by Senator Dianne Feinstein on Behalf of Senator 
                             Michael Bennet
    Question. Assistant Secretary Castle, I'd like to raise an issue 
about which you and I have spoken several times, and which I know you 
appreciate is a top priority for both Senator Udall and me: the future 
of the Arkansas Valley Conduit. As you know, the conduit is a planned 
water-delivery system from the Pueblo Dam to communities throughout the 
Arkansas River Valley that will help bring clean drinking water to up 
to 42 municipalities, towns, and water providers in southeastern 
Colorado. With the water in so many of these communities contaminated 
and unsafe to drink, Coloradans urgently need construction on this 
conduit to move forward as quickly as possible.
    I appreciate that the Bureau of Reclamation signed a final record 
of decision for the conduit in February, clearing the way for work to 
proceed. But I am also troubled by the Administration's decision to 
propose just $500,000 in the Bureau of Reclamation's fiscal year 2015 
budget.
    Are the Bureau of Reclamation and the Department of the Interior 
committed to building the Arkansas Valley Conduit, a project that 
President Obama has publicly identified as a priority?
    Answer. Reclamation continues to make progress in engineering 
design for the project. Current constrained budgets, along with 
competing water infrastructure needs across the West, have made it 
difficult to fund new large-scale projects. Reclamation continues to 
identify funding opportunities when they arise.
    Question. Can you provide more context as to why the Administration 
chose only to request $500,000 to fund the project for fiscal year 
2015?
    Answer. In fiscal year 2014, the Arkansas Valley Conduit received 
appropriations of $1 million as well as an additional $2 million of 
reprogrammed funds in order to advance the engineering design drawings, 
land acquisition planning, and other necessary pre-construction design 
work. The proposed funding level for fiscal year 2015 is a result of 
the constrained fiscal environment. In fiscal year 2015, pre-
construction activities of data collection and engineering work for the 
completion of the final design will continue.
    Question. And finally, with the ROD signed and with several 
communities now under enforcement orders to meet the standards of the 
Safe Drinking Water Act, can we look forward to increased support for 
this project in the fiscal year 2016 budget?
    Answer. The Record of Decision helps make it possible for the 
Arkansas Valley Conduit to make the most of any funding opportunities 
that may become available, whether at the Federal, State, or local 
level. As the fiscal year 2016 budget for Reclamation is developed, 
careful consideration will be given to this project.
                                 ______
                                 
               Questions Submitted by Senator Tim Johnson
    Question. Over the years, Congress has made it clear that it is 
important that rural residents have access to clean, safe drinking 
water. The President's fiscal year 2015 budget request for the Bureau 
of Reclamation's Rural Water Projects proposes a reduction of more than 
50 percent from the enacted fiscal year 2014 funding, which itself 
falls far short of meeting the needs of the existing authorized 
projects. With the approach the Department is taking on these projects, 
it will take several decades to bring them to completion. Why does the 
Department appear to place such a low priority on these projects?
    Answer. Reclamation recognizes current and projected appropriations 
may not be sufficient to fully address all of the needs and 
capabilities to meet the goals for every project. Consequently, as has 
been the case in the past, Reclamation must prioritize the allocation 
of its available funding--both on an annual and on a long term basis. 
In response, Reclamation developed a set of objective prioritization 
criteria to guide its decisionmaking process in order to maximize the 
agency's ability to meet its programmatic goals, to maximize water 
deliveries to rural communities in as short a period as possible, and 
to reflect the diverse needs and circumstances facing each individual 
project. The criteria also reflect the goals and priorities identified 
in the statutes that authorized each individual rural water project as 
well as the goals of the Reclamation Rural Water Supply Act (Public Law 
109-451).
    Question. What steps can the Department take to help bring these 
authorized projects to completion in a reasonable timeframe?
    Answer. Demand for funding in Reclamation's rural water projects 
continues to substantially outpace the available funding. Competing 
priorities for limited funding include obligations under valid Court 
orders, Indian water rights settlement funding requirements, and 
restoration and environmental obligations that support the continuation 
of provision of existing supplies. The additional funding of $27.1 
million that was made available by Congress in fiscal year 2014 was 
allocated to the individual projects and fully obligated as of 
September 24, 2014. Reclamation will work with the projects' sponsors 
to effectively apply all resources that are appropriated to rural water 
projects.
    Question. The President's fiscal year 2015 budget request for the 
Mni Wiconi Project in South Dakota is $12 million for operations and 
maintenance activities. This is the same amount that was enacted in 
fiscal year 2014 despite more of the Project having been completed and 
come into operation. Can you explain why the Bureau of Reclamation 
proposes a flat budget for a larger and more complex project that faces 
continued increases in fixed costs?
    Answer. The fiscal year 2012 budget for Operation and Maintenance 
(O&M) activities was $10 million. The fiscal year 2013 and fiscal year 
2014 budgets were $12 million. The increase was primarily due to the 
need to accomplish critical replacements, additions, and extraordinary 
maintenance (RAX) items. Reclamation determined the increase of $2.0 
million in the fiscal year 2013 and 2014 O&M budgets above the fiscal 
year 2012 budget is sufficient to allow a flat budget request for 
fiscal year 2015. While there has been a great deal of construction in 
this project over the last several years, the amount of O&M needed is 
not directly related to the amounts spent on construction. A great deal 
of recent construction involves buried pipe which requires little 
maintenance. Although the amount budgeted for RAX items will be less in 
fiscal year 2015, the budget of $12 million is, in total, adequate to 
cover the routine O&M costs and the planned RAX items.
    Question. Of this $12 million, I understand that $1.68 million will 
be used by the Bureau of Reclamation for its oversight of the Operation 
and Maintenance activities of the Project and $500,000 for Replacement, 
Additions and Extraordinary Maintenance, leaving less than $10 million 
for the Tribes to carry out the on-the-ground activities that keep the 
Project going. Can you please confirm the amount of the Mni Wiconi 
Project appropriation that is proposed for the Bureau of Reclamation 
and provide details on how that funding is used to support the Project?
    Answer. Of the $12 million requested, approximately $1.09 million 
is anticipated to be used by the Bureau of Reclamation for its 
oversight and technical assistance, including salaries, of the O&M 
activities of the Project.
    An additional $646,000 will be reserved by Reclamation to provide 
services to the tribal programs including approximately $213,000 for 
contracts (Core treatment plant crack repairs, Core system cathodic 
protection), equipment, and travel. $432,000 is budgeted for the 
Western Area Power Administration to provide electrical power for the 
water treatment plant. We anticipate providing approximately 
$10,264,000, to the Tribes in fiscal year 2015 which includes $1.8 
million for Replacements, Additions, and Extraordinary Maintenance 
(RAX). These are Public Law 93-638 contracts, and the final amounts 
will be subject to negotiations.
    Question. As part of your response, please explain how many 
Reclamation employees are supported by this funding and what role they 
play in the operation and maintenance activities of the Project.
    Reclamation has approximately 7.5 full time equivalent staff 
supported by this funding to provide assistance to the Tribe. 
Reclamation staff provides technical assistance at the Tribe's request. 
For example, the Tribe requested technical assistance with an 
optimization study (an evaluation of the water treatment plant and core 
systems to determine what improvements, if any, would be beneficial for 
efficiency, energy consumption, water quality etc.) and an automatic 
meter reader project. Reclamation staff also provides assistance 
ranging from the solicitation of services to the administration of the 
contracts and the development of O&M operational procedures, 
troubleshooting equipment, compliance with Federal water quality 
regulations, training operators, financial, and operational issues. 
Finally, Reclamation staff has just completed assistance to tribal 
finance with determining available funds and repayment of disallowed 
cost and transfer of unallowable costs back into the program.

                          SUBCOMMITTEE RECESS

    Senator Feinstein. I think that we should have some 
discussions among us on a bipartisan basis as to how we might 
be able to be of more help, and I will leave that for the 
mystery of discussions to come.
    So thank you very much for being here today. And the 
hearing is adjourned. Thank you.
    [Whereupon, at 3:41 p.m., Wednesday, April, 2, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]
</pre></body></html>
